No. ________
In the Supreme Court of the United States
DONALD J. TRUMP,
Applicant,
v.
CYRUS R. VANCE, JR., in his official capacity as District Attorney of the County of
New York; MAZARS USA, LLP,
Respondents.

On Application for Stay
APPENDIX TO EMERGENCY APPLICATION FOR A STAY
PENDING THE FILING AND DISPOSITION OF
A PETITION FOR A WRIT OF CERTIORARI
Jay Alan Sekulow
Stuart J. Roth
Jordan Sekulow
CONSTITUTIONAL LITIGATION
AND ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave. NW,
Suite 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com

William S. Consovoy
Counsel of Record
Cameron T. Norris
Alexa R. Baltes
Bijan M. Aboutorabi
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd.,
Suite 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Patrick Strawbridge
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com

Counsel for Applicant
Dated: October 13, 2020

TABLE OF CONTENTS
District Court Decision and Order Dismissing Second Amended Complaint......App. 1
District Court Decision and Order Denying Emergency Motion for Administrative
Stay and Stay Pending Appeal............................................................................App. 104
Second Circuit Order Denying Emergency Motion for Administrative Stay and
Scheduling Hearing on Emergency Motion for Stay Pending Appeal...............App. 113
Second Circuit Order Granting Stay Pending Appeal.......................................App. 114
Second Circuit Opinion Affirming the District Court’s Dismissal of the Second
Amended Complaint............................................................................................App. 115
Second Amended Complaint...............................................................................App. 150

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 1 of 103

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
-------------------------------------X
DONALD J. TRUMP,
:
:
Plaintiff,
:
:
- against :
:
CYRUS R. VANCE, JR., in his official :
capacity as District Attorney of the :
County of New York, and
:
MAZARS USA, LLP,
:
:
Defendants.
:
-------------------------------------X

August 20, 2020

19 Civ. 8694 (VM)
DECISION AND ORDER

VICTOR MARRERO, United States District Judge.
Plaintiff Donald J. Trump (the “President”) filed this
action seeking to enjoin enforcement of a grand jury subpoena
(the “Mazars Subpoena”) issued by Cyrus R. Vance, Jr., in his
official capacity as the District Attorney of the County of
New York (the “District Attorney”), to the accounting firm
Mazars USA, LLP (“Mazars”). (See “Complaint,” Dkt. No. 1;
“Amended Complaint,” Dkt. No. 27.) The President initially
based his claim for injunctive relief on an allegedly absolute
immunity from criminal process while in office, which this
Court rejected by Decision and Order dated October 7, 2019.
See Trump v. Vance, 395 F. Supp. 3d 283 (S.D.N.Y. 2019). On
appeal, both the United States Court of Appeals for the Second
Circuit and the United States Supreme Court agreed that the
President was not entitled to an injunction based on his

App. 1

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 2 of 103

assertions of a temporary absolute immunity from criminal
process. See Trump v. Vance, 941 F.3d 631 (2d Cir. 2019);
Trump v. Vance, 140 S. Ct. 2412 (2020).
The case now returns to this Court on remand, pursuant
to

the

Supreme

Court’s

guidance

that

the

President

may

challenge the validity of the Mazars Subpoena on specific
grounds

apart

from

the

categorical

immunity

considered

initially and on appeal. (See Dkt. Nos. 47, 54.) In accordance
with the Supreme Court’s Opinion, the President has filed a
Second Amended Complaint claiming that the Mazars Subpoena is
overbroad

and

issued

in

bad

faith.

(See

Second

Amended

Complaint (“SAC”), Dkt. No. 57.) Now before the Court is the
District Attorney’s motion to dismiss the SAC for failure to
state a claim under Federal Rule of Civil Procedure 12(b)(6)
(“Rule 12(b)(6)”). (See “Motion,” Dkt. No. 62.) For the
reasons set forth below, the Court GRANTS the Motion and
dismisses the SAC with prejudice.
INTRODUCTION
“NOTHING COULD BE DONE”
At the oral arguments held before the Court of Appeals
for

the

Second

Circuit

late

last

year,

the

lawyers

representing the President, in both his official and personal
capacities,

advocated

the

novel

2

App. 2

theory

of

absolute

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 3 of 103

presidential
President

immunity

brought

below.1

detailed

the

action

in

To

federal

summarize,
district

the

court

challenging the grand jury subpoena issued by the District
Attorney, who was investigating potential violations of state
law arising from private conduct involving individuals and
entities associated with the President and covering a period
of time predating his election. In that connection, the
District Attorney sought certain financial records, including
eight years of President Trump’s tax returns. To this end,
the District Attorney served a grand jury subpoena on the
President’s

accounting

firm

demanding

production

of

the

documents.
The President’s counsel claimed that a sitting President
is absolutely immune from any form of judicial process in any
criminal case, and that the President could thus refuse to
comply

with

the

subpoena

by

withholding

the

materials

requested, as well as by directing the private accountant who

1

In its previous ruling on immunity issues raised in this litigation,
the Court offered some general observations about claims of absolute
presidential immunity from judicial process. That discussion was meant to
provide backdrop considerations that guided the Court’s inquiry and
reasoning regarding the factual and constitutional questions at issue.
Admittedly, those remarks were broad; they touched upon issues beyond the
specific grand jury subpoena in dispute, including whether an incumbent
President is or should be absolutely immune from any indictment accusing
him or her of criminal charges. To that extent, those comments may be
regarded as somewhat tangential. It is characteristic of a tangent,
however, that at some locus along an arc where the line touches the curve,
there the tangent makes a point.

3

App. 3

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 4 of 103

had

custody

of

the

records

not

to

produce

them

to

the

prosecutor. To stake out the limitless boundaries of the
exemption they asserted, the President’s attorneys gave the
appellate judges an example aggressive in its breadth and
telling by its extremity.

They declared that under their

theory of temporary absolute immunity, even if the President
(presumably any president) while in office were to shoot a
person in the middle of New York’s Fifth Avenue, he or she
would be shielded from law enforcement investigations and
judicial proceedings of any kind, federal or state, until the
expiration of the President’s term. Short of that time lapse,
they argued, “nothing could be done” by the authorities to
prosecute the crime.2 As this Court suggested in its earlier
ruling in this litigation, that notion, applied as so robustly
proclaimed by the President’s advocates, is as unprecedented
and far-reaching as it is perilous to the rule of law and
other bedrock constitutional principles on which this country
was founded and by which it continues to be governed.
TO BE SO BOLD
Various categorical “nothing-could-be-done” features of
the

temporary

absolute

immunity

2

theory

the

President’s

Oral Argument at 47:45, Trump v. Vance, 941 F.3d 631 (No. 19-3204),
https://www.c-span.org/video/?465172-1/circuit-hears-oral-argumentpresident-trumps-tax-returns (Judge Chin: “I’m talking about while in
office. That’s the hypo. Nothing could be done? That is your position?”
Counsel: “That is correct.”).

4

App. 4

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 5 of 103

counsel

proclaimed

in

the

previous

proceedings

in

this

litigation illustrate just how far the notion could stretch
and work in practice, why it raises such ominous implications,
and

why

judiciary

the

courts

that

at

the

reviewed

three

it

levels

of

unequivocally

the

federal

rejected

the

argument. Though not directly at issue here in relation to an
assessment of the SAC, for contextual purposes a review of
these contentions may be helpful. As depicted, temporary
absolute immunity would encompass every phase of judicial
process, whether conducted by federal or state prosecutors,
effectively precluding any investigation, indictment, trial,
and punishment of an incumbent President. Moreover, the bar
would apply to actions arising from the President’s discharge
of official duties as well as to conduct relating to his or
her private affairs. And the President could claim such
immunity

even

if

the

underlying

events

entailed

private

behavior that occurred before he or she assumed office.
Perhaps the most remarkable aspect of the purported immunity
is

that

in

essence

it

could

be

transmittable:

If

the

President’s potentially unlawful actions integrally entangled
misdeeds by other persons, absolute immunity protection could
be passed on to them so as to effectively forestall grand
jury inquiry, at the President’s will and behest, not only
into the President’s own behavior, but also potentially into
5

App. 5

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 6 of 103

offenses that may have been committed by third persons, such
as presidential staff, relatives, or business associates,
insofar as the suspected wrongdoing also touched upon the
President or his or her property or effects. The concept of
temporary absolute immunity would bear adverse consequences
for

the

fair

and

effective

administration

of

justice.

Theoretically, if reelected, a President could be in office
for eight years, perhaps longer in the case of a President
who assumes office to fill a vacancy in the presidency. For
a prosecutor to wait until then to obtain vital records
necessary for an investigation of potential criminal conduct
would risk that key witnesses would no longer be available
and that their memories of the events would have significantly
dimmed. In that event not only the President but also any
private individual accomplices implicated in serious crimes
could escape being brought to justice, while potentially
innocent persons snared in the scandal may be unable to gain
official exculpation.
At

the

President,

core,

as

the

well

as,

argument

declares

derivatively,

his

that

a

sitting

or

her

staff,

relatives, and business associates, current and former, stand
above the law and beyond the reach of any judicial process in
law

enforcement

proceedings

pertaining

to

potentially

criminal conduct and transactions involving an incumbent
6

App. 6

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 7 of 103

President. Such unlimited protection from judicial process
presumably

would

apply

no

matter

how

egregious

the

presidential wrongdoing charged -- even a murder on Fifth
Avenue, according to what the President’s attorney told the
appellate

court

in

this

case.

Moreover,

under

such

a

categorical enlargement of presidential immunity, any inquiry
concerning how substantially or minimally judicial process
would actually bear on a President’s discharge of his or her
official duties, the running of statutes of limitations, or
the involvement of accomplices and effects on them, would all
be irrelevant as well.
Rulings by this Court and the Second Circuit Court of
Appeals

repudiated

the

President’s

temporary

absolute

immunity theory.3 On further appeal, the United States Supreme
Court similarly rejected the President’s arguments, holding
that “the President is neither absolutely immune from state
criminal subpoenas seeking his private papers nor entitled to
a heightened standard of need.”4
The Supreme Court’s opinion in Trump v. Vance did not
definitively settle the controversy over the constitutional
scope and practical application of presidential immunity from
judicial

process.

Historically,

3

the

case

represents

the

Trump v. Vance, 941 F.3d at 646; Trump v. Vance, 395 F. Supp. 3d at 30116.
4 Trump v. Vance, 140 S. Ct. at 2431.

7

App. 7

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 8 of 103

latest

of

a

long

line

of

disputes

implicating

the

underpinnings and dimensions of that doctrine. Moreover, the
litigation

entailed

only

one

component

of

judicial

proceedings, a state grand jury investigation that possibly
could implicate various individuals and business entities,
potentially including the President, in charges of criminal
behavior. To that extent, the Supreme Court’s decision serves
as but a prologue to possible future rounds of litigation and
constitutional

confrontation

over

the

full

scope

of

presidential immunity encompassing other stages of judicial
process.

Here,

the

Court

elaborates

on

its

earlier

reflections on these issues for several reasons.
Although the Supreme Court’s opinion roundly denied the
President’s invocation of generalized categorical immunity to
justify his refusal to comply with the state grand jury
subpoena, in the SAC the President has asserted claims the
tenor and practical effect of which could be to engender a
form of presidential immunity by default. In particular, as
detailed further below, the President challenges the validity
and enforceability of the grand jury subpoena at issue,
claiming that it is overly broad and was issued in bad faith.5
To bolster these arguments, the President, quoting Supreme

5

See SAC ¶¶ 53-63.

8

App. 8

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 9 of 103

Court guidance, stresses a point central to his legal theory:
the uniqueness of the executive branch and special position
the

President

occupies

in

the

nation’s

constitutional

structure. Fundamentally, he declares that the President is
constitutionally different from the other branches of the
government,

and

thus

entitled

to

corresponding

special

treatment in the application of judicial process. For the
reasons stated below, the Court finds no merit in these claims
as they relate to the facts relevant to this action. In the
prior proceedings, the President raised substantially the
same or similar arguments, which the Court rejected.
To that extent, the SAC in substantial part merely
reiterates factual allegations made in the President’s prior
complaint. The revised pleadings thus prompted a motion to
dismiss the action, hence calling upon the Court to devote
considerable judicial resources to consider again a fact
pattern it believes the parties had thoroughly argued and the
Court had substantially addressed.
Certainly,
President

holds

as
a

the

Court

unique

acknowledges

position

in

the

below,

the

country’s

constitutional system, and hence merits utmost respect to
check unjustified encroachment on presidential powers and
duties, and so prevent impairing the President’s ability to
discharge executive branch functions. But special standing
9

App. 9

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 10 of 103

within the governmental scheme at times could come into
conflict with other basic principles; it cannot equate under
all circumstances to special privilege and special treatment
of the President much greater than legally or practically
justifiable, and far beyond the official standards applied to
govern the affairs of ordinary citizens. The Supreme Court
suggested as much in Trump v. Vance when it rejected the
Justice Department’s theory that the President’s claim of
immunity from complying with a grand jury subpoena should be
evaluated

by

a

heightened

need

standard,

and

counseled

instead that to challenge a subpoena allegedly issued for
unwarranted

purposes,

a

President

could

raise

“the

same

protections available to every other citizen.”6 Conveying a
similar

point,

in

United

States

v.

Burr7

Chief

Justice

Marshall declared that a President served with a subpoena to
produce unofficial records “must stand, as respects that
paper,

in

nearly

the

same

situation

with

any

other

individual.”8 The message these pronouncements express is
clear: absent evidence that compliance with a grand jury
subpoena would improperly influence or impede the executive
branch’s performance of constitutional duties, the President

6
7
8

Trump v. Vance, 140 S. Ct. at 2430.
25 F. Cas. 187 (No. 14,694) (C.C.D. Va. 1807).
Id. at 191.

10

App. 10

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 11 of 103

is entitled to claim no greater shield from judicial process
than any other person.
Though mindful of the vital need for balance in the
expectations of permissible conduct and attendant liabilities
of the President in relation to ordinary citizens, this Court
cannot mechanically credit allegations that a particular
application

of

judicial

process

to

the

President

is

necessarily unduly burdensome and motivated by bad faith if,
upon

thorough

compellingly

and

appears

independent
that

the

review,

claimed

it

fairly

imposition

on

and
the

President lacks plausible basis. Established judicial process
commonplace to all persons, accompanied by the inevitable
inconveniences, annoyances, and embarrassments that litigants
routinely suffer in court proceedings, should not transform
automatically into an incidence of incapacitating harassment
and ill-will merely because the proceedings potentially may
implicate the President.
Given force, the relief the President seeks, directly or
indirectly, by design or effect, would essentially

extend

the application of presidential immunity simply by virtue of
a mere invocation that it is, after all, the President whose
petition to be shielded from judicial process the Court is
evaluating. In essence, the filing of the SAC to assert claims
and

reargue

issues

substantially
11

App. 11

addressed

in

earlier

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 12 of 103

proceedings would prolong the President’s noncompliance with
the grand jury’s demand for the documents in dispute. That
strategy

potentially

applicable
witnesses

statutes
and

enforcement

would
of

evidence

concerning

enable

the

limitations,
and

thus

any

clock
risk

the

possibly

crimes

to

run

on

loss

of

foreclose

law

grand

jury

under

investigation. In this respect, the President’s response
embodies a novel application of presidential immunity to
protect the executive branch from judicial process. At its
core, it amounts to absolute immunity through a back door, an
entry point through which not only a President but also
potentially other persons and entities, public and private,
could

effectively

evolution

of

gain

cover

presidential

from

judicial

immunity

to

process.

encompass

The
its

prevailing expansive bounds would attest, however, that even
by way of the roundabout route advanced here, the immunity
concept as so applied would pose significant doctrinal and
practical implications that merit rigorous judicial inquiry.
This Court would be remiss in performing its judicial
duties if it failed to call out by name, and point to the
far-reaching effects on the fair and effective administration
of justice and the separation of powers, that the President’s
litigation
embodies

strategy
national

would

bear.

consequences
12

App. 12

That
that

course
could

of

action

impact

the

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 13 of 103

constitutional

order

and

justice

system

all

the

more

adversely precisely because the expedient emanates from the
President than it would when an ordinary citizen pursues
similar practices.9
Upon

meticulous

application

of

the

relevant

legal

standards to the facts presented in the record before the
Court,

and

against

a

background

underlying

these

considerations, the Court determined that the claims the
President asserted in the SAC do not allege sufficient facts
to warrant a different judgment. That conclusion holds with
special force insofar as granting the relief the President
requests would effectively constitute an undue expansion of
presidential

immunity

doctrine

potentially

implicating

adverse public concerns.

9

Indeed, the earlier round of litigation involved many concerns that,
while not directly before the Court at this stage, are still implicated
by the President’s arguments. As the Court sought to do in its prior
ruling in this case, the question of the contours of presidential immunity
from judicial process should be considered holistically, taking into
account the historical, textual, and empirical developments that have
animated previous applications of presidential immunity. A vital step in
this regard would call for a review of the consequences to the presidency,
the government, the nation’s constitutional order, and the larger society
that have accompanied that doctrinal evolution. As this Court envisioned
such an inquiry, in its totality, the analysis would reduce to a bold
letter warning: Over time, the executive branch’s invocations of absolute
immunity in various forms and guises to justify exempting the presidency
from judicial process, including withholding information demanded by
Congress, the courts, or the public, have yielded disquieting
constitutional effects eroding the rule of law and the doctrines of
separation and balance of powers. Those impacts counsel hesitation against
enabling any attempt to expand the application of presidential immunity
and executive privilege doctrines except in demonstrably extraordinary
circumstances, and only following vigorous public scrutiny.

13

App. 13

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 14 of 103

I.
A.

BACKGROUND

FACTUAL BACKGROUND10
Many of the relevant facts throughout this litigation

have been uncontested. The District Attorney is conducting a
grand jury investigation that has yet to conclude as to
specific

charges

or

specific

defendants.

The

District

Attorney has described the investigation as one focused on
“business transactions involving multiple individuals whose
conduct may have violated state law.” (SAC ¶ 11 (quoting Trump
v. Vance, 140 S. Ct. at 2420).) On August 1, 2019, as part of
its investigation, the District Attorney served a grand jury
subpoena on the Trump Organization seeking various documents
and records covering the period from June 1, 2015 through
September

20,

2018

(the

“Trump

Organization

Subpoena”).

Certain of the documents sought by the District Attorney
pertained to payments made for the benefit of, or agreements
concerning, Stephanie Clifford (also known as Stormy Daniels
or Peggy Peterson) and Karen McDougal, including payments or
agreements concerning the individuals mentioned above that
also involved Michael Cohen or American Media, Inc. The

10

Except as otherwise noted, the factual background below derives from
the SAC and the facts pleaded therein, which the Court accepts as true
for the purposes of ruling on a motion to dismiss. See infra Section
II.A. Except where specifically quoted, no further citation will be made
to the SAC.

14

App. 14

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 15 of 103

subpoena also sought documents and records related to the
President’s
Michael

and

Cohen.11

the

Trump

(See

id.

Organization’s
¶

13.)

The

employment

Trump

of

Organization

responded in part to that subpoena by producing hundreds of
responsive

documents.

However,

the

President’s

attorneys

objected to producing the President’s tax returns because
they did not believe the Trump Organization Subpoena could
reasonably be read to request such documents.
On August 29, 2019, the District Attorney issued the
Mazars Subpoena. This subpoena called for documents dating
back to 2011, including tax returns and related schedules
with respect to the President and several entities affiliated
with the President, in draft, as-filed, and amended form.
Apart from the tax records, the Mazars Subpoena sought the
same

financial

Oversight

and

records
Reform

requested
of

the

by

United

the

Committee

States

House

on
of

Representatives in a separate legislative subpoena. These
financial records include statements of financial condition
and annual statements, engagement agreements and contracts

11

The New York Times, citing anonymous sources, has reported that the
District Attorney “is exploring whether the reimbursements violated any
New York state laws,” in particular “whether the company falsely accounted
for the reimbursements as a legal expense. In New York, filing a false
business record can be a crime.” (SAC ¶ 12; William K. Rashbaum & Ben
Protess, 8 Years of Trump Tax Returns Are Subpoenaed by Manhattan D.A.,
New
York
Times
(Sept.
16,
2019),
https://www.nytimes.com/2019/09/16/nyregion/trump-tax-returns-cyvance.html.)

15

App. 15

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 16 of 103

related to preparing the tax returns and financial records,
the underlying documents used to prepare the tax returns and
financial

records,

and

related

work

product

including

communications between the Trump entities and Donald Bender
(a Mazars partner) and communications regarding any concerns
about the accuracy of any information provided by the Trump
entities. (See id. ¶ 18.)
Because much of the present litigation pertains to the
similarity of the Mazars Subpoena and the subpoena issued by
the House Committee on Oversight and Reform, a brief overview
of the House’s investigation will help guide the Court’s
discussion. As noted above, the House Committee’s subpoena
mirrors the District Attorney’s subpoena to Mazars, except
that it does not specifically request tax returns.12 The
Committee

has

“offered

several,

sometimes

overlapping,

reasons” why it is seeking these documents. (Id. ¶ 36.) The
President describes seven of these reasons, from federal
legislative prerogatives to federal lease management. (Id. ¶¶
37-43.)

12

The House Ways and Means Committee, however, requested the President’s
tax returns from the Treasury Department and the IRS, in May 2019. The
House Committee on Financial Services also issued subpoenas (covering
different time periods) to Deutsche Bank and Capital One for financial
information related to the President and affiliated entities in an
investigation into corruption, terrorism, and money laundering. The House
Permanent Select Committee on Intelligence issued an identical subpoena
to Deutsche Bank in its investigation into foreign efforts to undermine
the U.S. political process. See generally Trump v. Mazars USA, LLP, 140
S. Ct. 2019, 2027 (2020).

16

App. 16

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 17 of 103

B.

PROCEDURAL BACKGROUND
1.

Initial Proceedings Before This Court

The President filed the Complaint in this action on
September 19, 2019. This prompted a round of briefing and a
hearing on the President’s initial claims, as set forth more
fully in the Court’s October 7, 2019 Decision and Order. See
Trump v. Vance, 395 F. Supp. 3d at 291–92. During these
preliminary injunction proceedings, the Court considered both
the President’s claim of temporary absolute immunity from
criminal process and the District Attorney’s argument that
the Court should abstain from exercising jurisdiction over
the suit pursuant to Younger v. Harris, 401 U.S. 37 (1971).
On October 7, 2019, the Court issued a Decision and Order
abstaining pursuant to Younger and alternatively denying the
President’s claim for injunctive relief on its merits. See
395 F. Supp. 3d at 301–02.
2.

Appeals Arising from This Court’s Decision

The President subsequently appealed both of this Court’s
holdings. By Opinion dated November 4, 2019, the Second
Circuit affirmed in part and vacated in part this Court’s
October 7, 2019 Order. Though the Second Circuit noted that
“[l]egitimate arguments [could] be made both in favor of and
against abstention,” it ultimately decided that abstention
was

inappropriate

under

the

circumstances

17

App. 17

of

this

case

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 18 of 103

because the conflict between federal and state actors and the
President’s

“novel

and

serious

claims

[were]

more

appropriately adjudicated in federal court.” Trump v. Vance,
941 F.3d at 639. The Second Circuit affirmed this Court’s
alternative holding, though, observing that “any presidential
immunity

from

enforcement

state

of”

a

criminal
state

process

grand

does

jury

not

bar

the

subpoena

for

the

President’s personal financial records. Id. at 646.
The Supreme Court affirmed the Second Circuit’s Opinion
on July 9, 2020. Canvassing over two centuries’ worth of
judicial guidance and presidential practice, the Supreme
Court concluded that neither Article II nor the Supremacy
Clause

of

the

United

States

Constitution

categorically

precluded the issuance of a state criminal subpoena to the
President.

140

S.

Ct.

at

2429.

The

Supreme

Court

then

proceeded to reject the United States Department of Justice’s
arguments that state criminal subpoenas for the President’s
private papers must meet a heightened standard of need. The
Court

stated

that

a

heightened

standard

would

be

inappropriate in these circumstances because the President
stands

in

“nearly

the

same

situation

with

any

other

individual” with respect to his private papers. Id. (quoting
Burr, 25 F. Cas. at 191). The Court added that there was no
showing that a heightened standard for state subpoenas was
18

App. 18

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 19 of 103

necessary

for

the

President

to

fulfill

his

Article

II

functions, and moreover that the “public interest in fair and
effective law enforcement cuts in favor of comprehensive
access to evidence.” Id. at 2430.
However, the Court noted that its rejection of the two
foregoing legal standards did not preclude challenges to the
Mazars Subpoena on state law grounds including bad faith,
undue burden, and overbreadth, or constitutional grounds
including influencing or impeding the President’s official
duties. Id. at 2430-31. The Supreme Court unanimously agreed
that the case should be remanded to this Court for the
President to raise challenges along these lines as he deemed
appropriate.
3.

Proceedings on Remand Before This Court

Following the Supreme Court’s decision, this Court held
a

teleconference

to

discuss

the

scheduling

of

further

proceedings on remand in this matter. (See Dkt. Minute Entry
dated July 16, 2020.) The Court heard the parties’ preview of
potential arguments on remand and endorsed their jointly
proposed schedule for the filing of the SAC, as well as an
answer or briefing on a motion to dismiss. (See Dkt. No. 53.)
In accordance with the briefing schedule endorsed by the
Court, the President filed the SAC on July 27, 2020. (See
SAC.) The SAC alleges that because the Mazars Subpoena was
19

App. 19

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 20 of 103

mostly

copied

from

congressional

subpoenas

designed

to

achieve national and international goals, it is not properly
tailored

to

the

quashed.

More

grand

jury

specifically,

investigation
the

SAC

and

asserts

should

two

be

claims.

First, it alleges that the subpoena is overly broad because
it seeks documents that have no relation to the grand jury’s
investigation, covers a timeframe far exceeding that of the
investigation, and otherwise amounts to an arbitrary fishing
expedition. (See id. ¶¶ 54–56.) Second, the SAC alleges that
the District Attorney knowingly and intentionally issued the
Mazars

Subpoena

in

bad

faith

as

retaliation

for

the

President’s refusal to produce tax returns under the Trump
Organization Subpoena, and that the District Attorney lacked
a good faith basis to believe the Mazars Subpoena was properly
tailored in light of his copying. (See id. ¶¶ 59–62.)

The

SAC contends that by issuing an overly broad subpoena, and by
doing so in bad faith, the District Attorney violated the
President’s

legal

rights,

including

those

arising

under

Article II.13 (Id. ¶¶ 57, 63.) The SAC seeks a declaratory

13

Though the President alleges that the overbreadth and bad faith of the
Mazars Subpoena violate his legal rights held under Article II, the Court
does not understand the SAC to allege separate and discrete constitutional
claims of the sort suggested by the Supreme Court. See Trump v. Vance,
140 S. Ct. at 2430–31. The SAC does not specify any presidential duties
or policies that the District Attorney allegedly sought to manipulate,
and it does not clearly allege that Mazars’ compliance with the subpoena
would impede any specific Article II duty.

20

App. 20

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 21 of 103

judgment

that

the

Mazars

Subpoena

is

invalid

and

unenforceable and an injunction quashing the subpoena. (See
id.

¶

60(a–b).)

The

SAC

also

requests

that

the

Court

permanently enjoin the District Attorney from taking any
action to enforce the subpoena and permanently enjoin Mazars
from disclosing the requested information. (See id. ¶ 60(c–
d).)
On August 3, 2020, the District Attorney filed a motion
to dismiss the SAC for failure to state a claim. (See Motion.)
In the accompanying Memorandum of Law, the District Attorney
argues that the President did not allege any burden to (or
violation of) his Article II rights or duties. (See “Memo,”
Dkt. No. 63, at 9-11.) The District Attorney further states
that the President’s allegations do not rebut the subpoena’s
presumptive validity because they are speculative and lack
sufficient

factual

support

to

render

the

claims

of

overbreadth and bad faith plausible. (See id. at 11–21.)
The President opposed the District Attorney’s proffered
grounds for dismissal on August 10, 2020. (See “Opposition,”
Dkt. No. 66.) The President argues that he has plausibly
alleged that the grand jury investigation focuses on payments
made in 2016 by Michael Cohen (the “2016 Michael Cohen
Payments”), and that the Mazars Subpoena is overbroad in
relation to that conduct. (See id. at 5–6, 11–18.) The
21

App. 21

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 22 of 103

President further claims that the District Attorney does not
challenge the legal plausibility of the SAC’s allegations,
but instead merely attempts to rebut the SAC’s assertions
regarding the scope of the investigation through the sworn
declaration of Assistant District Attorney Solomon Shinerock
(the “Shinerock Declaration”), other evidence adduced at the
preliminary injunction hearing before this Court, and public
news articles. (See id. at 6–11.) The President argues that
these sources cannot be considered at the pleading stage, and
that

at

President
entirely

best

they

then

raise

casts

reliant

on

contested

the

District

cases

issues

of

Attorney’s

involving

motions

fact.

The

motion

as

to

quash

subpoenas rather than motions to dismiss, and presses that,
at the pleading stage, the President need not make the strong
showing required to overturn the presumption of validity
accorded to grand jury subpoenas on motions to quash. (Id. at
18.)

The

President

investigation

is

argues

not

that

limited

even

to

the

if

the

2016

grand

Michael

jury
Cohen

Payments, the Mazars Subpoena is nevertheless overbroad. (Id.
at 19–21.) The President next argues that the Mazars Subpoena
was

issued

in

bad

faith

because

it

was

copied

from

congressional subpoenas and issued as retaliation for the
President’s refusal to produce tax returns in response to the
Trump

Organization

Subpoena.

(Id.

22

App. 22

at

21.)

The

President

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 23 of 103

concludes by further asserting that the District Attorney’s
justifications for the Mazars Subpoena do not amount to good
faith, and in fact demonstrate bad faith insofar as they are
allegedly inconsistent with each other. (Id. at 22–25.)
On the same day, the President separately filed a letter
requesting a pre-motion conference regarding the President’s
anticipated motion for discovery pursuant to Federal Rule of
Civil Procedure 56(d). (See “Letter,” Dkt. No. 67.) In the
Letter, the President asserts that the District Attorney’s
reliance

on

allegedly

extrinsic

evidence

such

as

the

Shinerock Declaration and public news articles requires the
Court to either exclude such evidence or convert the Motion
into a motion for summary judgment and allow the President to
seek discovery into the redacted portion of the Shinerock
Declaration. (See id. at 1.) The President explains that such
discovery would be germane, that he has not been dilatory,
and that broader discovery should be allowed in light of his
status as President. (See id. at 2–3.)
By letter dated August 11, 2020, the District Attorney
opposed

the

requests

in

the

Letter

as

speculative

and

premature. (See “August 11 Letter,” Dkt. No. 70.) The District
Attorney previewed that a future submission from his office,
due on August 14, 2020, would explain why there would be no
need or basis to convert the Motion into a motion for summary
23

App. 23

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 24 of 103

judgment pursuant to Federal Rule of Civil Procedure 56. (See
id.)
The

District

Attorney

subsequently

reiterated

his

arguments for dismissal of the SAC in a reply brief dated
August 14, 2020. (See “Reply,” Dkt. No. 68.) First, the
District Attorney argues that the President’s attempt to
invoke a heightened standard of need is unavailing, and that
the Supreme Court’s decision confirms that the President does
not benefit from greater procedural rights or more favorable
substantive law in regard to a state grand jury subpoena.
(Id. at 1–3.) Second, the District Attorney contends that the
SAC is facially deficient. In particular, he points out that
the SAC does not allege facts that support a reasonable
inference that the grand jury is investigating only the 2016
Michael Cohen Payments. (Id. at 3–5.) He also points out that
the President’s assertion of retaliation is based on the
timing of the issuance of the subpoena, and is entirely
speculative. (Id. at 5–7.) Third, and finally, the District
Attorney notes that the Court may take judicial notice of
other materials beyond the SAC, and that these materials
confirm that dismissal of the SAC is appropriate. (Id. at 7–
9.) The District Attorney requests that the Court dismiss the
SAC with prejudice. (Id. at 10.)

24

App. 24

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 25 of 103

By letter dated August 14, 2020, the District Attorney
also responded to the President’s Letter. (See “August 14
Letter,” Dkt. No. 69.) The District Attorney writes that
because “there is neither a need nor a basis to convert the
pending motion to dismiss to a motion for summary judgment,”
the President’s request for discovery is speculative and
premature. (Id. at 1.) In any event, the District Attorney
continues, the request for discovery runs counter to longestablished law and process with respect to grand juries, the
proceedings of which are not public. (Id. at 1–2.) Even if
the

President

had

made

a

sufficient

initial

showing

of

overbreadth and bad faith, the proper procedure, according to
the District Attorney, would not be for the Court to permit
discovery but rather to rely upon its previous in camera
review of grand jury information, including the Shinerock
Declaration. (Id. at 2 n.1.) In short, the District Attorney
submits that the President may not circumvent the robust case
law governing motions to quash, which require a strong showing
to overcome the presumption of regularity in grand jury
proceedings.
II.
A.

LEGAL STANDARDS

MOTIONS TO DISMISS
Rule 12(b)(6) provides for dismissal of a complaint for

“failure to state a claim upon which relief can be granted.”
25

App. 25

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 26 of 103

Fed. R. Civ. P. 12(b)(6). “To survive a motion to dismiss, a
complaint must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its
face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). This
standard is met “when the plaintiff pleads factual content
that allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.” Id. A
complaint should be dismissed if the plaintiff has not offered
factual allegations sufficient to render the claims facially
plausible. See id. However, a court should not dismiss a
complaint

for

failure

to

state

a

claim

if

the

factual

allegations sufficiently “raise a right to relief above the
speculative level.” Twombly, 550 U.S. at 555. The requirement
that a court accept the factual allegations in the complaint
as true does not extend to legal conclusions or “[t]hreadbare
recitals of the elements of a cause of action, supported by
mere conclusory statements.” See Iqbal, 556 U.S. at 678; see
also Lynch v. City of N.Y., 952 F.3d 67, 75–76 (2d Cir. 2020)
(noting

that

courts

“are

not

to

give

effect

to

a

complaint’s assertions of law or legal conclusions couched as
factual allegations”).
“Determining whether a complaint states a plausible
claim for relief . . . [is] a context-specific task that
26

App. 26

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 27 of 103

requires

the

experience

and

reviewing

court

common

sense.”

to

draw

Iqbal,

on
556

its
U.S.

judicial
at

679.

“Plausibility . . . depends on a host of considerations: the
full

factual

picture

presented

by

the

complaint,

the

particular cause of action and its elements, and the existence
of

alternative

explanations

so

obvious

that

they

render

plaintiff’s inferences unreasonable.” L–7 Designs, Inc. v.
Old Navy, LLC, 647 F.3d 419, 430 (2d Cir. 2011); see also
Renfro v. Unisys Corp., 671 F.3d 314, 321 (3d Cir. 2011)
(“[W]e must examine the context of a claim, including the
underlying

substantive

plausibility.”)

(citing

law,
In

in
re

order

Ins.

to

assess

Brokerage

its

Antitrust

Litig., 618 F.3d 300, 320 n.18 (3d Cir. 2010) (“[W]hat
suffices to withstand a motion to dismiss necessarily depends
on substantive law and the elements of the specific claim
asserted.”)). For example, the plausibility of a claim may
depend

on

whether

a

pleading

sufficiently

addresses

a

presumption applicable to the underlying cause of action.
See, e.g., Hadid v. City of N.Y., 730 F. App’x 68, 71-72 (2d
Cir. 2018) (affirming dismissal of malicious prosecution
claims where complaint’s allegations of bad faith failed to
rebut presumption of probable cause that arises from grand
jury indictment); Lewis v. City of N.Y., 591 F. App’x 21, 22
(2d Cir. 2015) (same); Buday v. N.Y. Yankees P’ship, 486 F.
27

App. 27

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 28 of 103

App’x 894, 898-99 (2d Cir. 2012) (stating that plaintiff did
not

plead

facts

sufficient

to

overcome

work-for-hire

presumption applicable in copyright cases). “[C]ourts may
draw a reasonable inference of liability when the facts
alleged are suggestive of, rather than merely consistent
with, a finding of misconduct. Moreover, the existence of
other, competing inferences does not prevent the plaintiff’s
desired inference from qualifying as reasonable unless at
least one of those competing inferences rises to the level of
an ‘obvious alternative explanation.’” N.J. Carpenters Health
Fund v. Royal Bank of Scotland Grp., PLC, 709 F.3d 109, 121
(2d Cir. 2013) (quoting Twombly, 550 U.S. at 567).
While

Rule

12(b)(6)

does

not

impose

a

probability

requirement at the pleading stage, it does call for enough
facts “to raise a reasonable expectation that discovery will
reveal evidence of illegal” conduct. Twombly, 550 U.S. at
556; Lynch, 952 F.3d at 75. Numerous decisions indicate that
if this standard is not met, denying a motion to dismiss under
Rule 12(b)(6) would unjustifiably subject defendants to a
variety of costs associated with the discovery process. For
example, the Supreme Court in Twombly cautioned courts not
“to forget that proceeding to antitrust discovery can be
expensive” and that “a district court must retain the power
to insist upon some specificity in pleading before allowing
28

App. 28

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 29 of 103

a potentially massive factual controversy to proceed.” 550
U.S. at 558 (internal quotation marks omitted); see also Mayor
and City Council of Baltimore, Md. v. Citigroup, Inc., 709
F.3d

129,

137

(2d

Cir.

2013)

(“If

we

permit

antitrust

plaintiffs to overcome a motion to dismiss simply by alleging
parallel

conduct,

we

risk

propelling

defendants

into

expensive antitrust discovery on the basis of acts that could
just as easily turn out to have been rational business
behavior as they could a proscribed antitrust conspiracy.”).
Not all costs are monetary, either; in Iqbal, the Supreme
Court cautioned that allowing discrimination claims against
government

officials

expectation

that

to

discovery

proceed
would

without
reveal

a

reasonable

illegal

conduct

“exacts heavy costs in terms of efficiency and expenditure of
valuable time and resources that might otherwise be directed
to the proper execution of the work of the Government.” 556
U.S. at 685-86. Courts should also bear in mind that the
discovery

contemplated

by

the

Federal

Rules

of

Civil

Procedure may often be a probing and intrusive process. See,
e.g., Pension Benefit Guar. Corp. v. Morgan Stanley Inv. Mgmt.
Inc., 712 F.3d 705, 719 (2d Cir. 2013) (noting that courts
should apply the Rule 12(b)(6) standard with “particular
care” in ERISA cases because “the prospect of discovery in a
suit

claiming

breach

of

fiduciary
29

App. 29

duty

is

ominous,

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 30 of 103

potentially

exposing

the

ERISA

fiduciary

to

probing

and

costly inquiries and document requests about its methods and
knowledge at the relevant times”).
In adjudicating a Rule 12(b)(6) motion, a court must
confine its consideration “to facts stated on the face of the
complaint,

in

documents

appended

to

the

complaint

or

incorporated in the complaint by reference, and to matters of
which judicial notice may be taken.” Leonard F. v. Israel
Discount Bank of N.Y., 199 F.3d 99, 107 (2d Cir. 1999)
(internal quotation marks omitted). “[I]t is proper to take
judicial

notice

lawsuits,

or

of

the fact that

regulatory

press

filings

coverage,

contained

prior
certain

information, without regard to the truth of their contents,”
when assessing matters such as inquiry notice. Staehr v.
Hartford Fin. Servs. Grp., Inc., 547 F.3d 406, 425 (2d Cir.
2008)

(emphasis

omitted).

Courts

may

similarly

refer

to

public matters (such as the state of financial markets) to
illustrate why bare assertions of fact are insufficient, as
long as the court does not rely on those matters to establish
their truth. See id.; Kramer v. Time Warner Inc., 937 F.2d
767, 773 (2d Cir. 1991) (noting that court could permissibly
refer to matters of public record as “merely an example of
why a naked allegation” was legally insufficient). “When
ruling on a motion to dismiss, the Court may take judicial
30

App. 30

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 31 of 103

notice of . . . items in the record of the case, matters of
general public record, and copies of documents attached to
the complaint.” Smart v. Goord, 441 F. Supp. 2d 631, 637
(S.D.N.Y. 2006); Reisner v. Stoller, 51 F. Supp. 2d 430, 440
(S.D.N.Y. 1999) (“The court may also take judicial notice of
matters of public record, such as pleadings and court orders
from

prior

litigation

between

the

parties.”);

Eaves

v.

Designs for Fin., Inc., 785 F. Supp. 2d 229, 244–45 (S.D.N.Y.
2011) (taking notice of prior filings in the same action).
B.

OVERBREADTH AND BAD FAITH
As discussed above, the President claims that the Mazars

Subpoena is both overbroad and issued in bad faith.14 Much as
the President’s two claims share significant similarities,
the legal standards for overbreadth and bad faith are not
necessarily entirely distinct. The President correctly notes
that “[f]ederal and New York criminal law afford similar
protections” against grand jury subpoenas that are overbroad
and issued in bad faith. (SAC ¶¶ 50–51; see also Opposition
at 11–13, 21 (citing federal and state cases in parallel).)
The District Attorney agrees. (See Memo at 11–12 & n.5; 18–

14

As noted above, the Court does not understand the SAC to allege any
other discrete constitutional claims. See supra Section I.B.3. Given the
paucity of allegations suggesting any claim other than those of bad faith
and overbreadth, the Court concludes that any such claim would not be
plausible. The Court does not disregard the President’s arguments that an
overbroad or bad faith subpoena would violate his Article II rights, and
considers those arguments further below.

31

App. 31

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 32 of 103

19 & n.10.) Accordingly, the standards for overbreadth and
bad faith set forth below take note of both federal and state
decisions. Though each standard is set forth separately,
their application will require addressing many of the same
factual considerations.
Before delving into the standards for overbreadth and
bad faith, one final point merits discussion. A party who
wishes to object to a subpoena typically files a motion to
quash. When a party moves to quash a subpoena, it bears the
burden of “demonstrating” or making a “strong showing” of
impropriety with “concrete evidence.” Although the President
is asking the Court to quash the Mazars Subpoena, he has filed
a complaint seeking relief pursuant to 42 U.S.C. Section 1983,
rather than a motion to quash, to which the District Attorney
has responded with a Rule 12(b)(6) motion to dismiss. As the
President

argues,

a

plaintiff

need

not

provide

evidence

demonstrating his claims to survive a Rule 12(b)(6) motion.
The District Attorney agrees that the Court can resolve this
motion by applying the traditional Rule 12(b)(6) analysis. In
short, the parties are litigating the validity of the subpoena
through a procedural device not typically used for that
purpose.
The

sections

below

describing

the

standards

for

overbreadth and bad faith quote from cases deciding motions
32

App. 32

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 33 of 103

to

quash

and

thus

incorporate

language

reflecting

the

evidentiary burden applicable in that context. But in the
discussion section that follows, the Court does not require
the President to provide concrete evidence or otherwise make
a strong showing of his ultimate entitlement to relief.
Consistent with the preceding discussion of the standard
applicable to Rule 12(b)(6) motions, the Court will instead
assess whether the President has, as he puts it, “allege[d]
facts sufficient to support an inference that he could prove
his case” in light of the standards for overbreadth and bad
faith

set

forth

below

“after

appropriate

discovery

and

litigation.” (Opposition at 18.)
1.

The Presumptive Legitimacy of Grand Jury Subpoenas

“[T]he grand jury has a central role in our system of
federalism,”

and

courts

should

consequently

hesitate

to

interfere with it. Trump v. Vance, 941 F.3d at 643–44.
Specifically, the grand jury is responsible for determining,
based on the evidence and the law, whether criminal charges
should be brought against any person. See N.Y. Crim. Proc.
Law Ann. §§ 190.05, 190.55, 190.60 (McKinney 2019). As the
Supreme Court has explained:
Historically, [the grand jury] has been regarded as a
primary security to the innocent against hasty,
malicious and oppressive persecution; it serves the
invaluable function in our society of standing between
the accuser and the accused, whether the latter be an
33

App. 33

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 34 of 103

individual, minority group, or other, to determine
whether a charge is founded upon reason or was dictated
by an intimidating power or by malice and personal ill
will.
Wood

v.

“Grand

Georgia,
Juries

370

exist

U.S.
by

375,

390

virtue

of

(1962). Furthermore,
the

New

York

State

Constitution and the Superior Court that impanels them; they
are not arms or instruments of the District Attorney.” United
States v. Reed, 756 F.3d 184, 188 (2d Cir. 2014); see also
People v. Thompson, 8 N.E.3d 803, 810 (N.Y. 2014) (“[G]rand
jurors are empowered to carry out numerous vital functions
independently of the prosecutor, for they ‘ha[ve] long been
heralded as the shield of innocence . . . and as the guard of
the liberties of the people against the encroachments of
unfounded accusations from any source.’”) (quoting People v.
Sayavong,

635

N.E.2d

1213,

1215

(N.Y.

1994)

(internal

quotation marks omitted)).
The role of the grand jury “is to inquire into the
possible existence of criminal conduct.” Virag v. Hynes, 430
N.E.2d

1249,

1253

(N.Y.

1981).

Thus,

“its

investigatory

powers are necessarily broad.” Id. A grand jury “must often
conduct investigations to determine whether a crime has been
committed, before it is possible for the District Attorney to
formulate

a

charge

or

to

point

to

any

particular

person.” Id. at 1251-52 (quoting Spector v. Allen, 22 N.E.2d

34

App. 34

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 35 of 103

360, 363 (N.Y. 1939)). The grand jury can “hardly be expected
to

be

able

to

designate

or

call

for

what

its

exact

[evidentiary] needs may ultimately turn out to be” and must
be allowed to collect not only material that bears directly
on whether a crime was committed but also material that may
shed

“possible

light

on

seemingly

related

aspects

whose

significance [the grand jury] is seeking to uncover.” Id. at
1252 (quoting Schwimmer v. United States, 232 F.2d 855, 862
(8th Cir.), cert. denied, 352 U.S. 833 (1956)). Indeed, the
Supreme Court has stated that “[a] grand jury investigation
is not fully carried out until every available clue has been
run down and all witnesses examined in every proper way to
find if a crime has been committed.” United States v. R.
Enterprises,

Inc.,

498

U.S.

292,

297

(1991)

(quoting Branzburg v. Hayes, 408 U.S. 665, 701 (1972)). To
this end, a grand jury can “investigate merely on suspicion
that the law is being violated, or even just because it wants
assurance that it is not.” Id. at 297 (quoting United States
v. Morton Salt Co., 338 U.S. 632, 642–43 (1950)); see also
People v. Doe, 445 N.Y.S.2d 768, 777 (App. Div. 2d Dep’t
1981).

By

conducting

a

“thorough

and

extensive

investigation,” the grand jury advances society’s interest in
the fair enforcement of criminal laws. Virag, 430 N.E.2d at
1252 (quoting Wood, 370 U.S. at 392).
35

App. 35

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 36 of 103

Accordingly, the opponent of a grand jury subpoena “is
not entitled to set limits to the investigation that the grand
jury may conduct.” Blair v. United States, 250 U.S. 273, 282
(1919). Indeed, New York courts require the party moving to
quash a grand jury subpoena to satisfy a demanding burden of
proof for several reasons. First, the grand jury’s “broad
exploratory

powers”

should

not

“be

limited

narrowly

by

questions of propriety or forecasts of the probable result of
the

investigation,

or

by

doubts

whether

any

particular

individual will be found properly subject to an accusation of
crime.” Virag, 430 N.E.2d at 1252 (quoting Blair, 250 U.S. at
282). Second, the successful prosecution of crimes “would be
intolerably impeded if a District Attorney could be compelled
to divulge, before he is ready, the nature of an investigation
by the grand jury or the name of the person or persons
suspected.” Id. (quoting Spector, 22 N.E.2d at 363). Third,
a less demanding standard may induce parties to “continually
litigate the threshold validity of [grand jury] subpoenas”
and thereby delay the grand jury’s proceedings. Id. at 1253.
Such

delay

could,

in

turn,

“impede

[the

grand

jury’s]

investigation and frustrate the public’s interest in the fair
and expeditious administration of the criminal laws.” Id. at
1252 (quoting United States v. Dionisio, 410 U.S. 1, 17
(1973)).
36

App. 36

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 37 of 103

In light of all these considerations, courts have held
that

a

grand

jury’s

validity.” Id. at

subpoena

1253;

see

“enjoys

id.

at

a

1252

presumption
(“[A]bsent

of

some

indication of abuse, ‘[a]ny holding that would saddle a grand
jury with minitrials and preliminary showings would” impede
investigations and frustrate the public interest) (quoting
Dionisio, 410 U.S. at 17). Accordingly, as discussed below,
the party challenging a grand jury subpoena as overbroad or
issued in bad faith must come forward with more than mere
“speculat[ion]” and “bare assertions” of impropriety. Id. at
1253.
2.

Overbreadth

To assess whether a subpoena is overbroad, the court
considers whether “the materials demanded by the subpoena are
relevant

to

the

subject

matter

of

the

grand

jury’s

investigation.” United States v. Vilar, No. 05 CR 621, 2007
WL 1075041, at *44 (S.D.N.Y. Apr. 4, 2007). “[R]elevancy and
adequacy or excess in the breadth of the subpoena are matters
variable in relation to the nature, purposes and scope of the
inquiry.” Okla. Press Publ’g Co. v. Walling, 327 U.S. 186,
209 (1946). Furthermore, because a grand jury cannot be
expected

to

identify

its

“exact

[evidentiary]

needs”

in

advance and is entitled to material that may shed “possible
light” on conduct under investigation, relevance in this
37

App. 37

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 38 of 103

context is “necessarily a term of broader import than when
applied to evidence at trial.” Virag, 430 N.E.2d at 1252-53;
see also Trump v. Vance, 140 S. Ct. at 2430 (recognizing the
grand jury’s “ability to acquire ‘all information that might
possibly

bear

on

its

investigation.’”

(quoting

R.

Enterprises, 498 U.S. at 297)). “Any circumstance permitting
intelligent estimate of relevancy is sufficient to support a
direction that the subpoena’s mandate be obeyed.” Manning v.
Valente, 72 N.Y.S.2d 88, 93 (App. Div. 1st Dep’t 1947)
(internal quotation marks omitted).
Thus, to overcome the presumption that a grand jury
subpoena is valid, a party moving to quash a grand jury
subpoena

on

overbreadth

grounds

must

“demonstrate,

by

concrete evidence, . . . ‘that a particular category of
documents can have no conceivable relevance to any legitimate
object

of

investigation

by

the

grand

jury.’” Virag,

430

N.E.2d at 1253 (quoting In re Horowitz, 482 F.2d 72, 80 (2d
Cir. 1973); accord Trump v. Vance, 140 S. Ct. at 2450 (Alito,
J.,

dissenting)

(quoting In

re

Grand

Jury

Subpoenas

for

Locals 17, 135, and 608, 528 N.E.2d 1195, 1201 (1988)). Put
differently,

he

“must

show

that

‘the

documents

are

so

unrelated to the subject of inquiry as to make it obvious
that their production would be futile as an aid to the’ Grand
Jury’s

investigation.”

Virag,
38

App. 38

430

N.E.2d

at

1253

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 39 of 103

(quoting Manning, 72 N.Y.S.2d at 92); see also In re Nassau
County Grand Jury Subpoena, 830 N.E.2d 1118, 1126 (N.Y. 2005).
Conclusory assertions of irrelevance do not suffice. Virag,
430 N.E.2d at 1253.
3.

Bad Faith

A grand jury may not “select targets of investigation
out of malice or an intent to harass.” R. Enterprises, 498
U.S. at 299. However, because a New York state grand jury
subpoena is presumptively valid, it “can only be quashed by
proving an affirmative act of impropriety or bad faith.” See
Grand Jury Subpoenas, 528 N.E.2d at 1201; Virag, 430 N.E.2d
at

1252

(presumption

may

be

rebutted

only

“by

concrete

evidence that the subpoena was issued in bad faith or that it
is for some other reason invalid” (internal quotation marks
omitted)); see also R. Enterprises, 498 U.S. at 300 (“We begin
by reiterating that the law presumes, absent a strong showing
to the contrary, that a grand jury acts within the legitimate
scope of its authority.”); In re Grand Jury Proceeding, 2020
WL 4744687, at *8 (2d Cir. Aug. 14, 2020) (noting that a party
“must present particularized proof of an improper purpose to
overcome the presumption of propriety of the grand jury
subpoena” (internal quotation marks omitted)).
As noted above, where a petitioner bringing a motion to
quash alleges that a subpoena’s breadth reflects bad faith or
39

App. 39

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 40 of 103

impropriety, the petitioner must consequently demonstrate
“that

a

particular

conceivable

category

relevance

investigation”

by

the

to

of
any

grand

jury.

documents

can

legitimate
Id.

at

have

object

1253

no
of

(quoting

Horowitz, 482 F.2d at 80; see also Grand Jury Subpoenas, 528
N.E.2d at 1201. “Bare assertions of the lack of relevancy
will not suffice,” and mere speculation as to the grand jury’s
purpose does not allege the type of abuse that would overcome
a subpoena’s presumptive validity. Id. at 1253; United States
v. Leung, 40 F.3d 577, 582 (2d Cir. 1994) (observing that
“speculations about possible irregularities in the grand jury
investigation [are] insufficient to overcome the presumption
that [an] investigation was for a proper purpose”).
In determining whether a subpoena’s demands are relevant
to a legitimate purpose, courts should not attempt to predict
the probable results of the investigation; “[i]nstead, the
inquiry should [center] on whether the material sought by the
subpoena was related to a legitimate objective of the Grand
Jury investigation.” In re Vanderbilt, 448 N.Y.S.2d 3, 5–6
(App. Div. 1st Dep’t 1982). As noted above, the Grand Jury
may legitimately “investigate merely on suspicion that the
law is being violated, or even just because it wants assurance
that it is not.” R. Enterprises, 498 U.S. at 297; Branzburg,
408 U.S. at 701 (grand jury’s work “may be triggered by tips,
40

App. 40

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 41 of 103

rumors, evidence proffered by the prosecutor, or the personal
knowledge of the grand jurors”); see also People v. Doe, 445
N.Y.S.2d at 777; In re Bick, 372 N.Y.S.2d 447, 450 (Sup. Ct.
N.Y. Cty. 1975) (“In other words, absent abuse of power a
grand jury has a broad scope of inquiry.”).
Despite the broad standard above, courts have provided
guidance on improper purposes for the use of grand jury
subpoenas. For example, it is “improper for the government to
use a grand jury subpoena for the sole or dominant purpose of
preparing for trial.” United States v. Salameh, 152 F.3d 88,
109–10 (2d Cir. 1998) (internal quotation marks omitted).
Similarly, grand jury subpoenas may not be used primarily for
the purposes of gathering evidence for civil proceedings. See
Harlem Teams for Self-Help, Inc. v. Dep’t of Investigation of
City of N.Y., 472 N.Y.S.2d 967, 971 (Sup. Ct. N.Y. Cty. 1984);
In re Morgan, 377 F. Supp. 281, 285–86 (S.D.N.Y. 1974). The
timing of a grand jury subpoena may also shed light on an
improper purpose, particularly if the subpoena is issued
after a related indictment. See In re Grand Jury Subpoena
(Simels), 767 F.2d 26, 29–30 (2d Cir. 1985). The grand jury’s
investigative powers likewise may not be used to violate a
valid privilege. See Stern v. Morgenthau, 465 N.E.2d 349, 351
(N.Y. 1984).
C.

HIGH RESPECT FOR THE OFFICE OF THE PRESIDENT
41

App. 41

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 42 of 103

The standards set forth above apply broadly to all
parties that challenge a grand jury subpoena. However, the
President is not an ordinary individual; “[t]he President is
the only person who alone composes a branch of government.”
Trump v. Mazars USA, LLP, 140 S. Ct. at 2034. The Court is
thus mindful that “[t]he high respect that is owed to the
office of the Chief Executive . . . should inform the conduct
of the entire proceeding, including the timing and scope of
discovery.” Trump v. Vance, 140 S. Ct. at 2430 (quoting
Clinton v. Jones, 520 U.S. 681, 707 (1997)). The District
Attorney presses that the Court should not equate this high
respect with a heightened standard of need or scrutiny when
assessing the validity of the Mazars Subpoena. Because the
nature of the respect due to the office of the President is
not altogether self-evident, the Court briefly sets forth
below its understanding of what such respect entails in the
context of the particular challenges raised here.
High respect for the office of the President does not
require state grand juries to satisfy a heightened standard
of

need

when

issuing

subpoenas

for

the

records

of

the

President or related businesses and individuals. See Trump v.
Vance, 140 S. Ct. at 2430 (“Requiring a state grand jury to
meet a heightened standard of need would hobble the grand
jury’s

ability

to

acquire

‘all
42

App. 42

information

that

might

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 43 of 103

possibly

bear

on

its

investigation.’”

(quoting

R.

Enterprises, 498 U.S. at 297)). As the Court interprets the
Supreme Court’s Opinion, high respect for the President’s
office primarily requires sensitivity to the demands imposed
by

the

President’s

Article

II

duties

and

the

executive

privileges attendant to discharge of those duties. See, e.g.,
id. at 2430 (noting that courts presiding over suits involving
the President must “schedule proceedings so as to avoid
significant

interference

with

the

President’s

ongoing

discharge of his official responsibilities” (quoting Clinton,
520 U.S. at 724 (Breyer, J., concurring in judgment))); id.
at 2431 (adding that courts should quash or modify subpoenas
if necessary where the President “sets forth and explains a
conflict between judicial proceeding and public duties,” or
shows that a court order or subpoena would “significantly
interfere with his efforts” to carry out those duties (quoting
Clinton, 520 U.S. at 710, 714 (Breyer, J., concurring in
judgment))).
High respect for the President’s office, however, is not
strictly limited to the considerations of timing, burden, and
privilege highlighted above. The Supreme Court also observed
that the protections against subpoenas that are overbroad or
issued in bad faith “apply with special force to a President,
in light of the office’s unique position as the head of the
43

App. 43

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 44 of 103

Executive Branch,” and that judicial review must accordingly
be “particularly meticulous.” Id. at 2428, 2430. The Court
does

not

understand

“particularly

meticulous”

review

to

require any heightened showing from the District Attorney.
Indeed, the Nixon Court noted that “where a subpoena is
directed to a President of the United States,” appellate
review “should be particularly meticulous to ensure that the
[relevant standards] have been correctly applied.” United
States v. Nixon, 418 U.S. 683, 702 (1974). Accordingly, the
Court

must

take

particular

care

to

correctly

apply

the

existing legal standards governing grand jury subpoenas and
motions to dismiss, rather than substantively alter those
standards. The guard furnished to the President ultimately
lies in a court’s application of “established legal and
constitutional principles to individual subpoenas in a manner
that preserves both the independence of the Executive and the
integrity of the criminal justice system.” Trump v. Vance,
140 S. Ct. at 2431.
In

this

respect,

the

Supreme

Court’s

Opinion

above

suggests that high respect for the President’s office does
not absolve the President of the need to affirmatively plead
or show impropriety, and it does not categorically narrow the
scope of materials that may be relevant to a grand jury. See
Trump

v.

Vance,

140

S.

Ct.

at

44

App. 44

2428

(citing

Virag

for

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 45 of 103

proposition
subpoenas

that
“by

the

an

President

affirmative

can

challenge

showing

of

grand

jury

impropriety,

including bad faith” (internal quotation marks omitted)); id.
at 2430 (citing R. Enterprises for proposition that judicial
scrutiny of subpoenas directed to a President should not
“hobble the grand jury’s ability to acquire all information
that might possibly bear on its investigation” (internal
quotation marks omitted)).15 As the Supreme Court noted, where
a subpoena requests only a President’s private papers, “he
must stand, as respects that paper, in nearly the same
situation with any other individual . . . . And it is only
nearly -- and not entirely -- because the President retains
the right to assert privilege over documents that, while
ostensibly private, partake of the character of an official
paper.” Id. at 2429 (internal quotation marks and citation
omitted).
Accordingly,

while

the

Court

will

“be

particularly

meticulous to ensure” that the relevant legal standards are

15

In fact, categorically lessening the pleading standard for the President
in this context might have the additional impermissible consequence of
undermining the distinction between subpoenas issued by grand juries,
which are arms of the court, and non-judicial “office” subpoenas issued
by New York state agencies. Whereas grand jury subpoenas are presumptively
valid, state issuers of an office subpoena must affirmatively justify
their requests when challenged. See Virag, 430 N.E.2d at 1251; Sussman v.
N.Y.S. Organized Crime Task Force, 347 N.E.2d 638, 640–41 (N.Y. 1976)
(“Nor is this historical distinction between office and Grand Jury
investigations accidental.”). The Court declines to adopt a categorical
standard that risks blurring this important distinction.

45

App. 45

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 46 of 103

correctly applied in this case, it will abide by those
standards in full rather than alter them. Nixon, 418 U.S. at
702. High respect for the President does not imply diminished
respect for the ancient functions of the grand jury or the
long-established

standards

governing

challenges

to

its

subpoenas.
III. DISCUSSION
As noted above, the overbreadth and bad faith inquiries
in this case address many of the same facts. Accordingly, the
Court structures the following discussion around the factual
allegations in the SAC and notes whether these allegations
suggest either overbreadth or bad faith as appropriate. The
Court begins by discussing the timing and preparation of the
Mazars Subpoena, and whether such circumstances plausibly
reflect the extent of the grand jury’s investigation. The
Court

then

turns

to

the

subpoena’s

particular

requests,

focusing on the requests’ timeframe, geographic scope, and
the nature of the documents requested.16 The Court concludes
by considering whether discovery or leave to amend the SAC
might be appropriate in light of its failure to state a claim.

16

Although the Court divides its discussion into separate sections
addressing different factual allegations, it does not treat these
allegations in isolation. On the contrary, the Court considers the
allegations as a whole and construes all reasonable inferences drawn from
the well-pled allegations in the light most favorable to the non-movant,
as required by the standards set forth above in Section II.A.

46

App. 46

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 47 of 103

A.

TIMING AND PREPARATION OF THE MAZARS SUBPOENA
The claims in the SAC focus largely on the District

Attorney’s choice to copy two congressional subpoenas when
preparing the Mazars Subpoena. The Court is familiar with
this fact pattern, having already concluded that such copying
did not demonstrate bad faith for the purposes of Younger
abstention. See Trump v. Vance, 395 F. Supp. 3d at 298–300.17
However, as the President observed, the bad faith analysis
under

Younger

does

not

necessarily

track

the

bad

faith

analysis otherwise required by the Federal and New York State
cases cited by the Supreme Court in its Opinion above. (See
Opposition

at

24–25.)

The

same

could

be

said

of

the

overbreadth analysis. Accordingly, the Court will consider
the

SAC’s

allegations

regarding

the

copying

of

the

two

congressional subpoenas under the legal standards set forth
above in Section II, rather than the standards that governed
its analysis in the Younger context.
Though the governing legal standards and the submissions
now before the Court are different, the Court’s conclusion is

17

Because the Second Circuit vacated this Court’s decision to abstain in
light of the federal-state conflict presented here, the Second Circuit
did not address this Court’s findings regarding bad faith in the Younger
context. See Trump v. Vance, 941 F.3d at 639 n.11. Although the Court now
assesses bad faith under different legal standards and in reliance on a
different set of submissions, the Court will occasionally refer to its
previous findings regarding bad faith where relevant to note continuities
between its earlier findings and the observations made in the instant
Decision and Order.

47

App. 47

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 48 of 103

not.18 As explained in greater detail below, the President’s
allegations
Mazars

regarding

Subpoena

do

the

not

timing

and

adequately

preparation

rebut

the

of

the

subpoena’s

presumptive validity. The alleged circumstances of the Mazars
Subpoena’s preparation and issuance do not raise a reasonable
inference of retaliation or harassment, and the President’s
allegations

that

the

subpoena’s

resulting

requests

are

outside the scope of the grand jury’s investigation fail to
account for obvious alternative explanations that accord with
the presumptive validity of the subpoena.
1.

Timing of the Mazars Subpoena’s Issuance

The President first orients his allegations regarding
the Mazars Subpoena by noting two details about the timing of
its issuance: (1) that it was issued at some point after the
President claimed the Trump Organization Subpoena could not
legitimately be read to request tax returns; and (2) that it
was issued during a time when news reports suggested Democrats

18

The Court notes that the Supreme Court and President cited Huffman v.
Pursue, Ltd., 420 U.S. 592 (1975) as relevant precedent for the bad faith
inquiry. See Trump v. Vance, 140 S. Ct. at 2428; SAC ¶ 51. The Court would
conclude that the President has failed to allege bad faith if Huffman,
the “civil counterpart” of Younger, controls the analysis. See Huffman,
420 U.S. at 611. Under this line of case law, “[a] state proceeding that
is legitimate in its purposes, but unconstitutional in its execution -even when the violations of constitutional rights are egregious -- will
not warrant the application of the bad faith exception.” Diamond “D”
Constr. Corp. v. McGowan, 282 F.3d 191, 198 (2d Cir. 2002). As explained
elsewhere in this Decision, the SAC’s allegations do not adequately
reflect that the grand jury investigation and Mazars Subpoena are
“anything other than a straightforward enforcement of the laws of New
York.” Schlagler v. Phillips, 166 F.3d 439, 443 (2d Cir. 1999).

48

App. 48

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 49 of 103

desired access to the President’s tax returns. (See SAC ¶¶
13–17, 24.) It is true that the timing of a subpoena may
suggest

an

improper

purpose

animated

its

issuance.

See

Simels, 767 F.2d at 29–30; see also Hynes v. Lerner, 376
N.E.2d 1294, 1296 (N.Y. 1978) (“[O]nce an indictment is
issued, a Grand Jury subpoena duces tecum may not be used for
the

sole

or

dominant

purpose

of

preparing

the

pending

indictment for trial.”). However, the allegations regarding
timing here lack sufficient factual support to render them
plausible.
The Court begins by noting several issues with the
allegation

that

the

District

Attorney

issued

the

Mazars

Subpoena to retaliate against the President’s refusal to
produce tax returns under the Trump Organization Subpoena.
The SAC alleges that the District Attorney issued the Trump
Organization Subpoena on August 1, 2019, and requested tax
returns pursuant to that subpoena at some unspecified point
thereafter. (SAC ¶¶ 13, 16.) “When the President’s attorneys
pointed out that the subpoena could not plausibly be read to
demand returns, the District Attorney declined to defend his
implausible reading” and instead issued the Mazars Subpoena,
which explicitly called for tax returns. (Id. ¶¶ 16-18.)19

19

The Court notes that the SAC does not specify the date on which the
President objected to producing tax returns, and it will not rely on
extrinsic evidence such as the Shinerock Declaration to identify that

49

App. 49

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 50 of 103

While the President conclusorily describes the issuance
of the Mazars Subpoena as retaliation for the President’s
refusal to produce tax returns under the Trump Organization
Subpoena, the alleged fact pattern described above does not
render such an inference reasonable. The SAC lacks detailed
factual allegations; it neither includes quotations from nor
attaches correspondence in which the District Attorney’s
communications indicated anything but good faith. Without
additional factual allegations supporting the claim that the
District Attorney prepared and issued the Mazars Subpoena “in
a fit of pique” prompted by the refusal to produce tax returns
(see Opposition at 2), this sequence of events could obviously
be explained in ways that do not impugn the presumptive
validity

of

the

Mazars

Subpoena.

First,

the

District

Attorney’s decision not to argue that the Trump Organization
Subpoena calls for tax returns obviously need not reflect bad
faith; normally, acquiescence in the face of another party’s
opposition is a sign of good faith negotiations. Similarly,
the District Attorney’s choice to issue a new subpoena that

date. The Court will instead assume for the purposes of this Decision
that the President raised his specific objection regarding tax returns
before the District Attorney issued the Mazars Subpoena, because it would
not be reasonable to infer that the Mazars Subpoena was issued in
retaliation for objections that the President had not yet made. (See
Opposition at 6 (“Only after a disagreement arose over whether [the Trump
Organization Subpoena] required the production of tax returns was the
sweeping subpoena issued to Mazars.”).)

50

App. 50

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 51 of 103

explicitly called for tax returns could just as readily
reflect either a good faith agreement that the President’s
interpretation of the Trump Organization Subpoena was valid
or a conclusion that issuing a clearer subpoena would simply
be preferable to prolonged arguments.
While the alternatives suggested above might not in fact
be the case, they are “obvious alternative explanations”
consistent with general experience and common sense that
undermine the reasonableness of the factual inferences that
the President asks the Court to draw. The fundamental cases
that set forth the standards for motions under Rule 12(b)(6)
require

this

Court

to

consider

such

possibilities

when

determining the plausibility of a complaint’s allegations.
For example, the Twombly court declined to infer the existence
of an anticompetitive agreement based only on conduct that
was “consistent with conspiracy, but just as much in line
with

a

wide

swath

of

rational

and

competitive

business

strategy”; given an equally compelling factual inference
based on legitimate conduct, the court saw “no reason to infer
that the companies had agreed among themselves to do what was
only natural anyway.” 550 U.S. at 554, 566. The Iqbal Court
similarly

held

that

while

the

plaintiff’s

allegations

regarding certain arrests and detentions were consistent with
illegal discrimination, “given more likely explanations, they
51

App. 51

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 52 of 103

[did] not plausibly establish this purpose . . . As between
that ‘obvious alternative explanation’ for the arrests and
the purposeful, invidious discrimination” that the plaintiff
asked

the

Court

to

infer,

“discrimination

[was]

not

a

plausible conclusion.” 556 U.S. at 681-82 (quoting Twombly,
550 U.S. at 567).
The

Supreme

Court

has

since

reiterated

that

courts

should remain mindful of alternative explanations for alleged
misconduct when those explanations would seem fairly obvious
in their proper context. See, e.g., Fifth Third Bancorp v.
Dudenhoeffer, 573 U.S. 409, 429–30 (2014). Considering that
grand jury subpoenas are presumptively valid, the inference
that the Mazars Subpoena is retaliatory simply because it
asks for tax returns and was issued approximately one month
after the Trump Organization Subpoena is speculative in light
of the obvious alternatives here.
Nor does the issuance of the subpoena to Mazars plausibly
show “an effort to circumvent the President.” (SAC ¶ 16.) As
a matter of common sense, it is entirely unsurprising that a
grand

jury

would

issue

multiple

subpoenas

to

multiple

different recipients, and it is not uncommon for a grand jury
subpoena to request a subject’s documents from third-party
custodians. See, e.g., Hirschfield v. City of New York, 686
N.Y.S.2d 367, 370 (App. Div. 1st Dep’t 1999). The simple fact
52

App. 52

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 53 of 103

that the Mazars Subpoena was issued shortly after the Trump
Organization subpoena and requested tax returns does not
raise a reasonable inference that it served the same purposes
as the Trump Organization Subpoena, that the grand jury should
have

requested

tax

returns

directly

from

the

Trump

Organization, or that the grand jury had no independent reason
to

request

any

other

documents

from

Mazars.

While

the

allegations above may be consistent with a bad faith effort
to

circumvent

the

President,

they

are

certainly

not

suggestive of it. The Court cannot lightly assume bad faith
on the part of the District Attorney, and the President’s
allegations simply do not contain sufficient factual support
to

render

the

numerous

inferences

required

above

non-

speculative.
For

example,

in

Hirschfield,

the

District

Attorney

issued a grand jury subpoena to Citibank for the financial
records of a prominent New York real estate developer and
political figure and affiliated entities in connection with
an

investigation

into

whether

individual

and

corporate

transactions over a five-year period may have violated state
tax laws. See id. at 368. Hirschfield alleged that “the
investigation was politically motivated” and undertaken in
bad faith. Id. at 369. The Appellate Division upheld the
subpoenas

because

there

was

an

53

App. 53

objective,

good

faith

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 54 of 103

justification to issue them, and it did not consider the
particular

details

of

the

subpoenas’

issuance

or

terms

sufficient to reflect either bad faith or a violation of
Hirschfield’s
involved

a

Appellate

rights.

claim

See

for

Division’s

id.

damages

at
on

reasoning

370.

While

summary

clearly

Hirschfield

judgment,

counsels

the

against

concluding that the issuance of a grand jury subpoena to a
third-party custodian raises a reasonable inference of bad
faith,

either

on

its

own

or

in

conjunction

with

the

allegations regarding timing and copying here.
The Court is also not persuaded that contemporaneous
articles

indicating

“Democrats

had

become

increasingly

dismayed over their ongoing failure to get their hands on the
[President’s

tax

returns],”

or

that

it

might

“be

more

difficult to fend off a subpoena in a criminal investigation
with a sitting grand jury,” support a plausible claim that
the Mazars Subpoena was issued in bad faith. (SAC ¶ 24
(internal quotation marks omitted).) Taking these allegations
as

true,

the

SAC

still

provides

no

detail

on

why

any

similarity in timing suggests that the District Attorney
issued

the

Mazars

Subpoena

primarily

to

assuage

those

particular politicians’ dismay. While the Mazars Subpoena may
well have been issued for that particular purpose, the lack
of

specific

facts

tying

the

Mazars

54

App. 54

Subpoena

to

those

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 55 of 103

politicians prevents the Court from reasonably inferring that
the

Mazars

Subpoena

reflects

an

effort

to

advance

the

Democrats’ goals rather than legitimate ones.20
Certainly, the Court is aware, based on reports of public
record, that Democrats in the House of Representatives have
subpoenaed the President’s tax returns too. Taking the SAC’s
allegations as a whole, the President may have intended to
suggest that the Mazars Subpoena was primarily aimed at
effectuating
identical

Congressional

subpoenas

in

Democrats’

this

regard.

substantially

However,

unless

the

documents are leaked, Congressional Democrats would not have
access to them. N.Y. Crim. Proc. Law § 190.25(4) (McKinney
2019); N.Y. Penal Law § 215.70 (McKinney 2019). The Court
cannot lightly infer that the District Attorney will leak
documents subject to the rules of grand jury secrecy. Because
unlawful grand jury disclosure is a felony under New York
state law, “those who make unauthorized disclosures regarding
a grand jury subpoena do so at their peril.” See Trump v.
Vance, 140 S. Ct. at 2427; see also Trump v. Vance, 395 F.
Supp. 3d at 304 (noting that “a grand jury is under a legal

20

See Matter of Archuleta, 432 F. Supp. 583, 594 (S.D.N.Y. 1977)
(declining to impute bad faith to federal grand jury in New York on the
basis of alleged harassment by New Mexico officials where petitioner did
“not specify a causal connection between those [political] activities [in
New Mexico] and whatever local ire they may have provoked and the issuance
of a subpoena by a federal grand jury in the Southern District of New
York”).

55

App. 55

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 56 of 103

obligation to keep the confidentiality of its records”). The
SAC does not provide an adequate basis to assume unauthorized
disclosures to congressional Democrats will happen regardless
of the rules applicable to grand juries. Attributing the
speculative malice of apparently unaffiliated Democrats to
the District Attorney on such bare allegations would not
accord with the respect due to state grand jury proceedings.
See Trump v. Vance, 395 F. Supp. 3d at 299 (“To . . . impute
bad faith to the District Attorney on the basis of statements
made by various legislators . . . would be incompatible with
federal

expression

of

a

decent

respect

for

the

state

authority’s functions.” (internal quotation marks omitted)).
While timing alone may indicate that a subpoena was
issued for an improper purpose, in the cases that have found
such

impropriety,

“the

timing

and

other

circumstances

surrounding the issuance of the subpoena have been far more
suggestive of abuse than are the circumstances here.” Leung,
40 F.3d at 582. Without factual allegations supporting the
claim that the District Attorney failed to negotiate in good
faith, or facts tying the Mazars Subpoena to congressional
Democrats,

the

Court

reasonable

inference

cannot
based

find

solely

that
on

retaliation

the

timing

is

of

a

the

issuance of the Mazars Subpoena. But because the Court is
mindful

that

the

allegations

detailed

56

App. 56

above

should

be

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 57 of 103

considered not in isolation, but rather in conjunction with
the SAC’s other allegations, the Court now turns to those
other

allegations

to

examine

whether

they

render

the

inferences of misconduct here reasonable.
2.

Copying of Congressional Subpoenas

The SAC’s allegations turn in significant part on the
District Attorney’s choice to base the Mazars Subpoena almost
entirely on two congressional subpoenas. As he did in the
preliminary injunction proceedings before this Court, the
President

emphasizes

that

the

Mazars

Subpoena

is

copied

almost entirely from the House Oversight Committee’s subpoena
to the Trump Organization and adds only a request for tax
returns -- a request that the House Ways and Means Committee
made in its subpoena to the Treasury Department and the IRS.
(SAC ¶¶ 19–20.) During those initial proceedings, the Court
rejected

the

President’s

arguments

that

the

District

Attorney’s copying demonstrated bad faith in the context of
abstention. See Trump v. Vance, 395 F. Supp. 3d at 298–300.
The

Court

will

nevertheless

consider

the

President’s

allegations regarding copying as now framed in the SAC under
the legal standards set forth above in Section II. Though the
legal standards are not the same, the Court nonetheless
concludes again that the President has failed to plausibly
allege bad faith.
57

App. 57

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 58 of 103

As an initial matter, the Court notes that the President
has not cited any authority for the proposition that a grand
jury subpoena is invalid because it is copied from another
source. On the contrary, the Court’s review of relevant case
law suggests that the mere copying of other sources does not
inherently render a grand jury subpoena overbroad or issued
in bad faith. For example, one court in this District declined
to quash a grand jury subpoena that “mirror[ed]” a rider to
a search warrant, even where both documents sought “virtually
every corporate document” of multiple corporate entities and
the search warrant itself was found partially overbroad. See
Vilar, 2007 WL 1075041, at *45–46. Though that court did
modify the subpoena, it noted that the simple fact that the
subpoena mirrored a search warrant did “not mean that even
most of the categories [of documents] sought in the Subpoena
[were] irrelevant”; on the contrary, the court held that
because “the grand jury suspected at least some fraud going
back nearly twenty years” by high ranking officers of the
corporations, the defendants “[could not] say that the[]
documents

[had]

‘no

conceivable

relevance’

to

the

investigation.” Id. at *46.21 In light of cases such as Vilar,

21

See also, e.g., Matter of Archuleta, 432 F. Supp. at 595-96 (a subpoena
is not burdensome or oppressive merely because it “seek[s] identical
information from the witness” as a subpoena in a different jurisdiction,
though “at some point such successive or contemporaneous subpoenas might
well become abusive in their cumulative impact”).

58

App. 58

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 59 of 103

the Court is not persuaded that mere allegations of copying
alone would plausibly state a claim that a grand jury subpoena
is overbroad or constitutes harassment.
Of course, the President does not rely on the mere fact
of

copying

alone.

Rather,

he

alleges

that

the

District

Attorney did not issue the Mazars Subpoena in good faith based
on the District Attorney’s representations that “the decision
to mirror the [congressional] subpoena was about efficiency,
meaning it was intended to facilitate the easy production by
Mazars of a set of documents already collected, and to
minimize any claim that the [District Attorney]’s request
imposed new and different burdens.” (SAC ¶ 22.) The SAC cites
this justification as evidence of bad faith because “[t]here
is nothing efficient -- let alone proper -- about demanding
voluminous records that are irrelevant to the grand jury’s
work[,] . . . a subpoena’s legitimacy is not defined by what
is most efficient for the records custodian[,] [a]nd issuing
a patently overbroad subpoena is obviously not efficient for
the owner whose records are being demanded.” (Id. ¶ 23.)
Putting

aside

the

conclusory

assertions

that

the

subpoena is “patently overbroad” and demands records that are
“irrelevant to the grand jury’s work,” the Court agrees that
a “subpoena’s legitimacy is not defined by what is most
efficient for the records custodian.” But that is largely
59

App. 59

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 60 of 103

beside the point. A subpoena’s legitimacy is presumed in this
context.

Rather

than

arguing

that

the

District

Attorney

cannot rely upon efficiency as a good faith basis to issue
the Mazars Subpoena, the President must allege that the
efficiency rationale affirmatively demonstrates bad faith on
the

District

Attorney’s

part.

But

the

underlying

law

governing challenges to grand jury subpoenas undercuts the
persuasive
Appellate

force

of

Division

allegations
of

the

New

to

this

York

effect.

Supreme

As

the

Court

has

indicated, the New York County district attorney’s “efforts
to make compliance with [a] subpoena less onerous” for a
third-party records custodian tend to support the conclusion
that a grand jury subpoena was not issued to harass or
retaliate against the owner of the records. Hirschfield, 686
N.Y.S.2d at 370.
Viewed

in

this

context,

the

President’s

arguments

regarding efficiency do not raise a reasonable inference that
the Mazars Subpoena was issued in bad faith. Taking as true
the justifications attributed to the District Attorney above,
the allegations plainly reflect that efficiency explains why
the District Attorney drafted the Mazars Subpoena the way he
did,

rather

than

why

he

issued

22

it.22

Without

further

The Court is also not persuaded by the President’s argument that the
District Attorney has given “inconsistent” or “shifting” justifications
for the Mazars Subpoena simply because the District Attorney claimed in

60

App. 60

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 61 of 103

allegations supporting an improper purpose for issuing the
subpoena,

the

allegations

about

the

District

Attorney’s

draftsmanship do little to state a claim for bad faith.
The SAC is not devoid of allegations that the copying of
congressional subpoenas indicates the Mazars Subpoena was
issued for purposes that are not legitimately within the grand
jury’s jurisdiction. The SAC appears to allege that the
District Attorney could not have believed in good faith that
the Mazars Subpoena requested documents that were relevant to
the grand jury’s investigation because the two underlying
sources of the Mazars Subpoena’s language were tailored to
request

documents

relevant

to

the

purposes

of

Federal

legislative investigations. (See SAC ¶¶ 25–26, 36–45.) The
Court readily accepts that the specific legislative purposes
cited

by

the

President

in

the

SAC

are

not

within

the

jurisdiction of a New York County grand jury.
The Court notes, however, that the SAC impermissibly
conflates

the

Mazars

Subpoena

with

the

congressional

subpoenas that it copies at various points. (See, e.g., id.

his Memo that he and Congress are investigating the same “potentially
improper conduct,” rather than focusing on “efficiency” per se.
(Opposition at 23–24.) Whether or not the grand jury and Congress are
actually investigating similar conduct (and the Court need not and does
not decide that issue), it would obviously still be efficient for the
District Attorney to copy congressional subpoenas addressed to the same
records custodian. There is nothing inherently inconsistent about the two
explanations.

61

App. 61

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 62 of 103

¶ 5 (“[T]he Mazars subpoena . . . was not designed to meet
the needs of the grand jury. It was drafted by a congressional
committee . . . .”); id. ¶ 36 (“Of course, the incongruity
between this subpoena and any investigation into particular
state-law crimes makes sense. The original author of the
subpoena (aside from the request for tax returns) -- the House
Oversight Committee -- had no intention of it being used to
facilitate a state-law criminal investigation.”)). The House
committees are not the authors of the Mazars Subpoena, as
even the choice to copy and combine other subpoenas reflects
the District Attorney’s drafting decisions; the Court cannot
reasonably infer that the purposes that Congress had in mind
when drafting similar language somehow transferred to the
Mazars Subpoena simply by virtue of copying.23 The Court need
not accept as true allegations that are not well-pled, and
largely conclusory besides.
In a similar vein, the Court cannot reasonably infer
that

documents

requested

by

the

23

Mazars

Subpoena

are

The Mazars Subpoena reflects other choices by the District Attorney as
well, which the Court points out solely for the purpose of noting the
President’s improper conflation of the two subpoenas. In particular,
request 1(e)(i) reaches communications between Bender and a much larger
set of individuals -- “any employee or representative of the Trump
Entities,” as defined in paragraph 1 -- compared to corresponding request
4(a) of the House Committee’s subpoena, which reaches only communications
between Bender and the President or “any employee or representative of
the Trump Organization.” Request 1(e)(ii) of the Mazars Subpoena is
similarly broader than the corresponding request 4(b) of the House
Committee’s subpoena.

62

App. 62

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 63 of 103

irrelevant to legitimate grand jury purposes simply because
they may also be relevant to the legislative purposes of the
House committees that originally drafted similar requests.
Put

simply,

a

particular

document

may

be

desirable

for

multiple valid purposes. Countless precedents reflect that a
state’s criminal investigation of particular subject matter
may legitimately overlap with the subject matter of federal
criminal investigations, civil proceedings, and legislative
inquiries.
Indeed, the notion that state and national interests may
not overlap is in tension with well-established doctrine. In
the

criminal

context,

“the

dual-sovereignty

doctrine”

provides that “a single act gives rise to distinct offenses
-- and thus may subject a person to successive prosecutions
-- if it violates the laws of separate sovereigns.” Puerto
Rico

v.

Sanchez

Valle,

136

S.

Ct.

1863,

1867

(2016)

(pertaining to double jeopardy). Because “[t]he states and
the national government are distinct political communities”
empowered

“independently

to

determine

what

shall

be

an

offense . . . and to punish such offenses,” a state may
legitimately

investigate

the

same

conduct

as

a

federal

criminal authority as long as its investigation is not a
“tool” or a “sham and a cover” for the federal proceeding.

63

App. 63

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 64 of 103

United States v. Davis, 906 F.2d 829, 832 (2d Cir. 1990)
(pertaining to suppression).24
Moreover, the Supreme Court has clearly stated that
particular information may be relevant to both legitimate
legislative purposes and legitimate state criminal purposes.
See, e.g., Hutcheson v. United States, 369 U.S. 599, 613
(1962) (Opinion of Harlan, J.) (noting that “the authority of
[Congress], directly or through its committees, to require
pertinent disclosures in aid of its own constitutional power
is not abridged because the information sought to be elicited
may also be of use in” state criminal proceedings) (internal
quotation

marks

omitted);

id.

at

624

(Brennan,

J.,

concurring) (“[T]hat the conduct under inquiry may have some
relevance to the subject matter of a pending state indictment
cannot absolutely foreclose congressional inquiry.”). Just as
legislative inquiry cannot be foreclosed simply because the
information

requested

might

pertain

to

state

criminal

inquiries, a state criminal inquiry should not be foreclosed

24

Similarly, the documents requested in criminal investigations may also
be relevant for the purposes of civil proceedings. And as long as the
grand jury is not collecting information predominantly for the purpose of
aiding those civil proceedings, there is nothing inherently suspect about
grand jury requests for the same documents. See, e.g., Harlem Teams for
Self-Help, Inc., 472 N.Y.S. 2d at 971; Sec. & Exchange Comm’n v. Dresser
Indus., Inc., 628 F.2d 1368, 1377 (D.C. Cir. 1980) (“Effective enforcement
of the securities laws requires that the SEC and Justice be able to
investigate possible violations simultaneously.”).

64

App. 64

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 65 of 103

simply because it seeks documents that Congress believes will
advance its legislative purposes.
Thus, the Court cannot infer that the documents are
irrelevant to the grand jury simply because Congress sought
them pursuant to the legislative purposes cited in the SAC.
Nor does the SAC plausibly allege that the grand jury is
predominantly
purposes

pursuing

instead

of

federal,
the

civil,

traditional

or

and

legislative
presumptively

legitimate goals of vindicating New York County laws. In fact,
the President does not contest that “the true subject of the
grand

jury

investigation

falls

within

the

criminal

jurisdiction of the County of New York.” (Opposition at 19.)
In light of these deficiencies, the SAC does not supply the
Court with a reasonable expectation that discovery would
reveal illegal conduct by the District Attorney.
3.

Circumstances
Suggesting
the
Grand
Jury
Is
Investigating Only the 2016 Michael Cohen Payments

Finally, the President claims that the SAC’s allegations
regarding timing and preparation raise a reasonable inference
that the scope of the grand jury investigation is more limited
than

the

Mazars

Subpoena’s

requests.

Specifically,

the

President argues that the Mazars Subpoena “is overbroad in
relation to an investigation into payments made in 2016, and
[that] copying a congressional subpoena for nearly a decade’s
65

App. 65

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 66 of 103

worth of financial documents and issuing it for no legitimate
reason states a claim for bad faith.” (Opposition at 2.) The
SAC certainly contains numerous allegations suggesting the
grand jury is investigating the 2016 Michael Cohen Payments.
(See, e.g., SAC ¶ 12 (“According to published reports, the
focus of the District Attorney’s investigation is payments
made by Michael Cohen in 2016 to certain individuals.”).)
Taking well-pleaded factual allegations as true and drawing
reasonable inferences therefrom, the Court accepts that the
grand jury is investigating the 2016 Michael Cohen Payments.
Nonetheless,

the

SAC

does

not

support

a

reasonable

inference that the grand jury’s investigation is limited to
those payments. The President claims that the “best evidence”
of the scope of the grand jury investigation is the Trump
Organization Subpoena. (Opposition at 5.) He asserts that
because that subpoena focused on the 2016 Michael Cohen
Payments, and the Mazars Subpoena was issued within a month
of that subpoena, the grand jury remains exclusively focused
on

those

payments.

(See

id.

at

5-6.)

This

argument

is

fundamentally flawed.
First, the Court cannot reasonably infer that a single
subpoena defines the entire scope of a grand jury inquiry. As
a

matter

of

common

sense

and

experience,

a

grand

jury

routinely issues multiple subpoenas to multiple recipients
66

App. 66

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 67 of 103

across the course of its investigation. And “the fact that
the petitioner was served with one subpoena does not give it
immunity from complying with the reasonable demands of a
subsequent subpoena.” In re Grand Jury Subpoena Duces Tecum
Addressed to Provision Salesmen and Distribs. Union, Local
627, AFL-CIO, 203 F. Supp. 575, 582-83 (S.D.N.Y. 1961). The
subsequent subpoena in question here was not even served on
the President, and the President has cited no cases to suggest
that a grand jury subpoena is issued in bad faith merely
because it requests a broader range of documents than a prior
subpoena. The SAC provides no plausible basis to support a
reasonable inference that subpoenas issued 28 days apart
address

the

considering

same
that

exact

the

grand

subject
jury

matter,

particularly

investigation

had

also

already developed over the course of the prior year. (See SAC
¶¶ 1, 11 (noting the investigation began in “the summer of
2018”).) Because the timing of the Mazars Subpoena’s issuance
is not otherwise suspicious for the reasons addressed in
Section III.A.1., that the two subpoenas were issued in the
same month does not raise a reasonable inference that they
address the same conduct.
Second, the inference that a grand jury investigation
into the 2016 Michael Cohen Payments must be limited to those
payments is speculative in light of the obvious alternative
67

App. 67

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 68 of 103

explanation that the grand jury’s broader requests might
simply indicate a broader investigation. Fully consistent
with -- if not suggestive of -- this alternative, the SAC
notes that the District Attorney claims to be investigating
“business transactions involving multiple individuals whose
conduct

may

have

violated

state

law.”

(Id.

¶

11.)

In

describing the investigation, the SAC also quotes the New
York Times for the proposition that “[i]n New York, filing a
false business record can be a crime.” (Id. ¶ 12.)
At no point does the SAC provide plausible basis to
support

a

reasonable

inference

that

the

grand

jury

investigation into business transactions or the filing of
false business records could not include transactions and
record filings beyond those related to the 2016 Michael Cohen
Payments. Its own allegations raise the obvious alternative
explanation that the investigation need not be so limited.
Ultimately, the President merely asserts that the Court must
accept his speculative limitation on the scope of the grand
jury’s

investigation

investigation.

But

as

the

the

Court

actual
need

not

limits
accept

of
as

that
true

conclusory and speculative allegations that lack sufficient
factual

support

under

Rule

12(b)(6).

And

accepting

speculative assertions regarding the scope of a grand jury
investigation risks running afoul of the substantive law that
68

App. 68

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 69 of 103

governs the President’s claims. See Virag, 430 N.E.2d at 1253
(noting that “petitioners merely speculated as to what, in
their view, was the Grand Jury’s purpose in seeking the
business records . . . . This allegation, without more, was
insufficient to overcome the presumption that the materials
sought

were

relevant

to

the

Grand

Jury’s

investigation . . .”).
Third, the Court is obligated to assess the plausibility
of factual assertions in light of common sense and experience
as well as the legal and factual context. See supra Section
II.A. Judicial experience readily confirms that the scope of
an investigation may broaden in short order. Full Gospel
Tabernacle,

Inc.

v.

Attorney-General

provides

a

helpful

example. 536 N.Y.S.2d 201 (App. Div. 3d Dep’t 1988). There,
while New York’s State Department of Taxation and Finance
began an investigation focusing on “hush money” payments made
by a televangelist to an individual with whom he had a sexual
encounter, the “focus of the investigation shifted to other
officers and employees” and the matter was referred to a grand
jury for criminal investigation. Id. at 202. The grand jury
subsequently

served

multiple

subpoenas

that

eventually

supported criminal charges as varied as falsifying business
records, criminal solicitation, witness tampering, and filing
false personal income tax returns. Id. at 203. Despite the
69

App. 69

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 70 of 103

obviously

broad

investigation,

and

changing

the

scope

Appellate

of

the

Division

grand

jury’s

rejected

the

petitioners’ claims to quash the subpoenas on the grounds of
overbreadth and bad faith because the documents requested
were relevant in light of “the broad investigatory function
of the Grand Jury.” Id. at 205–06.
Cases like Full Gospel Tabernacle remain relevant even
at the pleading stage. The Court must assess the plausibility
of claims of bad faith and overbreadth in light of the
substantive

law

that

governs

them,

and

the

President’s

allegations fail to address the readily apparent possibility
that this grand jury investigation could be as ranging and
exploratory as the many grand jury investigations that courts
have approved in the past. Accord Virag, 430 N.E.2d at 1253
(explaining that grand jury investigations are “ranging,
exploratory,” and “necessarily broad” in nature).
In

general,

the

President’s

allegations

fail

to

adequately rebut the presumption of legitimacy that accords
to grand jury subpoenas, even at the pleading stage. See,
e.g., D’Alessandro v. City of N.Y., 713 F. App’x 1, 7 (2d
Cir. 2017) (noting that claims did not cross the line “from
conceivable to plausible” where they failed to rebut the
presumption

of

regularity

that

attaches

to

grand

jury

proceedings). Twombly and Iqbal require courts to consider
70

App. 70

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 71 of 103

the existence of clear alternatives that do not impugn the
legitimacy of the defendants haled into court. The Court would
be remiss to ignore these commands, particularly as applied
to the presumptively legitimate investigations of a grand
jury.

Even

though

the

President’s

burden

to

plausibly

“allege” misconduct is less than the ultimate burden to
affirmatively demonstrate or “show” that misconduct, the
Court

need

not

deem

plausible

the

mere

possibility

of

misconduct. Iqbal, 556 U.S. at 678-79 (“Where a complaint
pleads facts that are merely consistent with a defendant’s
liability, it stops short of the line between possibility and
plausibility . . . where the well-pleaded facts do not permit
the

court

to

infer

more

than

the

mere

possibility

of

misconduct, the complaint has alleged -- but it has not
‘show[n]’ -- ‘that the pleader is entitled to relief.’)
(quoting Fed. R. Civ. P. 8(a)(2) (“Rule 8”)).25
Fourth, the President asserts that the District Attorney
has

never

publicly

acknowledged

that

the

grand

jury

investigation extends beyond the 2016 Michael Cohen Payments.

25

The Court also rejects the President’s assertion that the presumption
of regularity is “weaker when employed against the President.” (Opposition
at 18.) As noted above in Section II.C., the Court does not interpret the
high respect due to the President to alter the substantive legal standards
that govern whether a grand jury has acted in bad faith or issued an
overbroad subpoena. The many considerations that counsel against lightly
attributing bad faith to the grand jury do not lose their force simply
because the President says so, and the presumption of regularity that
attaches to grand jury proceedings is not toothless at the pleading stage.

71

App. 71

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 72 of 103

Assuming this assertion to be true, the Court cannot draw
from

it

a

reasonable

inference

that

the

grand

jury

is

investigating only the 2016 Michael Cohen Payments, because
the District Attorney is under no obligation to affirmatively
describe

the

scope

of

his

investigation.

Quite

to

the

contrary, the grand jury’s ability to perform its duties
“would be intolerably impeded if a District Attorney could be
compelled to divulge, before he is ready, the nature of an
investigation by the grand jury or the name of the person or
persons

suspected.”

Virag,

430

N.E.2d

at

1252

(internal

quotation marks omitted). The President cannot rely on the
District

Attorney’s

silence

“to

set

limits

to

the

investigation that the grand jury may conduct.” Blair, 250
U.S. at 282.
For

all

of

the

reasons

detailed

above,

the

SAC’s

allegations regarding the timing and copying of the Mazars
Subpoena do not plausibly suggest that the subpoena was
overbroad or issued in bad faith. The allegations fail to
address obvious alternative explanations for the conduct
described in the SAC, and they lack adequate factual support
to render reasonable the competing factual inferences that
the President claims this Court must accept. On its own terms,
the SAC fails to state a claim for relief.

72

App. 72

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 73 of 103

The Court notes that it need not rely on the Shinerock
Declaration, the news reports cited by the District Attorney,
or the prior filings during the preliminary injunction phase
of this proceeding to reach this conclusion. However, that
does not mean the Court cannot be mindful of or refer to such
matters short of converting the Motion to a motion for summary
judgment. As noted above, matters of public record may be
cited for purposes other than establishing the truth of the
matters asserted, such as notice to a party or as illustrative
examples

suggesting

a

pleading’s

deficiency.

See

supra

Section II.A. As an example, this Court previously observed
that the grand jury investigation might be “substantially
related

to”

matters

other

than

the

2016

Michael

Cohen

Payments, such as bank and insurance fraud. See Trump v.
Vance, 395 F. Supp. 3d at 300. Regardless of whether or not
the Court’s prior observation was true, the President was on
notice that the scope of the grand jury’s investigation might
not be so limited as alleged in the SAC. Even if the scope of
the investigation was not, in fact, broader, the possibility
was plain enough that the President needed to allege further
facts to render his competing inference plausible.26

26

Because the Court need not consider the foregoing public matters for
their truth or convert the Motion into a motion for summary judgment, the
Court denies the President’s request for discovery in the Letter as moot.
See also infra Section III.C.1.

73

App. 73

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 74 of 103

Accordingly, the Court concludes that the allegations
regarding the timing and preparation of the Mazars Subpoena
detailed above do not plausibly state a claim for either
overbreadth or bad faith. The President has not alleged
sufficient facts to permit a reasonable inference that the
grand jury’s investigation is limited to the 2016 Michael
Cohen Payments, and neither the copying of congressional
subpoenas nor the timing of the Mazars Subpoena’s issuance
plausibly suggest bad faith in light of the many obvious
alternative explanations for the District Attorney’s conduct
and the presumptive legitimacy of grand jury subpoenas.
B.

THE BREADTH OF THE MAZARS SUBPOENA’S REQUESTS
While the Court is not persuaded that the allegations

addressed above state a plausible claim for relief, the Court
has yet to address whether the actual requests of the Mazars
Subpoena might suggest overbreadth or bad faith, either on
their own terms or in conjunction with the various allegations
regarding the circumstances of the subpoena’s preparation
addressed in Section III.A. Accordingly, the Court addresses
below

allegations

that

might

still

suggest

the

Mazars

Subpoena was issued in bad faith or is overbroad as to the
timeframe, geographic scope, and documentary nature of its
requests.
1.

The Timeframe of the Mazars Subpoena’s Requests
74

App. 74

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 75 of 103

The President alleges that the subpoena is overbroad
because it orders the production of certain categories of
documents from January 1, 2011, and requests production of
other categories of documents “[r]egardless of time period.”
(SAC ¶ 18.) The Court finds that the President has not
sufficiently pled that the subpoena is overbroad or was issued
in bad faith on this basis.
“No magic figure limits the vintage of documents subject
to a grand jury subpoena. The law requires only that the time
bear

some

relation

investigation.” In
Ramailis,

450

F.

to

re

the

subject

Rabbinical

Supp.

Seminary

1078,

1084

matter

of

the

Netzach

Israel

(E.D.N.Y.

1978)

(citing Provision Salesmen, 203 F. Supp. 575). The timeframe
of the records sought by the subpoena must, however, be
“reasonable.” Provision Salesmen, 203 F. Supp. at 578. Of
course, this inquiry depends on the context and circumstances
of each case, and the timeframe of the records sought “should
bear

some

relation

to

the

investigation.” Id. (citations

subject

omitted).

of

the

In Rabbinical

Seminary, certain of the requested records predated (by six
months) the seminary’s participation in the program that was
the subject of the investigation, and others postdated (by
twenty-one

months)

the

seminary’s

participation

in

that

program. The court noted that “[t]he bona fides of the
75

App. 75

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 76 of 103

Seminary’s representations in entering the program and its
subsequent

use

of

the

funds

might

not

be

subject

to

determination solely by inspection of records concerning the
period of participation.” 450 F. Supp. at 1085. Thus, it is
clear

that,

in

investigatory

accordance

powers,

a

with

grand

the
jury

grand

jury’s

subpoena

broad

may

seek

documents dating from years outside of the specific time
period

during

which

a

crime

is

thought

to

have

been

committed.
Furthermore, even if “some of the requested records are
so old as to be beyond the potentially applicable statute of
limitations,”

that

“does

unreasonable.” Id. n.5.

not

Thus,

the

render

the

“subpoena

subpoena

need

not

be

limited to calling for records from a period within the
statute of limitations. The grand jury should be able to
determine whether there were illegal activities which were
begun

before

the

statutory

period

and

continued

within

it.” Provision Salesmen, 203 F. Supp. at 578; see also United
States v. Doe, 457 F.2d 895, 901 (2d Cir. 1972) (“[T]he grand
jury’s scope of inquiry is not limited to events which may
themselves result in criminal prosecution, but is properly
concerned with any evidence which may afford valuable leads
for investigation of suspected criminal activity during the
limitations period.” (internal quotation marks and citations
76

App. 76

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 77 of 103

omitted)); United States v. Cohn, 452 F.2d 881, 883 (2d Cir.
1971) (rejecting argument that witness’s testimony, which
related “to events which had occurred prior to the limitations
period, could not be a basis for indictment”). The same logic
applies to grand jury witness testimony, which is why New
York courts have held that a witness may not refuse to answer
questions regarding offenses that appear to be barred by the
statute of limitations. Johnson v. Keenan, 396 N.Y.S.2d 232
(App. Div. 1st Dep’t 1977).
The factors a court looks at to determine whether the
timeframe of the records sought is reasonable include “the
type and extent of the investigation; the materiality of the
subject

matter

to

the

type

of

investigation;

the

particularity with which the documents are described; the
good faith of the party demanding the broad coverage; and a
showing of the need for such extended coverage.” Provision
Salesmen, 203 F. Supp. at 578 (internal quotation marks and
alteration omitted). In general, “as the period of time
covered by the subpoena lengthens, the particularity with
which the documents are described must increase.” Id. at 57879 (citing Application of Linen Supply Cos., 15 F.R.D. 115,
118 (S.D.N.Y. 1953); In re United Shoe Mach. Corp., 73 F.
Supp. 207, 211 (D. Mass. 1947)). The inquiry is necessarily
case-specific, which explains why, although some courts have
77

App. 77

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 78 of 103

suggested that the outer bound should generally be ten years,
other courts have approved subpoenas duces tecum covering
longer periods of time, while still other courts have held
similar periods too extensive. Id. at 579 (collecting cases);
Vilar, 2007 WL 1075041, at *43-44 (noting dispute over whether
the

reasonableness

inquiry

is

governed

by

the

Fourth

Amendment, the Due Process clause of the Fifth Amendment, or
Rule 17 of the Federal Rules of Criminal Procedure).
Here,

the

President

points

out

that

the

District

Attorney has not claimed the grand jury to be “fortuitously”
investigating

the

same

timeframe

as

the

congressional

committees. In fact, the District Attorney acknowledges that
the grand jury’s investigation is not coextensive with the
committee’s investigation, and concedes that the subpoena
“does not define the scope of the grand jury investigation.”
(SAC ¶ 26.) The President further alleges that the District
Attorney’s authority is limited by the criminal statutes of
limitation, and that the subpoena reaches far beyond this
authority. Last, the President states -- without providing
any factual support -- that the District Attorney has no
reason to seek documents dating back to 2011.
The Court is not persuaded by these arguments and finds
the timeframe of the subpoena to be reasonable. As an initial
matter,

the

criminal

statutes
78

App. 78

of

limitation

do

not

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 79 of 103

necessarily limit the timeframe of the subpoena, as discussed
above. Furthermore, considering the factors set forth in
Provision Salesmen, the Court finds that the SAC does not
plausibly

allege

timeframe

and

discussed

above,

an

the

incongruence

District
the

between

Attorney’s

President

may

the

subpoena’s

investigation.
not,

through

As
the

pleadings, “set limits to the investigation that the grand
jury may conduct.” Blair, 250 U.S. at 282. Investigating
financial criminal activity such as filing false business
records can be particularly complex, and determining whether
or not there is any evidence that such a crime has been
committed may require information from years before and after
any single transaction of interest. The President pleads no
facts to support his conclusory allegation that the records
sought here are so old as to have no bearing on the grand
jury’s investigation. Furthermore, the records are sought
with particularity, which counsels in favor of finding that
the timeframe of the subpoena is reasonable. Finally, the
period from which documents are sought under the Mazars
Subpoena is not so long as to be otherwise unreasonable; as
noted above, longer periods have been approved by other
courts.

In short, the President’s conclusory allegations are

insufficient to support an inference that the subpoena is
overbroad or issued in bad faith on this basis.
79

App. 79

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 80 of 103

2.

The Geographic Scope of the Mazars Subpoena’s
Requests

The

Mazars

Subpoena

requests

records

from

Mazars

pertaining to: “Donald J. Trump, the Donald J. Trump Revocable
Trust, the Trump Organization Inc., the Trump Organization
LLC, the Trump Corporation, DJT Holdings LLC, DJT Holdings
Managing

Member

LLC,

Trump

Acquisition

LLC,

Trump

Acquisition, Corp., the Trump Old Post Office LLC, the Trump
Foundation,

and

affiliates,

joint

(collectively,
President

the

alleges

any

related

ventures,
‘Trump
that

the

parents,

subsidiaries,

predecessors,

Entities’).”
Mazars

or

(SAC

Subpoena

successors
¶

is

18.)

The

overbroad

because it calls for the production of documents pertaining
to entities outside New York County, including entities in
California, Florida, and other states, as well as in Turkey,
Dubai, Canada, India, Indonesia, and other countries. (See
SAC ¶ 32.)
The District Attorney has authority to prosecute a crime
when

“an

element

of

[the]

offense,”

or

an

attempt

or

conspiracy to commit the offense, occurred in New York County.
N.Y. Crim. Proc. Law Ann. §§ 20.20, 20.40 (McKinney 2019).
And, as the President acknowledges, the District Attorney may
also prosecute crimes that occurred outside New York County
in many instances, including, for example, when “the offense
80

App. 80

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 81 of 103

committed was a result offense and the result occurred within”
New York County, when the offense was intended to have a
prohibited effect in New York County, or when the offense
constituted an attempt to commit a crime within New York
County. N.Y. Crim. Proc. Law Ann. §§ 20.20, 20.40 (McKinney
2019); see also People v. McLaughlin, 606 N.E.2d 1357, 1359
(N.Y. 1992).
This authority, coupled with the practical reality that
New York is “the preeminent commercial and financial nerve
center of the Nation and the world,” Marine Midland Bank,
N.A. v. United Missouri Bank, N.A., 643 N.Y.S.2d 528, 531
(App. Div. 1st Dep’t 1996) (citations omitted), often enables
the

District

crimes

with

Attorney
an

to

prosecute

international

foreign

dimension.

For

entities
example,

and
in

recent years, the District Attorney has prosecuted a number
of foreign banks for falsifying the business records of
financial institutions in Manhattan in violation of New York
state law.27

27

D.A. Vance Announces $162.8 Million Payment From Société Générale to
New York City and State, Manhattan District Attorney’s Office (Nov. 19,
2018),
https://www.manhattanda.org/d-a-vance-announces-162-8-millionpayment-from-societe-generale-to-new-york-city-and-state/; DA Vance: BNP
Paribas Bank Sentenced to Forfeiture of Nearly $8.9 Billion in Penalties
Following Guilty Plea to Criminal Charges, Manhattan District Attorney’s
Office
(Apr.
15,
2015),
https://www.manhattanda.org/da-vance-bnpparibas-bank-sentenced-forfeiture-nearly-89-billion-penaltiesfollowingg/#:~:text=Manhattan%20District%20Attorney%20Cyrus%20R,of%20financial%2
0institutions%20in%20Manhattan; Unicredit Bank AG To Plead Guilty and Pay
$316 Million to DA’s Office Related to Illegal Transactions on Behalf of

81

App. 81

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 82 of 103

Accordingly, that many of the requested records pertain
to entities outside New York County does not render plausible
the President’s speculative claim that the records have no
bearing

on

offenses

within

the

District

Attorney’s

jurisdiction. The President does not, for example, allege
that

the

out-of-state

businesses

never

engaged

in

transactions involving or affecting entities or individuals
in New York County. Accord Matter of Grand Jury Subpoenas
Dated June 26, 1986 (Kuriansky), 513 N.E.2d 239, 239 (N.Y.
1987) (“[A]n out-of-State corporation doing business in New
York may be compelled to produce out-of-State documents at a
criminal proceeding within New York.”). Nor does he allege
that the out-of-state entities lack financial and reporting
obligations or corporate familial ties in New York County.28
To the contrary, that the subpoena requests documents from
Mazars, a “New York accounting firm” residing in this judicial
district, suggests a connection between the requested records
and New York County. (SAC ¶¶ 8, 10.)

Nuclear Weapons Proliferator, Manhattan District Attorney’s Office (Apr.
15,
2019),
https://www.manhattanda.org/unicredit-bank-ag-to-pleadguilty-and-pay-316-million-to-das-office-related-to-illegaltransactions-on-behalf-of-nuclear-weapons-proliferator/.
28 President Trump is “the grantor and beneficiary of The Donald J. Trump
Revocable Trust (‘the Trust’). The Trust is the sole ultimate owner of
The Trump Organization, Inc.; Trump Organization LLC; The Trump
Corporation; DJT Holdings LLC; DJT Holdings Managing Member LLC; Trump
Acquisition, LLC; and Trump Acquisition Corp. The Trust is [also] the
majority ultimate owner of the Trump Old Post Office LLC.” (SAC ¶ 6.)
“[T]he Trump Organization . . . is headquartered in New York.” (Opposition
at 19.)

82

App. 82

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 83 of 103

In sum, the President has not alleged facts indicating
that the records of out-of-state entities “are so unrelated
to the subject of [the Grand Jury’s] inquiry as to make it
obvious that their production would be futile as an aid to
the grand jury’s investigation.”

Virag, 430 N.E.2d at 1253

(internal quotation marks omitted). Assuming the truth of the
facts alleged in the SAC, records regarding out-of-state
entities

may

nonetheless

be

expected

to

shed

light

on

nature

of

legitimate objects of the Grand Jury investigation.
3.

The Nature of the Documents Requested

Finally,

the

President

objects

to

the

documents requested, alleging that the requests amount to a
“fishing expedition” intended to “pick apart the President
and each related entity from the inside out.” SAC ¶ 35. He
points out that the Mazars Subpoena requests reports and
statements that contain detailed breakdowns of the assets and
liabilities of the Trump Entities and that are typically
prepared on a quarterly basis, along with all drafts of such
reports and statements and all documents relied upon to
prepare them.29 The President notes that the subpoena also

29

Specifically, the subpoena calls for Mazars to produce, with respect
to the Trump Entities:
a. Tax returns and related schedules, in draft, as-filed, and
amended form;
b. Any and all statements of financial condition, annual
statements,
periodic
financial
reports,
and
independent

83

App. 83

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 84 of 103

requests engagement letters and contracts concerning the
preparation

or

review

of

the

requested

tax

returns

and

financial statements, all work papers and communications
regarding their preparation or review, and all communications
between a named Mazars partner and any representative of the
Trump Entities. With regard to the request for communications
between any representative of the Trump Entities and the named
Mazars

partner,

potentially

the

calls

President
for

objects

the

that

production

the
of

request
personal

communications.
“The ‘fishing expedition’ argument has been consistently
misunderstood and misinterpreted.” Bick, 372 N.Y.S.2d at 450.
When a grand jury “run[s] down” “every available clue . . .

auditors’ reports prepared, compiled, reviewed, or audited by
Mazars USA LLP or its predecessor, WeiserMazars LLP;
c. Regardless of time period, any and all engagement agreements or
contracts related to the preparation, compilation, review, or
auditing of the documents described in items (a) and (b);
d. All underlying, supporting, or source documents and records used
in the preparation, compilation, review, or auditing of
documents described in items (a) and (b), and any summaries of
such documents and records; and
e. All work papers, memoranda, notes, and communications related to
the preparation, compilation, review, or auditing of the
documents described in items (a) and (b), including, but not
limited to,
i. All communications between Donald Bender and any
employee or representative of the Trump Entities as
defined above; and
ii.
All communications, whether internal or external,
related to concerns about the completeness, accuracy,
or authenticity of any records, documents, valuations,
explanations, or other information provided by any
employee or representative of the Trump Entities.
(SAC ¶ 18.)

84

App. 84

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 85 of 103

to find if a crime has been committed,” it fulfills its duty.
Branzburg,

408

U.S.

at

701

(internal

quotation

marks

omitted). Instead, as discussed above, a grand jury subpoena
is problematic if it seeks material clearly unrelated to a
legitimate aim or calls for an unduly burdensome production,
or if facts suggest improper motive.
Even when a subpoena requests all corporate records,
the burden remains on the party challenging the subpoena to
demonstrate

--

here,

to

allege

--

the

irrelevance

of

particular categories of documents sought by the subpoena.
See Vilar, 2007 WL 1075041, at *44-46. “The keystone of the
analysis is not the quantity of the documents sought . . .
but the potential connection between the materials requested
and the investigation at the time the subpoena is issued.”
Id. at *45 (citations omitted). Courts reject claims of
overbreadth where there is a “reasonable possibility . . .
that the subpoenaed [documents] will be relevant to the grand
jury’s investigation.” In re Grand Jury Proceedings No. 924, 42 F.3d 876, 878 (4th Cir. 1994); In re August, 1993
Regular Grand Jury (Med. Corp. Subpoena II), 854 F. Supp.
1392, 1400 (S.D. Ind. 1993) (“In other words, is there a
logical connection between the subpoenaed documents and the
charges that constitute the subject matter of the grand jury
investigation[?]”); Bick, 372 N.Y.S.2d at 450 (holding that
85

App. 85

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 86 of 103

a request for business records was not overbroad where the
documents sought “seem to bear directly upon the matters under
investigation”).
The SAC does not plausibly allege that any category of
items sought by the Mazars Subpoena is unrelated to matters
the

grand

jury

may

legitimately

be

investigating.

For

example, by comparing the Trump Entities’ final tax returns,
financial statements, and independent auditors’ reports to
one another, to draft versions, and to information relied
upon to prepare the returns and reports, the grand jury can
assess whether any Trump entity has falsely recorded any
financial transaction in violation of New York law. See In re
Berry, 521 F.2d 179, 182-83 & n.1 (10th Cir. 1975) (denying
motion to quash where subpoena required production of “any
and all financial records of any type or description which
relate,

either

directly

or

indirectly,

to

the

financial

affairs” of a law firm); United States v. Raniere, 895 F.
Supp. 699, 701-03 & n.3 (D.N.J. 1995) (deeming IRS’s request
for,

among

other

things,

all

financial

statements,

tax

returns, general ledgers, bills, invoices, loan records, and
inventory records relevant to an investigation of potentially
unreported income by the corporation’s president); Med. Corp.
Subpoena II, 854 F. Supp. at 1400-01 (holding that a request
for

“virtually

every

business
86

App. 86

record”

was

”undeniably

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 87 of 103

related”

to

the

grand

jury’s

investigation

of

financial

crimes and fraud); Jordache Ents., Inc. v. United States, No.
86 CR Misc. 1-pg-10, 1987 WL 9705, at *4 & n.3 (S.D.N.Y. Apr.
14, 1987) (in the context of a grand jury investigation into
tax and customs violations, denying motion to quash where
subpoena required production of records including “[a]ll
bookkeeping and accounting records reflecting receipts and
disbursements and otherwise pertaining to the flow of income,
including, but not limited to . . . certified or qualified
financial

statements,

accountant’s

workpapers,

accountant

reports, and all records pertaining to the preparation and/or
filing of corporate tax returns”). Communications and work
papers concerning the preparation of the returns and reports
may likewise aid the Grand Jury in identifying inaccuracies
in the returns and reports. See Raniere, 895 F. Supp. at 701703 & n.3 (deeming IRS’s request for “accounting work papers
and

correspondence

with

accountants”

relevant

to

investigation of unreported income); Jordache, 1987 WL 9705,
at *4 & n.3. To the extent any inaccuracies exist, the
communications and work papers, along with the engagement
agreements and contracts regarding the preparation and review
of the returns and reports, may enable the Grand Jury to
determine which persons are responsible for the inaccuracies.
The communications and work papers may further assist the
87

App. 87

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 88 of 103

Grand Jury with understanding the circumstances surrounding
any inaccuracies, including the intent of any responsible
persons.
Nor does the SAC adequately allege that the request for
communications

between

the

representative

of

Trump

President

contends

the

that

named

this

Mazars

partner

and

any
The

Entities

is

overbroad.

request

is

not

explicitly

limited to communications regarding the requested returns and
reports, and suggests that the request potentially requires
the production of personal communications. It is true that a
subpoena may be overbroad where its requests sweep in personal
communications about “particularly private matters” unrelated
to the subject of an investigation, such as communications
about

medical

or

family

matters.

See

In

re

Grand

Jury

Subpoena, JK-15-029, 828 F.3d 1083, 1089-90 (9th Cir. 2016).
But, even assuming the President’s reading of this request is
correct, the President does not allege any facts indicating
that any employee or representative of the Trump Entities was
likely to have been discussing anything unrelated to the
requested returns and reports -- let alone intimate matters
-- with the named Mazars partner. Cf. id. In this regard, the
President has not met his burden of alleging facts suggesting
that this request is overbroad.

88

App. 88

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 89 of 103

Having
categories

addressed
of

the

requested

relevance
documents,

of

the

the

individual

Court

further

concludes that the President has not adequately alleged the
impropriety of the requests collectively.30 For the reasons
discussed above, the allegations concerning the nature of the
documents, considered alone and in combination with the other
allegations in the SAC, do not support a reasonable inference
of overbreadth or bad faith.
C. DISCOVERY AND LEAVE TO AMEND
The Court turns to two final items that merit discussion.
The first pertains to discovery, and in particular, the
President’s supplemental letter seeking discovery in the
event the Court elected to consider extrinsic evidence such
as the Shinerock Declaration and various news reports. (See
Letter.)

The second item relates to the final disposition of

this matter.
1. The President’s Request for Discovery
With respect to the first issue, the Court denies the
Letter motion for discovery as moot given that the Court finds

30

Of note, the SAC makes no attempt to quantify the volume of the requested
production. Based on the facts alleged in the SAC, this is not a case in
which the requests call for a production so voluminous as to be
potentially indicative of overbreadth. Cf. Application of Harry
Alexander, 8 F.R.D. 559, 560-61 (S.D.N.Y. 1949) (deeming subpoena that
requested documents from 35 entities unreasonable where the records of a
single department within one of the 35 entities would fill fifteen fourdrawer cabinets).

89

App. 89

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 90 of 103

it need not convert the Motion to Dismiss to a motion for
summary judgment in order to decide this case. For all the
reasons stated above, the Court is not persuaded that the SAC
raises a “reasonable expectation that discovery will reveal
evidence of illegal” conduct by the District Attorney or grand
jury, Twombly, 550 U.S. at 556, and so finds that the SAC
does not state a valid claim to relief. Because the SAC is
deficient,

the

President

“is

not

entitled

to

discovery,

cabined or otherwise.” Iqbal, 556 U.S. at 686.
The President, however, suggests that discovery would be
especially appropriate in this case because of the difficulty
of challenging a subpoena without knowing the general subject
matter of the investigation. The Court recognizes that “a
party

to

whom

a

grand

jury

subpoena

is

issued

faces

a

difficult situation,” and that a lack of detailed information
regarding the grand jury’s investigation may hamper a claim
that a subpoena should be quashed. See R. Enterprises, 498
U.S. at 300–301; Virag, 430 N.E.2d at 1253 (“Admittedly, this
presumption of validity imposes a difficult burden of proof
on one seeking to quash a Grand Jury subpoena duces tecum on
relevancy grounds.”). But the longstanding rules governing
challenges to grand jury subpoenas already account for such
difficulties, which stem from the strong interest in avoiding
interference

with

the

grand

jury’s

90

App. 90

longstanding

duty

to

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 91 of 103

vindicate

the

public

interest

through

extensive

investigations into possible criminal activity. That interest
is no less present in this case.
Moreover,
entitlement

in

generally

speaking,

federal

civil

discovery

actions,

and

is
the

not

an

pleading

standards under Rule 12(b)(6) are not a formality devoid of
substance. The Court would be remiss to “relax the pleading
requirements” of Rule 8 and allow even “minimally intrusive
discovery” where the SAC has failed to state a claim. Iqbal,
556 U.S. at 686; Biro v. Conde Nast, 807 F.3d 541, 545 (2d
Cir.

2015)

(disagreeing

that

actual

malice

cannot

be

plausibly alleged without discovery at the pleading stage
where pre-Iqbal Second Circuit cases stated that resolution
of actual malice claims typically requires discovery); Podany
v. Robertson Stephens, Inc., 350 F.Supp.2d 375, 378 (S.D.N.Y.
2004)

(“[D]iscovery

is

authorized

solely

for

parties

to

develop the facts in a lawsuit in which a plaintiff has stated
a legally cognizable claim, not in order to permit a plaintiff
to find out whether he has such a claim.”).
The President also suggests that he “should be afforded
even broader discovery rights” given the “special force” with
which protections against overbroad and bad-faith subpoenas
apply to the President. (Letter at 2.)

While

the

high

respect due to the President would inform the scope of
91

App. 91

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 92 of 103

discovery,

should

this

or

any

other

case

involving

the

President proceed to that stage, the Court does not interpret
that respect to allow easier offensive discovery into the
grand jury’s investigation, particularly considering that -for all litigants -- discovery typically does not start before
the resolution of motion practice. As outlined above in
Section
primarily

II.C.,

the

govern

Court
the

understands

scope

of

high

defensive

respect

to

discovery,

recognizing that compliance with discovery requests might
place burdens on the President’s time or risk disclosure of
documents that may implicate privileges.
The Court is therefore not persuaded by the additional
considerations raised in the President’s letter, and finds
that discovery is neither permitted by the Rules nor warranted
by the facts of this case. The Court denies the Letter motion
as moot.
2. Leave to Amend
Finally, the District Attorney requests that the Court
dismiss the SAC with prejudice. The Court will grant this
request.
As an initial matter, the President has not requested
leave to file a third amended complaint in the event that the
Court grants the District Attorney’s motion to dismiss the
SAC. See Hu v. City of N.Y., 927 F.3d 81, 107 (2d Cir. 2019)
92

App. 92

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 93 of 103

(affirming dismissal with prejudice and noting that “no court
can be said to have erred in failing to grant a request that
was not made” (internal quotation marks omitted)); Williams
v. Citigroup Inc., 659 F.3d 208, 212–13 (2d Cir. 2011) (“We
have described the contention that ‘the District Court abused
its discretion in not permitting an amendment that was never
requested’ as ‘frivolous.’” (citations omitted)). Nor did the
President indicate at any point in his Opposition that he
intended to seek leave to file a third amended complaint. See
Campo v. Sears Holdings Corp., 371 F. App’x 212, 218 (2d Cir.
2010); In Re Tamoxifen Citrate Antitrust Litig., 466 F.3d
187, 220 (2d Cir.2006), abrogated on other grounds by F.T.C.
v. Actavis, Inc., 570 U.S. 136 (2013); United States ex rel.
Grubea v. Rosicki, Rosicki & Assocs., P.C., 319 F. Supp. 3d
747, 752 (S.D.N.Y. 2018) (noting that the relator “failed to
brief any opposition to dismissal with prejudice or to request
leave

to

amend

. . .

despite

ample

notification”

that

defendants sought dismissal with prejudice).
Nevertheless, even assuming the President had requested
leave to file a third amended complaint, the Court finds that
leave to amend is not warranted

considering the standards of

Federal Rule of Civil Procedure 15(a)(2) (“Rule 15”), and
will

therefore

grant

the

District

Attorney’s

request

to

dismiss the SAC with prejudice. See Bennett v. City of N.Y.,
93

App. 93

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 94 of 103

425 F. App’x 79, 81 (2d Cir. 2011); Bui v. Indus. Ents. of
Am., Inc., 594 F. Supp. 2d 364, 373 (S.D.N.Y. 2009). Rule 15
provides that a court “should freely give leave [to amend a
pleading] when justice so requires.” Fed. R. Civ. P. 15(a)(2).
This liberal standard tends to favor allowing leave to amend
pleadings in the ordinary course, and it is common for
district courts to grant leave to amend once after granting
a motion to dismiss. See Bellikoff v. Eaton Vance Corp., 481
F.3d 110, 118 (2d Cir. 2007).
However, justice does not always require granting leave
to amend. “Rule 15 is liberal, yes, but it is also temperate.”
Metzler Inv. Gmbh v. Chipotle Mexican Grill, Inc., 2020 WL
4644799, at *12 (2d Cir. Aug. 12, 2020). Under Rule 15, “leave
to amend a pleading may only be given when factors such as
undue delay or undue prejudice to the opposing party are
absent.” SCS Communications, Inc. v. Herrick Co., 360 F.3d
329, 345 (2d Cir. 2004) (citing Foman v. Davis, 371 U.S. 178,
182 (1962)). The Supreme Court has detailed the factors that
would constitute an “apparent or declared reason” not to grant
leave to amend: “undue delay, bad faith or dilatory motive on
the part of the movant, repeated failure to cure deficiencies
by amendments previously allowed, undue prejudice to the
opposing party by virtue of allowance of the amendment, [and]
futility of amendment.” Foman, 371 U.S. at 182; Metzler, 2020
94

App. 94

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 95 of 103

WL 4644799, at *12 n.4; Browning Debenture Holders’ Committee
v. DASA Corp., 560 F.2d 1078, 1086 (2d Cir. 1977) (whether to
grant or deny leave to amend “usually depends on the presence
or absence of such factors as” those identified in Foman).
Undue prejudice is “perhaps [the] most important” among
the reasons to deny leave to amend. State Teachers Retirement
Board v. Fluor Corp., 654 F.2d 843, 856 (2d Cir. 1981); see
also Zenith Radio Corp. v. Hazeltine Research, Inc., 401 U.S.
321, 331 (1971); AEP Energy Servs. Gas Holding Co. v. Bank of
Am., N.A., 626 F.3d 699, 725 (2d Cir. 2010). “In gauging
prejudice,” courts typically consider, “among other factors,
whether an amendment would ‘require the opponent to expend
significant additional resources to conduct discovery and
prepare for trial’ or ‘significantly delay the resolution of
the dispute.’” Ruotolo v. City of N.Y., 514 F.3d 184, 192 (2d
Cir. 2008) (quoting Block v. First Blood Assocs., 988 F.2d
344, 350 (2d Cir. 1993)). Courts also consider the reasons
that

the

party

seeking

amendment

failed

to

include

the

material in the original pleading and the hardship to the
moving party if leave to amend is denied.
This litigation, however, does not reflect the typical
case, and the undue prejudice analysis is not necessarily
limited to the usual considerations described above. “The
district court is in the best position to decide whether an
95

App. 95

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 96 of 103

amendment will inflict prejudice in the context of the trial
dynamics and the full record.” SCS Communications, 360 F.3d
at 345. Courts may likewise assess prejudice “in light of the
circumstances presented, the length and complexity of [the]
proceedings, and the late stage of litigation at which the
[motion for leave to amend is] made.” AEP Energy, 626 F.3d at
727. Thus, even if a case is not at a late procedural phase,
the passage of time may still inform whether a defendant would
be unduly prejudiced by amendment. See GEOMC Co., Ltd. v.
Calmare Therapeutics Inc., 918 F.3d 92, 100 (2d Cir. 2019)
(“As

a

general

rule,

the

risk

of

substantial

prejudice

increases with the passage of time.”) (internal quotation
marks omitted). The prejudice analysis may also account for
the protections that underlying substantive laws accord to a
defendant. See Broidy Cap. Mgmt. LLC v. Benomar, 944 F.3d
436, 447 (2d Cir. 2019) (“Allowing . . . a futile amendment
would be particularly prejudicial where the defendant is a
diplomat who possesses treaty-based immunity from suit.”);
Doe v. Cassel, 403 F.3d 986, 991 (8th Cir. 2005).
Against

this

backdrop,

the

undue

prejudice

to

the

District Attorney and grand jury investigation counsels in
favor of denying leave to amend the SAC. Even though this
case

technically

remains

at

the

pleading

stage,

the

litigation has prevented enforcement of the Mazars Subpoena
96

App. 96

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 97 of 103

for very nearly a year. That passage of time implicates
virtually every concern that underlies the presumption of
validity accorded to grand jury subpoenas. “[A] Grand Jury is
but a temporary body and the service of its members is of
only

limited

duration.

Constant

delays

occasioned

by

unmeritorious motions to quash followed by routine appeals
can lead not only to the loss of evidence and the fading of
witnesses’ memories, but also may completely frustrate the
course of legitimate investigation into potentially criminal
activity.” Virag, 430 N.E.2d 1252. And even though this case
is not yet near trial, “[a]ny holding that would saddle a
grand jury with minitrials and preliminary showings would
assuredly impede its investigation and frustrate the public's
interest in the fair and expeditious administration of the
criminal laws.” R. Enterprises, 498 U.S. at 298–99 (quoting
Dionisio, 410 U.S. at 17).
These harms to the grand jury investigation are not
diminished by the happenstance that this case comes to the
Court by way of a motion to dismiss a claim under 42 U.S.C.
Section 1983 instead of the more typical motion to quash. All
three of the President’s complaints thus far have sought
injunctive

relief

quashing

or

otherwise

preventing

enforcement of the Mazars Subpoena, and both the Amended
Complaint

and

SAC

have

occasioned
97

App. 97

minitrials

directly

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 98 of 103

questioning

the

grand

jury

subpoena’s

validity.

(See

Complaint ¶ 60(f); Amended Complaint ¶ 60(f) (seeking “[a]
temporary

restraining

order

and

preliminary

injunction

prohibiting the District Attorney’s office from taking any
action to enforce the subpoena, until the subpoena’s validity
has been finally adjudicated on the merits”); SAC ¶ 63(b–c)
(seeking “[a] permanent injunction quashing or modifying the
subpoena

as

necessary

to

protect

the

President’s

legal

rights”).) The grand jury “should not be hindered in its quest
by witnesses who continually litigate the threshold validity
of its subpoenas,” Virag, 430 N.E.2d at 1253, and the Court
cannot naively ignore the reality that granting leave to file
a third amended complaint would occasion exactly that type of
continual litigation. See Dep’t of Commerce v. New York, 139
S. Ct. 2551, 2575 (2019) (noting that courts are “not required
to exhibit a naiveté from which ordinary citizens are free.”
(internal quotation marks omitted)).
The Court also need not ignore that the President has
now twice failed to present a valid cause for relief, despite
guidance

from

the

Supreme

Court,

which

further

counsels

against allowing a third attempt at litigating the threshold
validity of the Mazars Subpoena. Harvey v. Harvey, 108 F.3d
329, 1997 WL 92930, at *1 (2d Cir. Mar. 5, 1997) (table)
(noting that “justice does not require that an amendment be
98

App. 98

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 99 of 103

permitted here in light of [the plaintiff’s] history of
repeated institution of meritless charges in this and related
litigation”); Saunders v. Coughlin, No. 92 Civ. 4289, 1995 WL
144107,

at

*6

(S.D.N.Y.

Mar.

30,

1995)

(dismissing

the

complaint with prejudice when the amended complaint failed to
cure the deficiencies noted in the original complaint, and
finding that granting leave to amend would be futile). And
while the Court need not conclude as a matter of law that
amendment of the SAC would be futile, the Court’s prior
experience with the Amended Complaint and SAC nevertheless
weighs against granting leave to amend. See Yerdon v. Henry,
91 F.3d 370, 378 (2d Cir. 1996) (“Where it appears that
granting leave to amend is unlikely to be productive, it is
not an abuse of discretion to deny leave to amend.”); see
also Massey v. Fischer, No. 02 Civ. 10281, 2004 WL 1908220,
at *5 (S.D.N.Y. Aug. 26, 2004) (finding leave to amend to be
futile and dismissing claims with prejudice when the court
had directed plaintiff “to include requisite facts to support
his claims” and plaintiff failed to present such facts).
The Second Circuit noted recently that “[i]t seems . . .
to be self-evident that a plaintiff afforded attempt after
attempt -- and consequently, additional time to investigate
-- might one day succeed in stating a claim. But the federal
rules and policies behind them do not permit such limitless
99

App. 99

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 100 of 103

possibility.” Metzler, 2020 WL 4644799, at *12. The Court is
not persuaded that such limitless possibility would justify
the filing of a third amended complaint here, particularly
considering

that

the

attendant

delay

could

involve

the

running of criminal statutes of limitations, the loss of
evidence, or the fading of memories, resulting in prejudice
to the District Attorney. See Fogel v. Vega, 759 F. App’x 18,
25 (2d Cir. 2018) (concluding “that the district court did
not err in refusing to allow [the plaintiff] to file a Third
Amended Complaint” where that plaintiff “failed to allege
valid claims in each of his prior complaints”); Bellikoff,
481 F.3d at 118 (holding “that the district court’s denial of
the plaintiffs’ motion for leave to file a third amended
complaint was not an abuse of discretion,” even though “the
usual practice is to grant leave to amend” after granting a
motion to dismiss (internal quotation marks omitted)).
At its heart, the fact pattern presented by the SAC is
substantially the same as that presented in the Amended
Complaint, even if the claims are different, and it relies
upon too many unreasonable inferences for the Court to deem
the claims of overbreadth and bad faith plausible: inferences
that the Mazars Subpoena was issued as retaliation for the
Trump

Organization

Subpoena,

that

the

scope

of

the

investigation is limited to the 2016 Michael Cohen Payments,
100

App. 100

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 101 of 103

that the Mazars Subpoena aims at advancing the goals of
Congressional Democrats, and more. It is hard to see how the
SAC could adequately be amended to cure these defects. If the
President

could

cite

new

factual

allegations

that

would

remedy all of the defects highlighted above mere weeks after
filing the SAC, the Court would be hard pressed to understand
why they could not have been alleged in the SAC, particularly
considering that the law on overbreadth and bad faith in the
grand jury subpoena context is well-developed in New York.
See Bui, 594 F. Supp. 2d at 373 (dismissing with prejudice a
complaint that inadequately plead claims governed by “wellestablished” law). Such circumstances might suggest dilatory
motive, which would present another apparent reason to deny
leave to amend. See Krupski v. Costa Crociere S.p.A., 560
U.S. 538, 553 (2010) (noting “that a court may consider a
movant’s

‘undue

delay’

or

‘dilatory

motive’

in

deciding

whether to grant leave to amend under” Rule 15); Littlejohn
v. Artuz, 271 F.3d 360, 363 (2d Cir. 2001) (stating that
“although Rule 15 requires that leave to amend be ‘freely
given,’ district courts nonetheless retain the discretion to
deny that leave in order to thwart tactics that are dilatory,
unfairly prejudicial or otherwise abusive”). The District
Attorney has consistently suggested that the President has
been acting with a dilatory motive throughout the various
101

App. 101

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 102 of 103

phases of this case. While the Court need not find here that
the President has actually acted with a dilatory motive, the
District Attorney’s repeated assertions plainly support a
finding that further amendment would be unduly prejudicial to
the District Attorney in light of the other considerations
highlighted above.
Finally,

high

respect

for

the

President

does

not

otherwise require leave to amend. The President began this
action by invoking Article II to raise a sweeping claim of
immunity rejected by every court to consider it. He then
received guidance on potentially valid challenges to the
Mazars Subpoena, including ones specifically tied to Article
II, from no less an authority than the Supreme Court. He chose
not to raise claims based on identifiable executive policies
or specific Article II duties, but instead raised claims of
bad faith and overbreadth available to the broader public and
conclusorily asserted that these alleged defects in the grand
jury process violated his Article II rights. The Court is not
persuaded that the SAC states a claim for relief on these
grounds, and it does not interpret high respect for the
President to compel even more liberal leave to amend than
Rule 15 already affords. Justice does not require granting
leave to replead under these circumstances. Justice requires
an end to this controversy.
102

App. 102

Case 1:19-cv-08694-VM Document 71 Filed 08/20/20 Page 103 of 103

IV.

ORDER

For the reasons described above, it is hereby
ORDERED that the motion filed by defendant Cyrus R.
Vance, Jr., in his official capacity as the District Attorney
of the County of New York, to dismiss (Dkt. No. 62) the Second
Amended Complaint of plaintiff Donald J. Trump (Dkt. No. 57)
is GRANTED, and the Second Amended Complaint is dismissed
with prejudice, and it is further
ORDERED that the motion filed by plaintiff Donald J.
Trump for discovery (Dkt. No. 67) is DENIED as moot.
The Clerk of Court is directed to terminate any pending
motions and to close this case.
SO ORDERED.

Dated:

New York, New York
20 August 2020

_________________________
____
__
__
__
___
__
__
_____
___
____
____
____
____
____
__
___
_
Victor
Vi
ic
ct
tor Marrero
Mar
arre
rero
re
ro
U.S.D.J.
U.
.S.
.D.
.J
J.
.

103

App. 103

Case 1:19-cv-08694-VM Document 75 Filed 08/21/20 Page 1 of 9

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
-------------------------------------X
DONALD J. TRUMP,
:
:
Plaintiff,
:
:
- against :
:
CYRUS R. VANCE, JR., in his official :
capacity as District Attorney of the :
County of New York, and
:
MAZARS USA, LLP,
:
:
Defendants.
:
-------------------------------------X

19 Civ. 8694 (VM)
DECISION AND ORDER

VICTOR MARRERO, United States District Judge.
Plaintiff Donald J. Trump (the “President”) filed this
action seeking to enjoin enforcement of a grand jury subpoena
(the “Mazars Subpoena”) issued by Cyrus R. Vance, Jr., in his
official capacity as the District Attorney of the County of
New York (the “District Attorney”), to the accounting firm
Mazars USA, LLP (“Mazars”). (See “Complaint,” Dkt. No. 1;
“Amended Complaint,” Dkt. No. 27; “SAC,” Dkt. No. 57.) On
October 7, 2019, the Court issued an Order dismissing the
Amended Complaint pursuant to the Supreme Court’s decision in
Younger v. Harris, 401 U.S. 37 (1971). Trump v. Vance, 395 F.
Supp. 283 (S.D.N.Y. 2019) (“October 7 Decision”). The Court
also held, in the alternative, that “the President ha[d] not
satisfied

his

burden

of

showing

entitlement

to

the

‘extraordinary and drastic remedy’ of injunctive relief.” Id.

App. 104

Case 1:19-cv-08694-VM Document 75 Filed 08/21/20 Page 2 of 9

at 303 (quoting Grand River Enter. Six Nations, Ltd. v. Pryor,
481 F.3d 60, 66 (2d Cir. 2007)). Specifically, the Court
rejected the President’s claim of absolute immunity from
criminal process while in office, and also found that the
President had failed to show irreparable harm, such that
injunctive relief was not warranted. Id. at 300-01.
Following appeal, the case returned to this Court on
remand. The President filed the SAC, stating two claims: that
the Mazars Subpoena was overbroad and that it was issued in
bad faith. By Order dated August 20, 2020, the Court granted
the District Attorney’s motion to dismiss the SAC pursuant to
Rule 12(b)(6) of the Federal Rules of Civil Procedure and
denied the President’s request for discovery as moot. Trump
v. Vance, No. 19 Civ. 8694, 2020 WL 4861980, at *33 (S.D.N.Y.
Aug. 20, 2020) (“August 20 Decision”). The President has now
filed an emergency appeal with the United States Court of
Appeals for the Second Circuit (see Dkt. No. 73) and an
emergency

motion

alternative,

for

for
a

a

stay

temporary

pending

appeal

administrative

or,

in

stay.

the
(See

“Motion,” Dkt. No. 74.)1

1

In his Motion, the President indicated his intent to also seek a stay
pending appeal from both the Second Circuit and the United States Supreme
Court. (Id. at 1 n.*.) Furthermore, the President notes that the District
Attorney has agreed to stay enforcement for seven calendar days after the
date of a decision by this Court. (Id. at 1.) In the event the Second
Circuit or the Supreme Court grants a stay within seven calendar days of
the Court’s August 20 Decision, the instant Order would, of course, be

2

App. 105

Case 1:19-cv-08694-VM Document 75 Filed 08/21/20 Page 3 of 9

The legal standard for seeking a stay pending appeal is
similar to that of a preliminary injunction pursuant to Rule
65 of the Federal Rules of Civil Procedure. Citigroup Global
Markets, Inc. v. VCG Special Opportunities Master Fund Ltd.,
598 F.3d 30, 37 (2d Cir. 2010). The movant must show “(1)
irreparable harm in the absence of the injunction and (2)
either (a) a likelihood of success on the merits or (b)
sufficiently serious questions going to the merits to make
them a fair ground for litigation and a balance of hardships
tipping decidedly in the movant’s favor.” MyWebGrocer, LLC v.
Hometown

Info,

(internal
injunction

Inc.,

quotation

375

F.3d

marks

cases, “[t]he

190,

192

omitted).

showing

of

As

(2d

Cir.

in

preliminary

irreparable

2004)

harm

is

perhaps the single most important prerequisite.” Kamerling v.
Massanari,

295

quotation

marks

F.3d
and

206,

214

(2d

alteration

Cir.

2002)

omitted). To

(internal

demonstrate

irreparable harm, the movant must show “an injury that is
neither remote nor speculative, but actual and imminent and
[that] cannot be remedied by an award of monetary damages.”
Estee Lauder Cos. v. Batra, 430 F. Supp. 2d 158, 174 (S.D.N.Y.
2006)

(internal

quotation

marks

omitted).

Furthermore,

“unlike a motion to dismiss, the Court need not accept as

without force. Nevertheless, and in case neither appellate court sees fit
to grant a stay, the Court issues this Order to provide its views on
whether a stay is warranted.

3

App. 106

Case 1:19-cv-08694-VM Document 75 Filed 08/21/20 Page 4 of 9

true

the

well-pleaded

allegations

in

Plaintiff[’s]

complaint.” Victorio v. Sammy’s Fishbox Realty Co., No. 14
Civ. 8678, 2014 WL 7180220, at *4 (S.D.N.Y. Dec. 12, 2014)
(citing Incantalupo v. Lawrence Union Free Sch. Dist. No. 15,
652 F. Supp. 2d 314, 317 n.1 (E.D.N.Y. 2009)).
In his Motion, the President argues that the seriousness
of this dispute requires that the status quo be preserved
pending appellate review. He contends that he will suffer
irreparable harm without a stay, including through being
denied appellate review and through the potential disclosure
of his documents to the District Attorney and the grand jury.
The

President

further

argues

that

his

claims

present

sufficiently serious questions to make them “fair ground for
litigation,” and that the balance of the hardships tilts in
his favor.
The Court will deny the Motion for substantially the
same reasons it denied the President’s request for injunctive
relief in the October 7 Order. Indeed, in that Order the Court
thoroughly addressed and rejected the President’s claim that
disclosure of his financial records to the District Attorney
would cause him irreparable harm. The President now relies on
largely the same cases, but as the Court explained in its
October 7 Order, these cases do not pertain to ongoing
criminal investigations, let alone investigations by grand
4

App. 107

Case 1:19-cv-08694-VM Document 75 Filed 08/21/20 Page 5 of 9

juries who are sworn to secrecy. (See, e.g., Motion at 3
(citing Merrill Lynch, Pierce, Fenner & Smith, Inc. v. Bishop,
839 F. Supp. 68 (D. Me. 1993) (disclosure of plaintiff’s
business

records

to

competitor

by

a

former

employee);

Providence Journal Co. v. Fed. Bureau of Investigation, 595
F.2d 889 (1st Cir. 1979) (disclosure of FBI documents to
plaintiff); Metro. Life Ins. Co. v. Usery, 426 F. Supp. 150
(D.D.C. 1976) (disclosure -- to a chapter of the National
Organization for Women -- of certain forms and plans submitted
by insurance companies to federal offices); Airbnb, Inc. v.
City

of

New

(disclosure

York,
of

373

data

F.

Supp.

regarding

3d

467

(S.D.N.Y.

businesses’

2019)

customers

to

Mayor’s Office).) Because a grand jury is under a legal
obligation to keep the confidentiality of its records, the
Court finds that no irreparable harm will ensue from the
disclosure to it of the President’s records sought here. See,
e.g., People v. Fetcho, 698 N.E.2d 935, 938 (N.Y. 1998);
People v. Bonelli, 945 N.Y.S.2d 539, 541 (N.Y. Sup. Ct. 2012).
As for the President’s claim that injunctive relief is
required to preserve appellate review, the Court finds this
argument entirely unpersuasive. The President claims that
without a stay, he “will be deprived of any appellate review”
(Motion at 2), ignoring the fact that he has, in fact, already
sought relief from every level of our federal judicial system,
5

App. 108

Case 1:19-cv-08694-VM Document 75 Filed 08/21/20 Page 6 of 9

and that relief was denied at every turn. While the Supreme
Court did quote United States v. Nixon, 418 U.S. 683, 702
(1974), for the proposition that “appellate review . . .
should be particularly meticulous,” the Court was speaking
generally about the lack of any heightened need standard in
presidential

challenges

to

subpoenas;

the

Court

was

not

referring to a predicted appeal of this particular case. Trump
v. Vance, 140 S. Ct. at 2430. There is no sign that the
Supreme Court contemplated any further appellate proceedings,
and in fact appeared to agree with the Second Circuit that
the case should be remanded back to the District Court.
Furthermore, for all the reasons explained in its August 20
Decision, the Court is not persuaded that appellate review
would be successful in any event. This argument cannot suffice
to show irreparable harm.
The President also argues more generally that courts
routinely enter injunctions to stay the status quo when an
order “would otherwise allow the prevailing party to engage
in actions that would moot the losing party’s right to
appeal.” John Doe Co. v. Consumer Fin. Prot. Bureau, 235 F.
Supp. 3d 194, 206 (D.D.C. 2017). But the rights at issue here
must be seen in the context of this dispute. As discussed
above, a grand jury is under a legal obligation to keep its
records confidential. There is no risk, as there was in John
6

App. 109

Case 1:19-cv-08694-VM Document 75 Filed 08/21/20 Page 7 of 9

Doe Co., that “neither this Court nor the Court of Appeals
could un-ring the bell,” or that “significant portions” of
the President’s “sought-after remedy would become moot.” Id.
Unlawful grand jury disclosure is a felony under New York
law. N.Y. Penal Law Ann. § 215.70 (McKinney 2019). Thus,
unlike in the cases cited by the President, denying the
request

will

not

moot

an

appeal

by

causing

the

public

disclosure of any information or documents. E.g., Center for
Int’l Envtl. Law v. Office of U.S. Trade Rep., 240 F. Supp.
2d 21, 22-23 (D.D.C. 2003) (noting that once the documents
were disclosed, “confidentiality will be lost for all time”
(quoting Providence Journal Co. v. FBI, 595 F.2d 889, 890
(1st Cir. 1979)).2
Similarly,

the

President

appears

to

argue

that

irreparable harm exists simply because the District Attorney
issued the subpoena to a third party, Mazars, because Mazars
could

comply

with

the

subpoena

and

thus

“frustrate

any

judicial inquiry.” (Motion at 2 (quoting Eastland v. U.S.
Servicemen’s Fund, 421 U.S. 491, 501 n.14 (1975)).) But Mazars

2

The President’s citation to John Doe Agency v. John Doe Corp., 488 U.S.
1306, 1309 (1989) (Marshall, J., in chambers), is inapposite. There, the
Supreme Court prevented the disclosure of a document in part because its
disclosure would “pose[] a substantial risk of jeopardizing an important
ongoing grand jury investigation.” Id. at 1308. The risk here is
essentially the opposite: preventing Mazars’ production of the documents
would further obstruct a grand jury investigation that has already been
delayed by this litigation for almost one year.

7

App. 110

Case 1:19-cv-08694-VM Document 75 Filed 08/21/20 Page 8 of 9

has entered an appearance here and all parties agree that the
President is the true party in interest, meaning “either may
resist enforcement.” Trump v. Vance, 941 F.3d 631, 642 n.15
(2d Cir. 2019). The Court does not understand the President
to suggest that Mazars is any more or less likely to comply
with a court order than he is, and so the fact that the
subpoena was addressed to Mazars instead of the President is
immaterial and cannot suffice to show irreparable harm.
Thus, nothing in the Motion alters the conclusion the
Court reached in its October 7 Order: The President has not
demonstrated that he will suffer irreparable harm. Because
the President has not made this necessary showing, the Court
need not address the remaining factors governing entitlement
to injunctive relief. Nevertheless, the Court notes that its
views

remain

unchanged

with

respect

to

the

President’s

likelihood of success on the merits (or whether he has
demonstrated sufficiently serious questions going to the
merits and a balance of hardships tipping in his favor),
particularly given the concerns addressed in the August 20
Decision regarding the effect of further delay on the grand
jury’s investigation. See Trump v. Vance, 2020 WL 4861980, at
*31-32.
Accordingly, it is hereby

8

App. 111

Case 1:19-cv-08694-VM Document 75 Filed 08/21/20 Page 9 of 9

ORDERED that the motion for a stay pending appeal filed
by plaintiff Donald J. Trump (Dkt. No. 74) is DENIED.
SO ORDERED.

Dated:

New York, New York
21 August 2020

__
_
___
_ __
___
________
__ ____
_ __
____
__
___
____
__
_________________________
Vi
ict
ctor
or
r M
arre
ar
rero
re
r
ro
Victor
Marrero
U
U.
S D
S.
D.
.J
J.
.
U.S.D.J.

9

App. 112

Case 20-2766, Document 35, 08/21/2020, 2914447, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
21st day of August, two thousand twenty.
Before:

Denny Chin,
Circuit Judge.
________________________________
ORDER
Donald J. Trump,
Docket No. 20-2766
Plaintiff - Appellant,
v.
Cyrus R. Vance, Jr., in his official capacity as
District Attorney of the Country of New York,
Mazars USA, LLP,
Defendants - Appellees.
________________________________

Appellant, President Donald J. Trump, moves for a stay pending appeal and an
administrative stay of the district court’s dismissal of his challenge to the Mazars subpoena.
To the extent Appellant seeks an immediate administrative stay, that request is DENIED.
The motion for a stay pending appeal shall be heard before a three-judge panel on Tuesday,
September 1, 2020. Appellees’ opposition to the motion must be filed by 5 p.m. on August 27,
2020, and Appellant’s reply, if any, must be filed by 5 p.m. on August 31, 2020.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

App. 113

Case 20-2766, Document 83, 09/01/2020, 2921249, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
1st day of September, two thousand twenty.
Before:

John M. Walker, Jr.,
Robert A. Katzmann,
Raymond J. Lohier, Jr.,
Circuit Judges.
________________________________
Donald J. Trump,
ORDER
Plaintiff - Appellant,
Docket No. 20-2766
v.
Cyrus R. Vance, Jr., in his official capacity as
District Attorney of the County of New York,
Mazars USA, LLP,
Defendants - Appellees.
________________________________
On August 21, 2020, Appellant filed a motion, on an emergency basis, seeking a stay
pending appeal of the district court’s order and judgment dated August 20, 2020, granting
defendants’ motion to dismiss. Opposition to the motion was filed on August 27, 2020. A reply
was filed on August 31, 2020. Following oral argument on the motion held this date,
IT IS HEREBY ORDERED that a stay of the district court’s order and judgment pending
determination of the appeal is granted. The merits argument of the appeal will be held on
September 25, 2020 at 10:00 am. In consultation with the parties, the following briefing
scheduled is set: Appellant’s brief is due September 11, 2020 at 5:00 pm; Appellees’ brief is due
September 21, 2020 at 5:00 pm; Appellant’s reply brief is due September 24, 2020 at noon.

For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

CERTIFIED COPY ISSUED ON 09/01/2020
App. 114

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page1 of 35

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
_______________
August Term, 2020
(Argued: September 25, 2020

Decided: October 7, 2020)

Docket No. 20-2766
_______________
DONALD J. TRUMP,
Plaintiff-Appellant,
—v.—
CYRUS R. VANCE, JR., in his official capacity as District Attorney of the County of
New York, MAZARS USA, LLP,
Defendants-Appellees.
_____________
Before: LEVAL, KATZMANN, and LOHIER, Circuit Judges.
_______________
Appeal from a judgment of the United States District Court for the Southern
District of New York (Marrero, J.) granting a motion of defendant-appellee Cyrus
R. Vance, Jr., the District Attorney of the County of New York (the “District
Attorney”) to dismiss the second amended complaint for failure to state a claim
under Federal Rule of Civil Procedure 12(b)(6). In the second amended complaint,
plaintiff-appellant President Donald J. Trump alleges that a grand jury subpoena

App. 115

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page2 of 35

issued on August 29, 2019 by the District Attorney to defendant-appellee Mazars
USA, LLP, the President’s accounting firm, is overbroad and was issued in bad
faith. We find that the claim of overbreadth is not plausibly alleged for two
interrelated reasons. First, the President’s bare assertion that the scope of the grand
jury’s investigation is limited only to certain payments made by Michael Cohen in
2016 amounts to nothing more than implausible speculation. Second, without the
benefit of this linchpin assumption, all other allegations of overbreadth—based on
the types of documents sought, the types of entities covered, and the time period
covered by the subpoena, as well as the subpoena’s near identity to a prior
Congressional subpoena—fall short of meeting the plausibility standard.
Similarly, the President’s allegations of bad faith fail to raise a plausible inference
that the subpoena was issued out of malice or an intent to harass. Accordingly, we
AFFIRM.
_______________
WILLIAM S. CONSOVOY, Consovoy McCarthy PLLC, Arlington, VA (Cameron T.
Norris, Alexa R. Baltes, Consovoy McCarthy PLLC, Arlington, VA; Patrick
Strawbridge, Consovoy McCarthy PLLC, Boston, MA; Marc L. Mukasey, Mukasey
Frenchman & Sklaroff LLP, New York, NY; Alan S. Futerfas, Law Offices of Alan
S. Futerfas, New York, NY, on the brief), for Plaintiff-Appellant.
CAREY R. DUNNE, General Counsel, New York County District Attorney’s Office,
New York, NY (Christopher Conroy, Julieta V. Lozano, Solomon B. Shinerock,
James H. Graham, Allen J. Vickey, Sarah A. Walsh, New York County District
Attorney’s Office, New York, NY; Caitlin Halligan, Ryan W. Allison, David A.
Coon, Selendy & Gay PLLC, New York, NY; Walter E. Dellinger III, Duke
University Law School, Durham, NC, on the brief), for Defendant-Appellee Cyrus R.
Vance, Jr.
_______________
PER CURIAM:
Plaintiff-appellant President Donald J. Trump appeals from a judgment of
the United States District Court for the Southern District of New York (Marrero,

App. 116

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page3 of 35

J.) granting a motion of defendant-appellee Cyrus R. Vance., Jr., the District
Attorney of the County of New York (the “District Attorney”), to dismiss the
second amended complaint (“SAC”) for failure to state a claim upon which relief
can be granted. See Fed. R. Civ. P. 12(b)(6). For the reasons set forth below, we
affirm.
I.

Background
In 2018, the District Attorney opened a grand jury investigation into certain

business transactions involving the Trump Organization and affiliated entities and
individuals. 1 The Trump Organization is owned by The Donald J. Trump
Revocable Trust, of which the President is the grantor and beneficiary. In the
course of that investigation, on August 1, 2019, the grand jury issued a subpoena
to the Trump Organization seeking documents from 2015 through 2018 relating to
(1) payments made to certain individuals and (2) Michael Cohen’s work for the
President and for the Trump Organization. The Trump Organization produced
documents in response to this subpoena. When the District Attorney expressed his
view that the subpoena required the production of the Trump Organization’s tax

Because this appeal comes to us from an order dismissing the President’s
suit for failure to state a claim, all facts are drawn from the SAC and documents
incorporated into that complaint by reference. See Goel v. Bunge, Ltd., 820 F.3d 554,
559 (2d Cir. 2016).
1

App. 117

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page4 of 35

returns, however, the Trump Organization refused, arguing that the subpoena
could not be read to encompass tax returns.
Four weeks later, on August 29, 2019, the grand jury issued another
subpoena, this one directed to Mazars USA LLP (“Mazars”), the President’s
accounting firm. This subpoena (the “Mazars subpoena”) directed Mazars to
produce a host of financial documents—including tax returns—relating to the
President, the Trump Organization, and affiliated entities, dating back to 2011.2

2

Specifically, the Mazars subpoena requests the following:
1. For the period of January 1, 2011 to the present, with respect to
Donald J. Trump, the Donald J. Trump Revocable Trust, the Trump
Organization Inc., the Trump Organization LLC, the Trump
Corporation, DJT Holdings LLC, DJT Holdings Managing Member
LLC, Trump Acquisition LLC, Trump Acquisition, Corp., the Trump
Old Post Office LLC, the Trump Foundation, and any related parents,
subsidiaries, affiliates, joint ventures, predecessors, or successors
(collectively, the “Trump Entities”):
a. Tax returns and related schedules, in draft, as-filed, and
amended form;
b. Any and all statements of financial condition, annual
statements, periodic financial reports, and independent
auditors’ reports prepared, compiled, reviewed, or audited by
Mazars USA LLP or its predecessor, WeiserMazars LLP;
c. Regardless of time period, any and all engagement
agreements or contracts related to the preparation,
compilation, review, or auditing of the documents described in
items (a) and (b);

App. 118

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page5 of 35

The President quickly filed suit in federal court to block enforcement of the
Mazars subpoena, arguing that he was absolutely immune from state criminal
process during his term in office. See Trump v. Vance, 395 F. Supp. 3d 283 (S.D.N.Y.
2019). The district court dismissed the President’s complaint, concluding that the
doctrine of Younger v. Harris, 401 U.S. 37 (1971), required it to abstain from
exercising jurisdiction over a challenge to an ongoing state grand jury
investigation. See Trump, 395 F. Supp. 3d at 293–301. In the alternative, the district
court denied the President’s motion for a preliminary injunction, concluding that
the President had not demonstrated a likelihood of success on the merits or that

d. All underlying, supporting, or source documents and
records used in the preparation, compilation, review, or
auditing of documents described in items (a) and (b), and any
summaries of such documents and records; and
e. All work papers, memoranda, notes, and communications
related to the preparation, compilation, review, or auditing of
the documents described in items (a) and (b), including, but not
limited to,
i. All communications between Donald Bender and any
employee or representative of the Trump Entities as
defined above; and
ii. All communications, whether internal or external,
related to concerns about the completeness, accuracy, or
authenticity of any records, documents, valuations,
explanations, or other information provided by any
employee or representative of the Trump Entities.

App. 119

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page6 of 35

he would suffer irreparable harm if the subpoenaed documents were produced to
the grand jury. See id. at 302–16.
On appeal, this Court affirmed in part and vacated in part. We affirmed the
district court’s holding that the President was not entitled to preliminary
injunctive relief, concluding that a state grand jury “may lawfully demand
production by a third party of the President’s personal financial records for use in
a grand jury investigation while the President is in office.” Trump v. Vance, 941 F.3d
631, 646 (2d Cir. 2019). 3 We also rejected the argument of the United States as
amicus curiae that any such subpoena for the President’s papers must satisfy a
“heightened showing of need,” reasoning that this standard applies only when a
subpoena “demand[s] the production of documents protected by executive
privilege.” Id. at 645. We vacated the district court’s order insofar as it dismissed
the complaint on abstention grounds, reasoning that Younger abstention was not
warranted under the unique circumstances of this case. See id. at 639.
The Supreme Court affirmed, holding that “absolute” presidential
immunity from compliance with a state grand jury subpoena was neither
“necessary [n]or appropriate under Article II or the Supremacy Clause.” Trump v.

Unless otherwise indicated, in quoting cases, all internal quotation marks,
alterations, emphases, footnotes, and citations are omitted.
3

App. 120

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page7 of 35

Vance, 140 S. Ct. 2412, 2429 (2020). And the Supreme Court likewise refused to
impose a “heightened” standard for subpoenas seeking the President’s papers,
holding that such a standard was not “necessary for the Executive to fulfill his
Article II functions.” Id.
But the Supreme Court stressed that the rejection of a heightened standard
“does not leave Presidents with no real protection.” Id. at 2430. Rather, “a
President may avail himself of the same protections available to every other
citizen[,] . . . includ[ing] the right to challenge the subpoena on any grounds
permitted by state law, which usually include bad faith and undue burden or
breadth.” Id. Moreover, “[a] President can raise subpoena-specific constitutional
challenges,” such as “challeng[ing] the subpoena as an attempt to influence the
performance of his official duties, in violation of the Supremacy Clause,” or
“argu[ing] that compliance with a particular subpoena would impede his
constitutional duties.” Id. Because the arguments on appeal focused solely on
categorical immunity, the Supreme Court remanded the case so that the President
could “raise further arguments as appropriate.” Id. at 2431.
On remand, the President filed the SAC in district court, alleging that the
Mazars subpoena is overbroad and was issued in bad faith. On overbreadth, the

App. 121

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page8 of 35

SAC alleges that many of the requested documents bear no relation to the
payments made by Michael Cohen in 2016—which the SAC, relying on a
contemporaneous New York Times article and the earlier subpoena to the Trump
Organization, characterizes as the “focus” of the grand jury investigation. The SAC
also notes the broad scope and timeframe of the Mazars subpoena to argue that
the subpoena exceeds the District Attorney’s jurisdiction. Finally, the SAC alleges
that the Mazars subpoena is overbroad and must have been issued in bad faith
because it largely mirrors a legislative subpoena issued to Mazars by the House
Committee on Oversight and Reform.
In a comprehensive opinion, the district court granted the District
Attorney’s motion to dismiss the SAC for failure to state a claim, holding that the
SAC did not allege sufficient facts to render the allegations of bad faith or
overbreadth plausible. See Trump v. Vance, No. 19-cv-8694 (VM), 2020 WL 4861980
(S.D.N.Y. Aug. 20, 2020). This appeal followed. 4

On September 1, 2020, a panel of this Court granted the President’s motion
for a stay of the district court’s order and judgment pending appeal and directed
that the appeal be heard on an expedited basis.
4

App. 122

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page9 of 35

II.

Discussion
A. Legal Standards
We review de novo the district court’s order dismissing the SAC for failure

to state a claim. See Elder v. McCarthy, 967 F.3d 113, 123 (2d Cir. 2020).
The President asserts that the subpoena is unenforceable on two grounds:
first, because it is overbroad, and second, because it was issued in bad faith. See
Joint App’x 28 ¶¶ 53–63.
These defenses are well established under New York and federal law. 5 A
subpoena duces tecum is overbroad if “the materials sought have no relation to the
matter under investigation.” Virag v. Hynes, 430 N.E.2d 1249, 1253 (N.Y. 1981). This
standard of relatedness is necessarily looser in the context of a grand jury
investigation than that applicable to evidence to be introduced at trial. See id. at
1252–53. Because a grand jury has the authority and duty to “inquire into all
information that might possibly bear on its investigation until it has identified an
offense or has satisfied itself that none has occurred,” United States v. R. Enterprises,
Inc., 498 U.S. 292, 297 (1991), it need not “designate or call for what its exact needs

It is undisputed that the standards governing challenges to grand jury
subpoenas on the grounds of overbreadth and bad faith are substantively identical
under New York and federal law.
5

App. 123

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page10 of 35

may ultimately turn out to be,” Virag, 430 N.E.2d at 1252. To prevail on an
overbreadth challenge in practice, then, the moving party must show that “a
particular category of documents can have no conceivable relevance to any
legitimate object of investigation by the grand jury.” Id. at 1253; accord In re Grand
Jury Proceeding, 971 F.3d 40, 54 (2d Cir. 2020) (“[A] grand jury subpoena is
unreasonably broad only if there is no reasonable possibility that the category of
materials the government seeks will produce information relevant to the general
subject of the grand jury’s investigation.”).
Similarly, with respect to the defense of bad faith, “[g]rand juries are not
licensed to engage in arbitrary fishing expeditions, nor may they select targets of
investigation out of malice or an intent to harass.” R. Enterprises, 498 U.S. at 299.
However, a grand jury subpoena “enjoys a presumption of validity” against these
and other defenses to enforcement, Virag, 430 N.E.2d at 1253, a presumption that
stems from the grand jury’s unique and long-standing role in evaluating the
sufficiency of a prosecutor’s evidence against the accused and from the strong
public interest in the just enforcement of the criminal laws, see United States v.
Johnson, 319 U.S. 503, 513 (1943); People v. Thompson, 8 N.E.3d 803, 810 (N.Y. 2014).
A party seeking to avoid a subpoena can overcome this presumption of validity

App. 124

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page11 of 35

only through “a strong showing to the contrary.” R. Enterprises, 498 U.S. at 300; see
also Virag, 430 N.E.2d at 1252 (requiring “concrete evidence” of invalidity).
At bottom, then, the dispute between the President and the District Attorney
turns on legal doctrines that are anything but novel. The procedural posture of this
case, however, is unusual.
A party would ordinarily challenge a subpoena like the one at issue by filing
a motion to quash before the state court that had impaneled the grand jury. As
noted above, to prevail on an ordinary motion to quash, the moving party bears
the burden to come forward with “concrete evidence” sufficient to rebut “the
presumption of validity accorded to Grand Jury subpoenas.” Virag, 430 N.E.2d at
1250, 1252. For most litigants, this is no small feat. See id. at 1253. Because the
moving party faces such a difficult evidentiary burden, and because the scope of
a grand jury’s investigation is generally secret, “a party to whom a grand jury
subpoena is issued faces a difficult situation.” R. Enterprises, 498 U.S. at 300.
Here, in contrast, the President elected to challenge the state criminal
subpoena by filing a civil complaint in federal court, seeking injunctive and
declaratory relief against enforcement of the subpoena pursuant to 42 U.S.C.

App. 125

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page12 of 35

§ 1983. 6 The District Attorney moved in the district court to dismiss the complaint.
To survive the motion to dismiss, the President need only allege in his complaint
“sufficient factual matter, accepted as true, to state a claim to relief that is plausible
on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). To put it differently, the
President must allege facts that are “suggestive of,” and not “merely consistent
with,” overbreadth or bad faith. N.J. Carpenters Health Fund v. Royal Bank of Scot.
Grp., PLC, 709 F.3d 109, 121 (2d Cir. 2013) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 556 (2007)). A bare allegation of improper motive will not suffice if there
is “an obvious alternative explanation for the conduct alleged.” Id.
In other words, we apply the same standard to claims of overbreadth of a
subpoena or bad faith in its issuance as we would for any other motion to dismiss
under Federal Rule of Civil Procedure 12(b)(6). The President contends that any
recognition of the presumption of validity of grand jury subpoenas in assessing
whether he has pleaded sufficient facts in his complaint would amount to
imposing a “heightened pleading standard” beyond what Rule 12(b)(6) requires.
We disagree. Regardless of whether the complaint seeks to quash a grand jury

Both parties appear to assume that the President’s unique status allows him,
alone, to bring a § 1983 action in federal court rather than a motion to quash in
state court proceedings. We express no view on that question.
6

App. 126

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page13 of 35

subpoena or seeks other relief, the standard under Twombly and Iqbal is the same.
The complaint must allege sufficient facts to make it plausible that relief can be
granted. It follows, then, that the presumption of validity of grand jury subpoenas
is not irrelevant to our analysis. To be sure, the President need not rebut the
presumption at this stage. But because “plausibility . . . depends on . . . the
particular cause of action and its elements,” L-7 Designs, Inc. v. Old Navy, LLC, 647
F.3d 419, 430 (2d Cir. 2011), a complaint seeking to quash a grand jury subpoena
on the grounds of overbreadth or bad faith must include well-pled facts that, if
accepted as true, would be sufficient to rebut the presumption of validity—that is,
non-conclusory factual statements that would “permit the court to infer more than
the mere possibility” that the subpoena is overbroad or issued in bad faith, Iqbal,
556 U.S. at 679.
We further observe, for the purposes of our discussion below, that the
President has chosen only to “avail himself of the same protections available to
every other citizen,” namely, state-law challenges of overbreadth and bad faith.
Trump, 140 S. Ct. at 2430. The President does not allege that the Mazars subpoena
represents “an attempt to influence the performance of [the President’s] official
duties,” nor “that compliance with [this] particular subpoena would impede his

App. 127

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page14 of 35

constitutional duties.” Id. 7 The SAC does allege that the purported overbreadth
and bad faith of the subpoena “amounts to harassment of the President” in
violation of Article II, Joint App’x 28 ¶¶ 57, 63, but we, like the district court, do
not understand this to raise “separate and discrete constitutional claims,” Trump,
2020 WL 4861980, at *7 n.13.
Nevertheless, although the President has raised only the ordinary
challenges applicable to any grand jury subpoena, we are mindful here not to
“proceed against the president as against an ordinary individual.” United States v.
Burr, 25 F. Cas. 187, 192 (Marshall, Circuit Justice, C.C.D. Va. 1807). Because the
“high respect that is owed to the office of the Chief Executive should inform the
conduct of [this] entire proceeding,” Trump, 140 S. Ct. at 2430, we must consider
the President’s allegations with traditional Article II considerations in mind.
Appellate review of “a subpoena directed to a President” must be “particularly
meticulous,” id. (quoting United States v. Nixon, 418 U.S. 683, 702 (1974)), “to ensure

We are mindful that the President is entitled to certain procedural
accommodations not at issue here: courts are to “schedule proceedings so as to
avoid significant interference with the President’s ongoing discharge of his official
responsibilities,” Trump, 140 S. Ct. at 2430 (quoting Clinton v. Jones, 520 U.S. 681,
724 (1997) (Breyer, J., concurring)), and adapt the “timing and scope of discovery”
to permit a President to discharge his constitutional functions, id. (quoting Clinton,
520 U.S. at 707).
7

App. 128

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page15 of 35

that the [applicable legal] standards . . . have been correctly applied,” Nixon, 418
U.S. at 702. It follows that the status of the President should inform our analysis of
the plausibility of his claims. We recognize that, because of “the visibility of his
office and the effect of his actions on countless people,” Nixon v. Fitzgerald, 457 U.S.
731, 753 (1982), the President may be an “‘easily identifiable target[]’ for
harassment” by local prosecutors, Trump, 140 S. Ct. at 2427 (quoting Nixon, 457
U.S. at 753).
With these considerations in mind, we turn to the merits of the issues before
us.
B. Overbreadth
Whether the Mazars subpoena is overbroad is measured against “the
general subject of the grand jury’s investigation.” R. Enterprises, 498 U.S. at 301.
The SAC alleges that, “[a]ccording to published reports, the focus of the District
Attorney’s investigation is payments made by Michael Cohen in 2016 to certain
individuals.” Joint App’x 16 ¶ 12. Based on this allegation, the President first
asserts that the scope of the grand jury’s investigation is limited to the Michael
Cohen payments, and that the Mazars subpoena, which asks for a wide range of
documents, is therefore overbroad.

App. 129

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page16 of 35

We hold that the SAC does not plausibly allege that the grand jury’s
investigation is limited only to the Michael Cohen payments.
First, the SAC never actually alleges that the Michael Cohen payments are
the sole object of the investigation. The SAC states only that the grand jury was
“investigating whether certain business transactions from 2016 violated New York
law,” Joint App’x 14 ¶ 1, and that the Michael Cohen payments were “the focus”
of the investigation, Joint App’x 16 ¶ 12. The SAC never actually alleges that the
grand jury was not investigating anything other than the 2016 Michael Cohen
payments. Accordingly, the President, in his briefs, asks us to infer that, because
the Cohen payments were a focus of the investigation, they must have been the
only focus. We decline to take such a leap, particularly because the SAC itself does
not even say as much.
Relatedly, and more generally, in evaluating the plausibility of this
allegation, we must consider “the [substantive legal] principles implicated by the
complaint.” Iqbal, 556 U.S. at 675; accord Ostrer v. Aronwald, 567 F.2d 551, 552–54
(2d Cir. 1977) (per curiam) (affirming the dismissal of a complaint under Fed. R.
Civ. P. 12(b)(6) on the grounds that, inter alia, “appellants’ speculations that the
grand jury has insufficient evidence on which to indict them are not enough to

App. 130

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page17 of 35

overcome the presumption of regularity attached to grand jury proceedings”). We
must therefore analyze the President’s allegations in relation to the presumptive
validity of grand jury subpoenas and the extremely broad nature of grand jury
investigations. “As a necessary consequence of its investigatory function, the
grand jury paints with a broad brush.” R. Enterprises, 498 U.S. at 297. A grand jury
“can . . . hardly be expected to be able to designate or call for what its exact needs
may ultimately turn out to be. It obviously has a right to a fair margin of reach and
material in seeking information, not merely direct but also as a matter of possible
light on seemingly related aspects whose significance it is seeking to uncover.”
Virag, 430 N.E.2d at 1252. Indeed, we have recently described the grand jury's
authority to “investigate merely on suspicion that the law is being violated, or even
just because it wants assurance that it is not.” In re Grand Jury Proceeding, 971 F.3d
at 54 (quoting United States v. Morton Salt Co., 338 U.S. 632, 642–43 (1950)). Judicial
experience and common sense tell us that the scope of a grand jury investigation
is “ranging, exploratory,” and may easily expand over time. Virag, 430 N.E.2d at
1253; see also Full Gospel Tabernacle, Inc. v. Att’y-Gen. of the State of N.Y., 536 N.Y.S.2d
201, 202–03 (App. Div. 3d Dep’t 1988) (denying the petitioners’ requests to quash
subpoenas on overbreadth and bad faith grounds when “the focus of the

App. 131

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page18 of 35

investigation shifted” from hush money payments made by a televangelist to
conduct of “other officers and employers” involving business record falsification,
criminal solicitation, witness tampering, and more). Furthermore, the President’s
allegation that, from the summer of 2018 to August 2019, the scope of the
investigation remained limited to the Michael Cohen payments is simply
speculation and, “without more, . . . insufficient to overcome the presumption that
the materials sought [are] relevant to the Grand Jury’s investigation.” Virag, 430
N.E.2d at 1253.
In addition, we reject the President’s argument that the scope of the
investigation is largely defined by the scope of the Trump Organization subpoena,
which was issued a month before the Mazars subpoena and which explicitly
focused on the Michael Cohen payments. It is far from reasonable to infer that a
single subpoena would define the entire scope of a grand jury’s investigation,
particularly in complex financial investigations. Grand juries routinely issue
multiple subpoenas seeking different information from different recipients during
the course of their investigations, because, after all, they have a duty to follow
“every available clue” wherever it may lead. United States v. Stone, 429 F.2d 138,
140 (2d Cir. 1970).

App. 132

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page19 of 35

Relatedly, the President’s argument regarding the alleged scope of the
investigation relies heavily on a New York Times article, which states that the
District Attorney “is exploring whether the [Cohen payments] violated any New
York state laws.” Joint App’x 16 ¶ 12. That reliance is deficient in two respects.
First, the article does not state that the grand jury investigation is limited to the
Cohen payments. Second, the article states elsewhere that “[i]t was unclear if the
broad scope of the subpoena indicated that that the [District Attorney] had
expanded [his] investigation beyond actions taken during the 2016 campaign.”
William K. Rashbaum & Ben Protess, 8 Years of Trump Tax Returns Are Subpoenaed
by Manhattan D.A., N.Y. Times (Sept. 16, 2019), https://nyti.ms/3aji2qQ. 8 This
statement significantly undermines the plausibility of the President’s assertion
that the scope of the investigation is limited to the Michael Cohen payments.

We may properly consider the full contents of this article because it is
incorporated by reference into the SAC. Although the SAC does not cite the
specific passage of the article noted above, the SAC nevertheless makes “a clear,
definite and substantial reference to” the article. See Stolarik v. N.Y. Times Co., 323
F. Supp. 3d 523, 537 (S.D.N.Y. 2018). This citation is far more substantial than a
mere passing reference that would not have allowed us to find the article to be
incorporated by reference. See Sira v. Morton, 380 F.3d 57, 67 (2d Cir. 2004); Goldman
v. Belden, 754 F.2d 1059, 1066 (2d Cir. 1985).
8

App. 133

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page20 of 35

Having concluded that the complaint does not adequately allege that the
investigation is limited to the Michael Cohen payments, we turn to the President’s
other specific arguments on overbreadth. The president argues that the subpoena
is overbroad because, cumulatively, (1) it seeks materials from a broad array of
entities; (2) it seeks materials from entities that have operations outside New York
County; (3) it seeks many types of documents; (4) it seeks documents covering a
nine-year period; and (5) it seeks documents that are relevant only to the
Congressional inquiry and not to the criminal investigation. 9 Although these
allegations generally hinge on the President’s assumption that the grand jury’s
investigation is limited to the Michael Cohen payments, which we find
implausible, the President maintains that, even if the grand jury’s investigation is
not so limited, a subpoena of such breadth cannot be “reasonably tailored to any

We note that the President’s overbreadth allegations refer only to the scope
of the investigation, not the volume of documents to be produced. The SAC claims
that a production would be “voluminous,” e.g., Joint App’x 15 ¶ 4, but makes no
attempt to quantify the volume of the requested production and does not allege
that production would be unduly burdensome as a practical matter.
9

App. 134

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page21 of 35

particular investigation,” and is instead just a “fishing expedition” for the
President’s records. 10 Appellant’s Br. 27.
We disagree. Even if the subpoena is broad, the SAC does not plausibly
allege that the subpoena is overbroad. We discuss each of the President’s
arguments in turn:
Number of entities named. The subpoena seeks Mazars’ documents with
respect to (1) Donald J. Trump, (2) ten enumerated entities, each owned by the
President, and (3) “any related parents, subsidiaries, affiliates, joint ventures,
predecessors, or successors” of the above. Joint App’x ¶ 18.
The President’s primary argument is that these entities have nothing to do
with the Michael Cohen payments. That may be so. But, as discussed above, the
President has not plausibly alleged that the investigation is limited to the Michael
Cohen payments. The President argues that, even if the investigation is not limited
to the Michael Cohen payments, he has still “plausibly alleged facts sufficient to
support the inference that any such actors would not alone or together have a
relevant relationship to all of the entities covered by the subpoena for the entire

In a similar vein, counsel for the President suggested at oral argument that
any request for any documents described in the grand jury subpoena would be
overbroad.
10

App. 135

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page22 of 35

time period.” Appellant’s Br. 28. But even if that were true, it is neither unusual
nor unlawful for grand juries to “paint[] with a broad brush,” R. Enterprises, 498
U.S. at 297, especially in a complex financial investigation. The mere fact that the
subpoena seeks information from a variety of related entities—all owned by the
same individual—would not overcome the presumption of validity.
Out-of-state reach. The SAC alleges that the subpoena is overbroad because
“[m]any of those entities operate wholly outside of New York County” and
because some “entities whose documents are covered by the subpoena are not
even in the United States.” Joint App’x 22 ¶ 32.
But this, too, is neither unusual nor unlawful. New York law allows the
District Attorney to prosecute a crime when “an element of [the] offense,” or “[a]n
attempt or a conspiracy to commit such offense,” occurred within New York
County. N.Y. Crim. Proc. Law § 20.40 (2019); accord id. § 20.20. The District
Attorney may also prosecute crimes that occurred outside New York County if,
for instance, “the offense committed was a result offense and the result occurred
within” New York County or if the offense was intended to have a prohibited
effect in New York County. Id. § 20.20(2)(a)–(b); see also Blair v. United States, 250
U.S. 273, 282–83 (1919) (“[W]itnesses are not entitled to take exception to the

App. 136

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page23 of 35

jurisdiction of the grand jury or the court over the particular subject-matter that is
under investigation . . . . [T]he court and grand jury have authority and
jurisdiction to investigate the facts in order to determine the question whether the
facts show a case within their jurisdiction.”). There is nothing suspect about a
grand jury demanding records relating to entities beyond the grand jury’s
territorial jurisdiction, especially in the context of a financial investigation. The
President’s allegations, accepted as true, would not plausibly overcome the
presumption of validity.
Types of materials sought. The subpoena seeks five categories of
documents: (1) tax returns; (2) financial statements and reports; (3) engagement
agreements; (4) documents related to the preparation and review of the abovementioned tax returns and reports; and (5) work papers and communications
related to the above-mentioned tax returns and reports. The President alleges that
this scope is too broad.
Here, too, the President’s key argument is that these types of documents are
irrelevant to the Michael Cohen payments. And, as before, without the benefit of
the assumption that the investigation is limited only to those payments, the SAC
fails to plausibly allege that there is no “reasonable possibility” that the categories

App. 137

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page24 of 35

of documents sought would be “relevant to the general subject of the grand jury’s
investigation.” In re Grand Jury Proceeding, 971 F.3d at 54. There is nothing to
suggest that these are anything but run-of-the-mill documents typically relevant
to a grand jury investigation into possible financial or corporate misconduct. The
district court’s decision cites a litany of cases upholding subpoenas of similar
breadth and scope. See Trump, 2020 WL 4861980, at *28–29; see also Br. for Amici
Curiae Washington State Tax Practitioners 7, Trump v. Vance, 140 S. Ct. 2412 (2020)
(No. 19-635), 2020 WL 1433479, at *7 (“In Practitioners’ experience, the scope of
[the Mazars Subpoena] is not surprising.”).
Time period. The Mazars subpoena seeks documents generally since
January 1, 2011. The President alleges that this roughly nine-year period is
overbroad, again relying mostly on the assumption that the investigation is limited
only to the Michael Cohen payments, which took place in 2016.
“No magic figure limits the vintage of documents subject to a grand jury
subpoena. The law requires only that the time bear some relation to the subject
matter of the investigation.” In re Rabbinical Seminary Netzach Israel Ramailis, 450 F.
Supp. 1078, 1084 (E.D.N.Y. 1978). Analyzing the Mazars subpoena under this
standard, we cannot make a reasonable inference that the timeframe of the

App. 138

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page25 of 35

subpoena has no relation to the subject matter of the investigation. Even assuming
arguendo that all transactions subject to the investigation occurred in 2016, the SAC
does not make any well-pled allegations that such an investigation would have no
use for documents from prior years or that the records sought are too old to have
any bearing on the investigation. In fact, “the grand jury’s scope of inquiry is not
limited to events which may themselves result in criminal prosecution, but is
properly concerned with any evidence which may afford valuable leads for
investigation of suspected criminal activity during the limitations period.” United
States v. Doe, 457 F.2d 895, 901 (2d Cir. 1972); see also United States v. Cohn, 452 F.2d
881, 883 (2d Cir. 1971). 11 Without a plausible allegation about the nature of the
ongoing investigation, we cannot say that the time period at issue—slightly under
nine years—is per se too long a period for a grand jury subpoena to cover.
Near-identity with a Congressional subpoena. Finally, we turn to the
President’s last argument on overbreadth: that the subpoena is inherently
overbroad because it is copied from, and is substantially identical to, an earlier
subpoena from the House Oversight Committee to Mazars that focused on an
entirely different subject matter. But here, too, the President’s allegations fall short.

For the same reason, the President’s argument that the relevant period for
the subpoena should be limited by the criminal statutes of limitation has no merit.

11

App. 139

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page26 of 35

To begin, there is no logic to the proposition that the documents sought in
the Mazars subpoena are irrelevant to legitimate state law enforcement purposes
simply because a Congressional committee considered the same documents
relevant to its own investigative purposes. The same set of documents could be
useful for multiple purposes, and it is unreasonable to automatically assume that
state law enforcement interests and federal legislative interests do not overlap. See
Hutcheson v. United States, 369 U.S. 599, 613 (1962) (“[T]he authority of [Congress],
directly or through its committees, to require pertinent disclosures in aid of its own
constitutional power is not abridged because the information sought to be elicited
may also be of use in” state criminal proceedings).
In response, the President argues that it is highly unlikely that all of the
documents relevant to a federal legislative inquiry would also be relevant to a New
York criminal investigation. As Justice Alito wrote, “it would be quite a
coincidence if the records relevant to an investigation of possible violations of New
York criminal law just so happened to be almost identical to the records thought
by congressional Committees to be useful in considering federal legislation.”
Trump, 140 S. Ct. at 2449 (Alito, J., dissenting).

App. 140

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page27 of 35

But that is not enough. It would be impossible for grand juries and district
attorneys advising them to fashion document subpoenas with such refinement
and precision that every document called for is useful in the criminal investigation.
Grand juries must necessarily paint with a “broad brush.” R. Enterprises, 498 U.S.
at 297. It is neither uncommon nor unlawful for grand jury subpoenas to seek
categories of documents that may include some documents that ultimately prove
to be unhelpful to the grand jury’s investigation. “A grand jury has no catalog of
what books and papers exist and are involved in a situation with which it is
attempting to deal, nor will it ordinarily have any basis for knowing what their
character or contents immediately are. It can therefore hardly be expected to be
able to designate or call for what its exact needs may ultimately turn out to be.”
Virag, 430 N.E.2d at 1252. The SAC does not adequately allege that the subpoena
is so overbroad that “there is no reasonable possibility that the category of
materials the Government seeks will produce information relevant to the general
subject of the grand jury's investigation.” R. Enterprises, 498 U.S. at 301.
Cumulative breadth. Having concluded that the President has not
adequately alleged that the individual aspects of the subpoena are overbroad, we
conclude by examining the subpoena as a whole. The sum of a subpoena can, of

App. 141

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page28 of 35

course, be overbroad even if its individual components are not. But such is not the
case here. Because the allegations concerning the Michael Cohen payments are not
well pled, the President’s remaining allegations amount to generic objections that
the subpoena is wide-ranging in nature. Again, even if the subpoena is broad, the
complaint does not adequately allege that it is overbroad. Complex financial and
corporate investigations are broad by default. A grand jury “has a right to a fair
margin of reach and material in seeking information, not merely direct but also as
a matter of possible light on seemingly related aspects whose significance it is
seeking to uncover.” Virag, 430 N.E.2d at 1252. None of the President’s allegations,
viewed separately or cumulatively, would overcome the presumption of validity.
The President has a “difficult” burden and an “unenviable” task: to make
plausible allegations that could “persuade the court that the subpoena that has
been served on him . . . could not possibly serve any investigative purpose that the
grand jury could legitimately be pursuing.” R. Enterprises, 498 U.S. at 300. His
complaint fails to do so.
C. Bad Faith
For similar reasons, we hold that none of the President’s allegations, taken
together or separately, are sufficient to raise a plausible inference that the
subpoena was issued “out of malice or an intent to harass.” Trump, 140 S. Ct. at

App. 142

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page29 of 35

2428 (quoting R. Enterprises, 498 U.S. at 299). Even accounting for the public status
and visibility of the President, as well as the political interest in his tax returns,
none of the facts asserted in the SAC, accepted as true, would be sufficient for such
a claim to prevail.
The President first alleges that the Mazars subpoena was issued in
retaliatory bad faith because the District Attorney sought it soon after the
President refused to produce his tax returns in response to the Trump
Organization subpoena. In further support of this claim, the SAC alleges that the
District Attorney issued the later subpoena to “Mazars, a neutral third-party
custodian, in an effort to circumvent the President,” Joint App’x 17–18 ¶ 16, during
a time when “Democrats had become increasingly dismayed over their ongoing
failure” to obtain the President’s tax returns, Joint App’x 21 ¶ 24.
Even if true, none of this raises a plausible inference of retaliatory motive on
the part of the District Attorney. In the President’s telling, the District Attorney
(1) misinterpreted the Trump Organization subpoena to cover the President’s tax
returns, but then (2) “declined to defend his implausible reading,” Joint App’x 18
¶ 16, and accordingly (3) issued a new subpoena. The President casts this as
retaliatory, but the “obvious alternative explanation,” Twombly, 550 U.S. at 567, is

App. 143

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page30 of 35

that, if the original subpoena did not clearly call for the documents needed for the
grand jury investigation, a new subpoena was issued that clearly called for them.
See N.J. Carpenters Health Fund, 709 F.3d at 121. Even the President’s account
amounts to nothing more than “labels and conclusions” of improper motive,
compelling us to find that this allegation fails the plausibility test. Twombly, 550
U.S. at 555.
We are similarly unpersuaded by the President’s reference to the ambient
political motivations of third parties. To be sure, if the SAC plausibly alleged that
the District Attorney sought to obtain the President’s tax returns for partisan
political purposes, that would undoubtedly state a claim of bad faith. But as
counsel to the President acknowledged at oral argument, the SAC nowhere alleges
that the District Attorney was himself motivated by partisan considerations. The
motivations of unspecified “Democrats” cannot be imputed to the District
Attorney without specific factual allegations.
And the fact that the Mazars subpoena was issued to a third-party custodian
adds nothing to the President’s bad faith claim. Such subpoenas are routine. See,
e.g., Hirschfeld v. City of New York, 686 N.Y.S.2d 367, 368 (App. Div. 1st Dep’t 1999).
And even if the District Attorney had directed this subpoena to Mazars with the

App. 144

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page31 of 35

expectation that Mazars would be more likely than the President to comply, the
expectation of cooperation signifies a legitimate investigation, not evidence of bad
faith. Cf. Blair, 250 U.S. at 282 (providing that a party served with a subpoena “is
not entitled to set limits to the investigation that the grand jury may conduct”).
These facts, accordingly, do not allow us to draw any inference of improper motive
on the part of the District Attorney. The direction of the subpoena to the
President’s accountant, rather than to the President himself, does not prevent the
President from objecting to the subpoena. On the other hand, it relieves the
President of the burden of supervising and being responsible for compliance, thus
freeing the President from obligations that might otherwise interfere with his
duties of office.
The President next argues that the Mazars subpoena is issued in bad faith
because it is not properly tailored to the needs of the District Attorney’s
investigation. Here, the President relies on the allegation that the Mazars
Subpoena largely tracks the language of a subpoena issued by the House oversight
committee, as well as the allegation that the District Attorney justified this
similarity on the ground of “efficiency,” rather than on the needs of his

App. 145

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page32 of 35

investigation. To the extent that this argument is another way to express a claim
for overbreadth, it fails for all the same reasons as above.
But to the extent courts have held that the improper tailoring of a subpoena
in itself gives rise to an inference of bad faith on the part of the prosecutor, we
conclude that the alleged facts here are not so suggestive. For example, in In re
Grand Jury Subpoena, JK-15-029 (hereinafter JK-15), the Ninth Circuit quashed a
subpoena that sought, in part, all personal and official emails sent from or to the
former governor of Oregon regarding certain individuals over several years. 828
F.3d 1083, 1086–87 (9th Cir. 2016). Some of the emails at issue discussed
“particularly private matters, including communications about medical issues and
[the governor’s] children.” Id. at 1090. But the financial and business documents
sought by the Mazars subpoena are not nearly so personal and thus do not give
rise to an inference of improper motive. 12 Moreover, we note that any documents

Insofar as the subpoena’s request for “[a]ll communications between
Donald Bender and any employee or representative of the Trump Entities” raises
privacy concerns, Joint App’x 18 ¶ 18, we note that a request for communications
between two particular parties is inherently narrower than a request for all
communications sent to or from a single party. For that reason, the subpoena here
is distinguishable from that in JK-15 and more closely resembles the request we
recently upheld in In re Grand Jury Proceeding for “all communications between [an
individual] and eight reporters that in any way concerned [the subject of the
investigation].” 971 F.3d at 54.

12

App. 146

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page33 of 35

produced under the Mazars subpoena would be protected from public disclosure
by grand jury secrecy rules, see Trump, 140 S. Ct. at 2427, which greatly reduces the
plausibility of the allegation that the District Attorney is acting out of a desire to
embarrass the President. Notwithstanding the political interest in the President’s
tax returns, then, we simply do not see how the District Attorney’s statement that
he copied the Congressional subpoena for “efficiency” allows us to infer bad faith.
Finally, the President’s argument about the District Attorney’s “shifting”
explanations fares no better. Here, the President alleges that the District Attorney
recently abandoned his “efficiency” explanation for the scope of the subpoena and
instead told the district court that the Mazars and Congressional subpoenas are
identical because “they both relate to public reports about the same potentially
improper conduct.” Appellant’s Br. 32. From this, the President urges, we should
infer that any explanation by the District Attorney is pretext for his improper
motive. We cannot do so, however, because the District Attorney’s two alleged
statements are not inconsistent. Even construing these statements in the way most

We further note that the court in JK-15 quashed the subpoena on the ground
of overbreadth, rather than bad faith. See JK-15, 828 F.3d at 1088. Our point remains
that, assuming the case can be read for the proposition that improper tailoring is
akin to bad faith, the facts here are easily distinguishable.

App. 147

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page34 of 35

favorable to the President’s claim, we find that they do not “permit [us] to infer
more than the mere possibility” of bad faith. Iqbal, 556 U.S. at 679.
INTERIM STAY OF ENFORCEMENT
The parties have previously agreed that, should the President seek interim
relief from the Supreme Court after our instant affirmance of the district court’s
judgment, the District Attorney would “forbear enforcement of the Mazars
subpoena until a decision is issued by the Supreme Court denying such a request
for interim relief . . . provided [the President] complies with” a briefing schedule
agreed to by the parties. Joint Letter dated October 2, 2020, from Counsel for
Appellant & Counsel for Appellee. That briefing schedule is set forth in a letter
submitted by the District Attorney to the Court on September 29, 2020. An interim
stay of enforcement of the subpoena under the terms agreed to by the parties is
hereby so ordered.
CONCLUSION
We have considered all of the President’s remaining contentions on appeal
and have found in them no basis for reversal. 13 Accordingly, we AFFIRM the

Furthermore, because it is not necessary to rely on any evidence outside of
the SAC to dismiss it and because there is no need to convert the instant motion to
a motion for summary judgment, the district court did not err in dismissing as

13

App. 148

Case 20-2766, Document 138-1, 10/07/2020, 2946935, Page35 of 35

district court’s judgment dismissing the SAC with prejudice, and enforcement of
the subpoena is provisionally stayed as specified herein.

moot the President’s request for a pre-motion conference on his anticipated motion
for discovery into the redacted portion of the sworn declaration of Assistant
District Attorney Solomon Shinerock.

App. 149

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 1 of 16

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
DONALD J. TRUMP,

Plaintiff,

- against -

Case No. 1:19-cv-8694-VM

CYRUS R. VANCE, JR., in his official capacity
as District Attorney of the County of New
York;

SECOND AMENDED COMPLAINT

and
MAZARS USA, LLP,

Defendants.

Plaintiff Donald J. Trump brings this complaint against Defendants pursuant to 28 U.S.C.
§1983 and alleges as follows:
INTRODUCTION
1.

In 2018, a New York County grand jury began investigating whether certain business

transactions from 2016 violated New York law. The Trump Organization initially cooperated with the
investigation, including by producing hundreds of documents in response to the grand-jury subpoena.
A disagreement arose, however, when the District Attorney requested tax returns even though the
subpoena did not cover them. Instead of trying to resolve the dispute, the District Attorney issued a
grand-jury subpoena to the President’s accounting firm that duplicated two congressional subpoenas
that had been issued for purportedly legislative purposes.
2.

The President filed suit under §1983 to protect his legal rights, including those held

under Article II of the Constitution. Although the subpoena “was directed to the President’s
accounting firm, ... it is functionally a subpoena issued to the President.” Trump v. Vance, --- S. Ct. ---,
Slip. Op. 10 n.5 (2020). Thus, “the President has standing to challenge the Mazars subpoena,” Trump
v. Vance, 941 F.3d 631, 642 (2d. Cir. 2019), inter alia, as “overly broad” or having been issued “in bad
faith,” Vance, Slip Op. at 20.
1

App. 150

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 2 of 16

3.

In challenging “such harassment,” the President is “entitled to the protection of

federal courts.” Id. at 16.
4.

First, the Mazars subpoena is wildly overbroad and is not remotely confined to the

grand jury investigation that began in 2018. Moreover, the subpoena demands voluminous documents
that relate to topics and entities far beyond the District Attorney’s limited jurisdiction under New
York law. This is not a properly tailored subpoena for the President’s records.
5.

Second, the Mazars subpoena was issued in bad faith. The District Attorney knew when

he issued it—and he has since admitted—that the subpoena was not designed to meet the needs of
the grand jury. It was drafted by a congressional committee purportedly to investigate issues of
national concern. In other words, the District Attorney issued a grand-jury subpoena he knew was
overbroad and sought irrelevant records. That the District Attorney dubiously claims he did this for
“efficiency” reasons does not save the subpoena from invalidation. It confirms that he lacked a goodfaith basis and that the subpoena amounts to harassment of the President.
PARTIES
6.

Plaintiff Donald J. Trump is the 45th President of the United States. He is the grantor

and beneficiary of The Donald J. Trump Revocable Trust (“the Trust”). The Trust is the sole ultimate
owner of The Trump Organization, Inc.; Trump Organization LLC; The Trump Corporation; DJT
Holdings LLC; DJT Holdings Managing Member LLC; Trump Acquisition, LLC; and Trump
Acquisition Corp. The Trust is the majority ultimate owner of the Trump Old Post Office LLC.
7.

Defendant Cyrus R. Vance, Jr., is the District Attorney for the County of New York.

The subpoena to Mazars was issued by his office and under his authority. Vance is sued in his official
capacity.
8.

Defendant Mazars USA LLP is a New York accounting firm and the recipient of the

subpoena. It is sued in its capacity as custodian of the President’s records and is a defendant to ensure
that the President can obtain effective relief.
2

App. 151

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 3 of 16

JURISDICTION & VENUE
9.

This Court has subject matter jurisdiction under 28 U.S.C. §1331, 28 U.S.C. §1343, 28

U.S.C. §1367, and 28 U.S.C. §2201.
10.

Venue is proper because Defendants reside in this district and because a substantial

part of the events or omissions giving rise to the President’s claim occurred in this district. 28 U.S.C.
§1391(b).
BACKGROUND
I.

The Grand Jury Investigation
11.

“In the summer of 2018, the New York County District Attorney’s Office opened an

investigation into what it opaquely describes as ‘business transactions involving multiple individuals
whose conduct may have violated state law.’” Vance, Slip. Op. at 2.
12.

According to published reports, the focus of the District Attorney’s investigation is

payments made by Michael Cohen in 2016 to certain individuals. Citing anonymous sources, The New
York Times reported that “Mr. Vance’s office is exploring whether the reimbursements violated any
New York state laws .... In particular, the state prosecutors are examining whether the company falsely
accounted for the reimbursements as a legal expense. In New York, filing a false business record can
be a crime.”
13.

On August 1, 2019, the District Attorney issued a grand jury subpoena to The Trump

Organization. That subpoena sought the following documents and communications:
1. For the period of June 1, 2015, through September 20, 2018, any and all
documents and communications that relate to, reference, concern, or
reflect:
a. payments made for the benefit of or agreements concerning Karen
McDougal,
b. payments made for the benefit of or agreements concerning
Stephanie Clifford aka Stormy Daniels aka Peggy Peterson,
c. payments made to or agreements with Michael Cohen or American
Media, Inc. that concern Karen McDougal or Stephanie Clifford
aka Stormy Daniels aka Peggy Peterson, including but not limited
to documents and communications involving:
3

App. 152

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 4 of 16

•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•

Resolution Consultants LLC
Essential Consultants LLC aka EC LLC
Entities owned or controlled by Michael Cohen
Michael Cohen
David Dennison
Keith Davidson
Keith M. Davidson & Associates
American Media, Inc.
National Enquirer
David Pecker
Dylan Howard
Hope Hicks
Jill Martin
Jeffrey McConney
Deborah Tarasoff
Donald Trump, Jr.
Allen Weisselberg.

The items sought by this demand include without limitation: emails,
memoranda, and other communications; invoices; agreements, including
without limitation retainer agreements; accounting and other book entries
or backup documents; general ledger records; wire transfer requests and
related records, check images, bank statements, and any other evidence
of payments or installments; and organizational documents and
agreements, including without limitation articles of incorporations,
limited liability agreements, and minutes of director or member meetings.
2. For the period of June 1, 2015, through September 20, 2018, any and all
documents and communications that relate to, reference, concern, or
reflect Michael Cohen’s employment by or work on behalf of Donald
Trump or the Trump Organization at any time, including without
limitation:
invoices, payment records, human resource records, W2s, 1099s, emails,
memoranda, and other communications.
14.

The subpoena did not call for tax returns.

15.

The President’s attorneys immediately opened a dialogue with the District Attorney’s

Office, collecting, and ultimately, producing hundreds of documents encompassed by this grand-jury
subpoena.
16.

But the District Attorney soon revealed that what he really wanted was The Trump

Organization’s tax returns. When the President’s attorneys pointed out that the subpoena could not

4

App. 153

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 5 of 16

plausibly be read to demand returns, the District Attorney declined to defend his implausible reading.
He instead retaliated by issuing a new subpoena to Mazars, a neutral third-party custodian, in an effort
to circumvent the President.
II.

The Subpoena to Mazars
17.

On August 29, 2019, the District Attorney issued a grand-jury subpoena to Mazars.

18.

The subpoena orders Mazars to produce a list of records concerning the President:
1. For the period of January 1, 2011 to the present, with respect to Donald J.
Trump, the Donald J. Trump Revocable Trust, the Trump Organization
Inc., the Trump Organization LLC, the Trump Corporation, DJT
Holdings LLC, DJT Holdings Managing Member LLC, Trump
Acquisition LLC, Trump Acquisition, Corp., the Trump Old Post Office
LLC, the Trump Foundation, and any related parents, subsidiaries,
affiliates, joint ventures, predecessors, or successors (collectively, the
“Trump Entities”):
a. Tax returns and related schedules, in draft, as-filed, and amended
form;
b. Any and all statements of financial condition, annual statements,
periodic financial reports, and independent auditors’ reports
prepared, compiled, reviewed, or audited by Mazars USA LLP or
its predecessor, WeiserMazars LLP;
c. Regardless of time period, any and all engagement agreements or
contracts related to the preparation, compilation, review, or
auditing of the documents described in items (a) and (b);
d. All underlying, supporting, or source documents and records used
in the preparation, compilation, review, or auditing of documents
described in items (a) and (b), and any summaries of such
documents and records; and
e. All work papers, memoranda, notes, and communications related
to the preparation, compilation, review, or auditing of the
documents described in items (a) and (b), including, but not limited
to,
i.

All communications between Donald Bender and any
employee or representative of the Trump Entities as
defined above; and

ii.

All communications, whether internal or external, related
to concerns about the completeness, accuracy, or
authenticity of any records, documents, valuations,
explanations, or other information provided by any
employee or representative of the Trump Entities.

5

App. 154

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 6 of 16

19.

The District Attorney’s subpoena to Mazars is identical to the House Oversight

Committee’s subpoena to Mazars (except for a few stylistic edits). The only exception is paragraph
1.a. The House Oversight Committee did not ask Mazars for the President’s tax returns, but the
District Attorney (following the lead of the House Ways and Means Committee) did. Essentially, then,
the District Attorney cut-and-pasted the House Oversight and House Ways and Means subpoenas
into a document and sent them to Mazars.
20.

The following table illustrates how each provision of the District Attorney’s subpoena

(other than paragraph 1.a) precisely tracks the House Oversight Committee’s subpoena.
House Oversight Committee
Unless otherwise noted, the time period
covered by this subpoena includes calendar
years 2011 through 2018.

District Attorney
1. For the period of January 1, 2011 to the
present,

With respect to Donald J. Trump, Donald J.
Trump Revocable Trust, the Trump
Organization Inc., the Trump Organization
LLC, the Trump Corporation, DJT Holdings
LLC, the Trump Old Post Office LLC, the
Trump Foundation, and any parent, subsidiary,
affiliate, joint venture, predecessor, or successor
of the foregoing:

with respect to Donald J. Trump, the Donald J.
Trump Revocable Trust, the Trump
Organization Inc., the Trump Organization
LLC, the Trump Corporation, DJT Holdings
LLC, DJT Holdings Managing Member LLC,
Trump Acquisition LLC, Trump Acquisition,
Corp., the Trump Old Post Office LLC, the
Trump Foundation, and any related parents,
subsidiaries, affiliates, joint ventures,
predecessors, or successors (collectively, the
“Trump Entities”):

a. Tax returns and related schedules, in
draft, as-filed, and amended form;
1. All statements of financial condition, annual
statements, periodic financial reports, and
independent auditors’ reports prepared,
compiled, reviewed, or audited by Mazars USA
LLP or its predecessor, WeiserMazars LLP;

b. Any and all statements of financial condition,
annual statements, periodic financial reports,
and independent auditors’ reports prepared,
compiled, reviewed, or audited by Mazars USA
LLP or its predecessor, WeiserMazars LLP;

2. Without regard to time, all engagement
agreements or contracts related to the
preparation, compilation, review, or auditing of
the documents described in Item Number 1;

c. Regardless of time period, any and all
engagement agreements or contracts related to
the preparation, compilation, review, or
auditing of the documents described in items
(a) and (b);

6

App. 155

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 7 of 16

3. All underlying, supporting, or source
documents and records used in the preparation,
compilation, review, or auditing of documents
described in Item Number 1, or any summaries
of such documents and records relied upon, or
any requests for such documents and records;
and

d. All underlying, supporting, or source
documents and records used in the preparation,
compilation, review, or auditing of documents
described in items (a) and (b), and any
summaries of such documents and records; and

4. All memoranda, notes, and communications
related to the preparation, compilation, review,
or auditing of the documents described in Item
Number 1, including, but not limited to:

e. All work papers, memoranda, notes, and
communications related to the preparation,
compilation, review, or auditing of the
documents described in items (a) and (b),
including, but not limited to,

a. all communications between Donald Bender
and Donald J. Trump or any employee or
representative of the Trump Organization; and

i. All communications between Donald Bender
and any employee or representative of the
Trump Entities as defined above; and

b. all communications related to potential
concerns that records, documents,
explanations, or other information, including
significant judgments, provided by Donald J.
Trump or other individuals from the Trump
Organization, were incomplete, inaccurate, or
otherwise unsatisfactory.

ii. All communications, whether internal or
external, related to concerns about the
completeness, accuracy, or authenticity of any
records, documents, valuations, explanations,
or other information provided by any employee
or representative of the Trump Entities.

21.

As with the first subpoena, the attorneys for the President—the true party-in-

interest—contacted the District Attorney’s office to engage in good-faith negotiations concerning the
Mazars subpoena in effort to cooperate with the investigation. Yet the District Attorney refused to
engage in any meaningful discussion about the investigation, justify the subpoena’s scope and breadth,
or narrow the subpoena in any way.
III.

The scope of the Mazars subpoena.
22.

The District Attorney has defended his decision to copy the congressional subpoenas

on “efficiency” grounds. Specifically, the District Attorney has explained that “the decision to mirror
the earlier subpoena was about efficiency, meaning it was intended to facilitate the easy production by
Mazars of a set of documents already collected, and to minimize any claim that the Office’s request
imposed new and different burdens.” According to the District Attorney, the point was to facilitate
“expeditious production of responsive documents.”
7

App. 156

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 8 of 16

23.

There is nothing efficient—let alone proper—about demanding voluminous records

that are irrelevant to the grand jury’s work. After all, a subpoena’s legitimacy is not defined by what is
most efficient for the records custodian. And issuing a patently overbroad subpoena is obviously not
efficient for the owner whose records are being demanded.
24.

Notably, the District Attorney’s decision to photocopy congressional subpoenas came

at a time when, as U.S. News reported, Democrats had become increasingly dismayed over their
ongoing failure “to get their hands on the long-sought after documents.” As the New York Times put
it: there was hope that “it may be more difficult to fend off a subpoena in a criminal investigation with
sitting grand jury.” The timing and nature of this demand for ten years of tax returns is powerful
evidence of bad faith.
25.

Regardless, the District Attorney has never taken the position that the grand jury’s

investigation has the same scope as the one being conducted by the House Oversight Committee—
the legislative body from which the District Attorney lifted nearly all of the language in the Mazars
subpoena—or any other congressional committee.
26.

The District Attorney also has not taken the position that the timeframe of the grand

jury’s investigation is fortuitously the same as those being conducted by the congressional committees.
To the contrary, the District Attorney concedes that the grand jury’s investigation is not “coextensive
with the investigation of the House Committee” and that “the Mazars Subpoena does not define the
scope of the grand jury investigation.”
27.

The District Attorney’s inability to reconcile the Mazars subpoena with the grand jury’s

investigation is unsurprising. The District Attorney has limited criminal jurisdiction. The State of New
York’s criminal jurisdiction is limited to: (1) crimes the conduct of which occurred within the State
(meaning an element of the offense or an attempt or conspiracy to complete the offense occurred in
the State); (2) “result” crimes, where the result occurred within the State, crimes that occurred outside
the State but constituted an attempt or conspiracy to commit a crime within the State, or crimes that
8

App. 157

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 9 of 16

were otherwise intended to have a particular prohibited effect within the State; and (3) crimes of
omission to perform within the State a duty imposed by the law of the State. See N.Y. CPL §20.20.
28.

New York County’s jurisdiction is even more limited. The District Attorney has the

authority to enforce the criminal laws of the State of New York—but that authority is restricted by
the geographical borders of New York County. See N.Y. CPL §20.40.
29.

The District Attorney’s authority is also limited by criminal statutes of limitation. The

statutes of limitation for most New York crimes (aside from the most heinous like murder and rape)
typically range from one to five years after the commission of the offense. See N.Y. CPL §30.10.
Prosecution must commence within that time.
30.

The Mazars subpoena seeks records that far exceed the District Attorney’s jurisdiction

generally and the scope of this investigation specifically.
31.

The subpoena demands voluminous documents related to every facet of the business

and financial affairs of the President and numerous associated entities—from the banal to the
complex, from drafts and memoranda to formal records, from source documents to summaries.
32.

Many of those entities operate wholly outside of New York County. Numerous

documents subpoenaed concern entities located, for example, in California, Florida, Hawaii, Illinois,
New Jersey, North Carolina, Pennsylvania, Virginia, and the District of Columbia. Other entities
whose documents are covered by the subpoena are not even in the United States. They are located,
for example, in Canada, the Dominican Republic, Dubai, India, Indonesia, Ireland, the Philippines,
Scotland, and Turkey.
33.

Taken together, the subpoena demands an accounting and analysis of every single asset

and liability of the President, including each one of the listed entities. Indeed, the kinds of documents
requested typically include all assets and liabilities likely broken down by type, description, and value
(e.g., cash, securities, instruments, receivables, payables, property, equipment, loans, etc.). And the
subpoena demands production of every such document prepared (perhaps on a quarterly basis for
9

App. 158

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 10 of 16

some) over a ten-year period. That is hundreds—if not thousands—of comprehensive reports, each
one containing a trove of information about the health, trajectory, and operations of the business. In
addition, the subpoena demands “[a]ll underlying, supporting, or source documents and records” used
in the preparation of “any and all” financial documents—that is, the original record of every
transaction made by every listed entity in the last ten years. Simply put, it asks for everything.
34.

The subpoena is not confined to financial records. It even asks for the engagement

agreements or contracts related to the preparation or review of any of the aforementioned financial
documents “[r]egardless of time period.” It also demands “[a]ll work papers, memoranda, notes, and
communications” related to the preparation of those documents. This is ten years of internal, and in
some cases “external,” communications about the accounts for each entity: reminders, tallies, analysis,
discussion, questions, answers, research, etc. And it asks for any communications—personal or
professional, relating to the preparation or review of financial documents or not—between a named
Mazars partner and any employee or representative of a listed entity.
35.

Even on its face and without any context, the Mazars subpoena is so sweeping that it

amounts to an unguided and unlawful “fishing expedition[]” into the President’s personal financial
and business dealings. Vance, Slip Op. at 16. But especially in the context of a New York grand jury
investigation, the subpoena plainly reaches far beyond the District Attorney’s jurisdiction—to say
nothing of this particular investigation into whether certain payments made in 2016 may have violated
New York law. This is not a straightforward request to review specific business transitions; it is an
overreaching demand designed to pick apart the President and each related entity from the inside out,
without regard to the geographic limits of the District Attorney’s jurisdiction or the scope of the grand
jury’s investigation.
36.

Of course, the incongruity between this subpoena and any investigation into particular

state-law crimes makes sense. The original author of the subpoena (aside from the request for tax
returns)—the House Oversight Committee—had no intention of it being used to facilitate a state-law
10

App. 159

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 11 of 16

criminal investigation. Instead, the Oversight Committee has claimed that the subpoena is aimed at
issues that are “of national importance” and fall within the Committee’s own jurisdiction. Indeed, the
Oversight Committee has offered several, sometimes overlapping, reasons for seeking the documents
covered by the Mazars subpoena, none of which fall within the District Attorney’s jurisdiction, let
alone within the scope of the grand jury’s investigation.
37.

First, the Committee has claimed that its investigation is in “pursuit of … [federal]

legislative prerogatives.” In other words, the Committee claims that the Mazars subpoena is designed
to help it “determine the adequacy of existing [federal] laws and perform related agency oversight.”
This subject is not within the jurisdiction of the County of New York.
38.

Second, the Committee has claimed that it needs the subpoenaed documents to

investigate compliance with the Ethics in Government Act of 1978 and to refine “proposals to
strengthen the investigative and enforcement authority of the Office of Government Ethics.”
Specifically, the Committee has claimed to be concerned with ensuring that the President is able to
operate in the best interest of the nation, free from conflicting interests. This subject is not within the
jurisdiction of the County of New York.
39.

Third, and relatedly, the Committee has claimed to be investigating the need for

potential reforms to Presidential and Vice-Presidential financial disclosure and reporting requirements.
This subject is not within the jurisdiction of the County of New York.
40.

Fourth, the Committee has claimed to be investigating compliance with the Foreign

and Domestic Emoluments Clauses of the U.S. Constitution. According to the Committee, the
information from the subpoena might help it to define what it thinks “is or is not [an] [] emolument”
or whether it thinks the President has violated either Clause. This subject is not within the jurisdiction
of the County of New York.
41.

Fifth, and relatedly, the Committee has claimed to be investigating any ties or dealings

between the President’s businesses and any foreign—e.g., South Korean or German—entities, to
11

App. 160

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 12 of 16

ensure that no such entity could exercise outside influence on the Office of the President. Specifically,
the Committee claims to be pursuing whether “the President of the United States [is] beholden to
foreign interests who can hold certain things over his head.” This subject is not within the jurisdiction
of the County of New York.
42.

Sixth, the Committee has claimed to be investigating whether it should enact legislation

that would ban the President and Vice President from conducting business directly with the federal
government. This subject is not within the jurisdiction of the County of New York.
43.

Seventh, and relatedly, the Committee has claimed to be investigating “federal-lease

management.” The Committee has identified “significant concerns with [the General Services
Administration’s] ongoing management of the lease of the federal Old Post Office Building for the
Trump International Hotel in Washington, D.C.” GSA issued a request for proposals on the property
in 2011 and thereafter granted the contract to Trump Old Post Office LLC to restore and redevelop
the building into a luxury hotel. The Committee claims to be interested in any ongoing relationship
between a federal agency and one of the President’s businesses. Indeed, the Committee claims it
purposefully drafted the Mazars subpoena to seek “documents from 2011—the year GSA sought
proposals for the Old Post Office Building.” This subject is not within the jurisdiction of the County
of New York.
44.

In sum, the District Attorney has no authority to determine the adequacy of existing

federal law, assess compliance with or the sufficiency of the Ethics in Government Act, reform
disclosure requirements for the Executive Branch, evaluate or define the Emoluments Clauses of the
U.S. Constitution, manage international relations, or regulate federal-government lease management.
Nor does the District Attorney have any reason to seek documents dating back to 2011. Indeed, the
events that would have triggered the conduct that the grand jury claims to be investigating did not
occur until five years later.

12

App. 161

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 13 of 16

45.

It is inconceivable to think that a subpoena designed for the purpose of achieving the

Committee’s explicitly national and international goals and structured around a particular action by
the federal government that took place in Washington D.C. is properly tailored to the New York grand
jury’s state-law investigation. Slapping on a demand for tax returns for the same time period from the
same (in some cases extra-jurisdictional) entities serves only to further undermine the tailoring of the
Mazars subpoena.
IV.

Litigation over the validity of the Mazars subpoena.
46.

The subpoena “COMMANDED” Mazars “to appear before the GRAND JURY of

the County of New York, at the Grand Jury Room 907, of the Criminal Courts Building at One Hogan
Place, between Centre and Baxter streets, in the Borough of Manhattan of the City, County and State
of New York, on September 19, 2019 at 2:00 p.m. of the same day, as a witness in a criminal
proceeding.”
47.

On September 19, 2019, the President filed this §1983 suit arguing that the disputed

subpoena is invalid. The President also sought a preliminary injunction to enjoin enforcement of the
subpoena. Shortly thereafter, the District Attorney sought dismissal on jurisdictional grounds and
opposed the President’s request for an injunction. This Court granted dismissal under Younger v. Harris,
401 U.S. 37 (1971), and, alternatively, denied the President’s preliminary-injunction motion. See Trump
v. Vance, 395 F. Supp. 3d 283 (S.D.N.Y. 2019). The President appealed.
48.

On November 4, 2019, the Second Circuit rejected this Court’s holding that Younger

abstention applied, but agreed that the President wasn’t entitled to a preliminary injunction. As a result,
the Second Circuit vacated the judgment dismissing the lawsuit, affirmed the denial of the preliminary
injunction, and remanded the matter for further proceedings consistent with its opinion. See Trump v.
Vance, 941 F.3d 631 (2d Cir. 2019). The President filed a petition for writ of certiorari.

13

App. 162

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 14 of 16

49.

The Supreme Court granted review and, on July 9, 2020, issued an opinion affirming

the Second Circuit’s judgment. The Court also remanded the case for further proceedings consistent
with its opinion. See Vance, Slip. Op. at 1-22.
V.

Governing Law
50.

The Supreme Court held that on remand the President could allege, inter alia, that this

is not a “properly tailored” grand-jury subpoena. Id. at 13. As the Court explained, “grand juries are
prohibited from engaging in arbitrary fishing expeditions.” Id. at 16. This tailoring command requires
the reviewing courts to evaluate the “breadth” of the subpoena. Id. at 20. Federal and New York
criminal law afford similar protections to all citizens. See generally United States v. R. Enterprises, Inc., 498
U.S. 292 (1991); In re Grand Jury Proceedings, 616 F.3d 1186 (3d Cir. 2010); Virag v. Hynes, 54 N.Y. 2d
437, 430 N.E. 2d 1249 (1981).
51.

The Court held that the President also may assert on remand that this subpoena “‘is

motivated by a desire to harass’” or has been issued “‘in bad faith.’” Vance, Slip. Op. at 16. Federal
and New York criminal law afford similar protections to all citizens. See generally United States v. R.
Enterprises, Inc., 498 U. S. 292 (1991); Huffman v. Pursue, Ltd., 420 U. S. 592 (1975); Virag v. Hynes, 54
N.Y. 2d 437, 430 N.E. 2d 1249 (1981).
52.

But the President is no ordinary litigant. “The high respect that is owed to the office

of the Chief Executive should inform the conduct of the entire proceeding, including the ... scope of
discovery.” Vance, Slip. Op. at 20. “These protections” against overbroad and bad-faith grand-jury
subpoenas thus “‘apply with special force to a President, in light of the office’s unique position as the
head of the Executive Branch.’” Id. at 16. In accordance with Article II of the Constitution, the court’s
examination of a grand-jury subpoena for the President’s records “should be particularly meticulous.”
Id. at 20.

14

App. 163

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 15 of 16

CLAIMS FOR RELIEF
COUNT I: OVERBREADTH
53.

The President incorporates all prior allegations.

54.

The subpoena seeks voluminous documents that have no relation to the grand jury’s

investigation and instead relate to topics and entities that far exceed the District Attorney’s jurisdiction
under New York law.
55.

The subpoena covers a timeframe far exceeding that of the grand jury’s investigation.

56.

The subpoena is overbroad, improperly tailored, and otherwise amounts to an arbitrary

fishing expedition.
57.

Accordingly, the subpoena amounts to harassment of the President in violation of his

legal rights, including those held under Article II of the Constitution.
COUNT II: BAD FAITH
58.

The President incorporates all prior allegations.

59.

In response to a dispute over whether the President’s tax returns were encompassed

by a grand-jury subpoena, the District Attorney photocopied a sweeping congressional demand and
issued it to the President’s records custodian.
60.

The District Attorney lacked a good-faith basis to believe that the subpoena is tailored

to the grand jury’s investigation. Rather, the District Attorney has admitted that the subpoena is not
based on or tied to any potential violations of New York law.
61.

Whether the District Attorney photocopied a congressional subpoena for political

reasons, for efficiency reasons, or for both, he knowingly and intentionally issued a wildly overbroad
subpoena for the President’s records.
62.

The subpoena was issued in bad faith.

63.

Accordingly, the subpoena amounts to harassment of the President in violation of his

legal rights, including those held under Article II of the Constitution.

15

App. 164

Case 1:19-cv-08694-VM Document 57 Filed 07/27/20 Page 16 of 16

WHEREFORE, The President asks this Court to enter judgment in his favor and provide
the following relief:
a.

A declaratory judgment that the subpoena is invalid and unenforceable.

b.

A permanent injunction quashing or modifying the subpoena as necessary to protect

the President’s legal rights.
c.

A permanent injunction prohibiting the District Attorney from taking any action to

enforce the subpoena, from imposing sanctions for noncompliance with the subpoena, and from
inspecting, using, maintaining, or disclosing any information obtained as a result of the subpoena.
d.

A permanent injunction prohibiting Mazars from disclosing, revealing, delivering, or

producing the requested information, or otherwise complying with the subpoena.
e.

The President’s reasonable costs and expenses, including attorney’s fees; and

f.

All other preliminary and permanent relief to which the President is entitled.

Dated: July 27, 2020

Respectfully submitted,
s/ William S. Consovoy
William S. Consovoy
Cameron T. Norris
Alexa R. Baltes
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
cam@consovoymccarthy.com

Marc L. Mukasey
MUKASEY FRENCHMAN & SKLAROFF LLP
Two Grand Central Tower
140 East 45th Street, 17th Floor
New York, NY 10177
(212) 466-6400
marc.mukasey@mukaseylaw.com
Alan S. Futerfas
LAW OFFICES OF ALAN S. FUTERFAS
565 Fifth Ave., 7th Floor
New York, NY 10017
(212) 684-8400
asfuterfas@futerfaslaw.com

Patrick Strawbridge
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com

Counsel for President Donald J. Trump

16

App. 165

